<html>
<title> - ESEA REAUTHORIZATION: THE IMPORTANCE OF A WORLD-CLASS K-12 EDUCATION FOR OUR ECONOMIC SUCCESS</title>
<body><pre>[Senate Hearing 111-885]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-885

 ESEA REAUTHORIZATION: THE IMPORTANCE OF A WORLD-CLASS K-12 EDUCATION 
                        FOR OUR ECONOMIC SUCCESS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
    REAUTHORIZATION, FOCUSING ON K-12 EDUCATION FOR ECONOMIC SUCCESS

                               __________

                             MARCH 9, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
  55-474 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut    MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland       JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico           LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington            RICHARD BURR, North Carolina
JACK REED, Rhode Island             JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont        JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                 ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania  LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina        TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                PAT ROBERTS, Kansas
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado


                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)











                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, MARCH 9, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Schleicher, Andreas, Head of Indicators and Analysis Division, 
  Education Directorate, Organisation for Economic Co-operation 
  and Development, Paris, France.................................     4
    Prepared statement...........................................     7
Roekel, Dennis Van, President, National Education Association, 
  Washington, DC.................................................    15
    Prepared statement...........................................    16
Butt, Charles, Chairman and CEO, H-E-B, San Antonia, TX..........    33
    Prepared statement...........................................    35
Castellani, John, President, Business Roundtable, Washington, DC.    36
    Prepared statement...........................................    37
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................    46
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee    49
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    51
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...    53
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    54
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    58
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    60
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    61

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Brown................................................    67
    Senator Casey................................................    68
    Response by Andreas Schleicher to questions of:..............
        Senator Mikulski.........................................    69
        Senator Casey............................................    69
    Response by Dennis Van Roekel to questions of Senator Casey..    70
    Response to questions of Senator Casey by Charles Butt.......    74
    Response by John Castellani to questions of:.................
        Senator Dodd.............................................    75
        Senator Casey............................................    76

                                 (iii)

  

 
 ESEA REAUTHORIZATION: THE IMPORTANCE OF A WORLD-CLASS K-12 EDUCATION 
                        FOR OUR ECONOMIC SUCCESS

                              ----------                              


                         TUESDAY, MARCH 9, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to the notice, at 3:04 p.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Dodd, Murray, Reed, Sanders, 
Merkley, Franken, Bennet, Enzi, and Alexander.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    I would like to thank all of you for being here today for 
the first in a series of hearings focusing on reauthorizing of 
the Elementary and Secondary Education Act. Again, I apologize 
for the time delays, but we had votes on the floor of the 
Senate that held us up.
    Testimony from educators and experts today and in 
subsequent hearings will guide us as we undertake the process 
to reshape this bill. Now, we have learned a lot since No Child 
Left Behind was passed 9 years ago, and I look forward to 
working with my colleagues here to protect the goals of the 
bill while fixing the things that are not working.
    I appreciate the opportunity to collaborate with our 
Ranking Member, Senator Enzi, on this issue. His knowledge and 
commitment on education issues make him a very valuable partner 
in this endeavor. We have a lot of expertise, as a matter of 
fact, on this committee, including one former Secretary of 
Education on this committee.
    Today's hearing on the economic importance of having a 
world-class K-12 education system should remind us of the 
critical importance of this reauthorization. In the coming 
weeks, we will hold additional hearings to explore specific 
topics related to ESEA, but today I think it is important for 
all of us to remember what is really at stake as we kick off 
this process: the competitiveness of our children and 
grandchildren in the global marketplace and the future well-
being of our country.
    Well-educated Americans are the single most important 
factor in maintaining our productivity and global leadership, 
and in preparing our children to contribute to their 
communities and our Nation at their full potential. It is 
projected that by 2014, right around the corner, 75 percent of 
new jobs will require some post-secondary education. Many are 
questioning whether the United States is falling behind 
relative to the progress of other countries.
    Well, U.S.-college completion rates are flat. Twenty years 
ago, the United States was first in the world in post-secondary 
attainment. Our Nation has now fallen to 12th.
    In recognition of this, President Obama has set an 
ambitious goal for Americans to reclaim the world's highest 
rate of college attainment by 2020. And the only way that we 
can meet the President's goal is to ensure that our children 
are leaving high school with the tools they need to be 
successful in college and beyond.
    The changing global economy in the information age is 
putting new demands on the workforce. Businesses are putting a 
premium on workers who can think critically and problem solve, 
skills that are developed and honed during a student's 
formative years. Moreover, new technology makes the physical 
location of workers less important, meaning American workers 
are being forced to compete for jobs with workers in other 
countries more than ever before.
    Despite this challenge, American students are falling 
behind their international counterparts. Recent studies rank 
American 15-year-olds 24th in the world in terms of math 
achievement. As a consequence, since 1975, we have fallen from 
3rd to 15th place in the world in turning out scientists and 
engineers, careers that are ever more important in today's 
economy.
    However, our challenges extend beyond the critical fields 
of math and science. Forty years ago, the United States had one 
of the best levels of high school attainment. Today we rank 
19th in the world in high school graduation rates.
    Until recently, the education of all students was seen more 
as a civil rights or moral imperative than as an economic 
issue, and quite frankly, that still is an issue. It is a moral 
imperative, and I believe it is also a civil rights imperative, 
but it is also an economic issue. Recent studies show that the 
main reason we are falling behind other countries is because of 
the achievement gap, or the difference in academic achievement 
between minority and disadvantaged students and their White or 
affluent counterparts.
    At the same time, U.S. demographics are shifting. The 
Census Bureau says that by mid-century over 60 percent of 
school children will be minorities. A study by the Alliance for 
Excellent Education found that if the Nation's high schools and 
colleges were to raise the graduation rates of Hispanic, 
African-American, and Native American students to the level of 
their counterparts by 2020, the increase in personal income 
across the Nation would add more than $310 billion annually to 
the U.S. economy.
    I look forward to hearing from our witnesses about these 
and other issues. As we move forward with the ESEA 
reauthorization process and as we immerse ourselves in the 
details of this complex bill, we should keep the big picture in 
mind.
    And with that, I will turn it over to Senator Enzi for his 
opening statement and then introduce our witnesses.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and I want to thank 
you for starting this series of hearings on the reauthorization 
of the Elementary and Secondary Education Act. Beginning with a 
hearing on the importance of world-class K-12 education for our 
economic success is an appropriate way to initiate our review 
of the issues surrounding reauthorization. It sets the stage as 
we move forward to develop legislation that builds upon what we 
have learned from No Child Left Behind and fixes what is not 
working.
    I know that there are those who complain about No Child 
Left Behind because it seems to focus on failure rather than 
success. I also know that there are those who applaud it for 
the positive changes it has created in the K-12 education 
system. At a minimum, it has managed to change the way we look 
at the achievement of our students, emphasized teacher quality 
and parental involvement, and required accountability for 
results.
    One thing I know everyone agrees with, however, is that our 
children deserve to receive the best education our country can 
provide for them. Yet, too many of our students continue to be 
ill-served by the schools they attend and either fall behind 
or, worse yet, drop out of school. This is not good for their 
future, nor is it good for our country's future.
    Our economy depends on an educated and skilled workforce to 
be successful in the global market. In the United States, we 
face two major challenges for students entering the workforce. 
First, a growing number of jobs require more than a high school 
education. Second, over the past 30 years, one country after 
another has surpassed us in the proportion of their entering 
workforce that has at least a high school diploma.
    Every day in our country, about 7,000 students drop out of 
high school. Even for those students who do stay in school and 
earn a high school diploma, there is no guarantee that they 
have learned the basics needed to succeed in post-secondary 
education and the workforce. In fact, nearly half of all 
college students must take remedial courses after graduating 
from high school before they can take college-level course 
work. This lack of preparation means that our college students 
spend more time and money in tuition just to catch up. It is 
hard for them and it is hard for our country to get ahead if we 
are playing catch-up.
    Each year, more than 1 million students enter college for 
the first time with the hope and expectation of earning a 
bachelor's degree. Of those, fewer than 40 percent will 
actually meet the goal within 4 years; barely 60 percent will 
achieve it in 6 years. Among minority students, remedial course 
participation rates are even higher and completion rates are 
even lower.
    There is no question that some education and training 
beyond high school is a prerequisite for employment in jobs and 
careers that support a middle-class way of life. Lifetime 
earnings for individuals with a bachelor's degree are, on 
average, almost twice as much as high school graduates.
    Once first in the world, America now ranks 10th in the 
proportion of young people with a college degree. Less than 40 
percent of Americans hold an associate or bachelor's degree, 
and substantial racial and income gaps persist. The projections 
are that within a decade, 6 out of every 10 Americans must have 
a degree or recognized credential to succeed in the workforce. 
This being the case, we are facing a major deficit of skilled 
workers which, in turn, threatens our ability to grow 
economically. We used to have the best educated workforce in 
the world, but that is no longer true.
    That is why I am excited about beginning our work on the 
reauthorization of the Elementary and Secondary Education Act, 
ESEA. Funds provided through the act assist schools in meeting 
the needs of our most disadvantaged students and providing them 
with a quality education. The skills students learn in the 
earliest grades are the building blocks to their success in 
high school, college, and in the workforce. Our country cannot 
continue to be competitive in the global economy if we do not 
have an educated workforce.
    I want to welcome and thank all the witnesses who are here 
today, and I look forward to hearing from you. Again, I thank 
you for getting these hearings started.
    The Chairman. Thank you very much, Senator Enzi. I look 
forward to getting this reauthorization started and done.
    Well, we have a good group of witnesses to kick off our 
series of hearings. I thank them for being here. I will say 
that your statements will be made a part of the record in their 
entirety and ask each of you to sum up your testimony in order. 
We will start first on my left, your right.
    First is Andreas Schleicher, who is the Head of the 
Indicators and Analysis Division, Directorate for Education, in 
the Organisation for Economic Co-Operation and Development, the 
OECD. Mr. Schleicher is responsible for developing and 
analyzing systems that allow the OECD to compare the relative 
achievements of students internationally.
    Next, we have Mr. Dennis Van Roekel, the President of the 
National Education Association. Mr. Van Roekel is a 23-year 
teaching veteran of high school math and a longtime activist 
and, of course, advocate for our children and public education.
    Then we will next hear from Charles Butt, the CEO of H-E-B 
Supermarket based in San Antonio, TX. Mr. Butt's privately held 
company has 315 stores, $15 billion in sales, employs 70,000 
individuals, and donates 5 percent of pretax earnings to public 
and charitable causes.
    Finally, John Castellani will wrap up our testimony. Mr. 
Castellani is President of Business Roundtable, an association 
of chief executive officers of leading U.S. corporations with a 
combined workforce of nearly 10 million employees and $5 
trillion in annual revenues.
    Again, thank you all very much for being here, and Mr. 
Schleicher, welcome, and as I said, if you could sum up your 
testimony in 5 or 7 minutes, we would sure appreciate it.

    STATEMENT OF ANDREAS SCHLEICHER, HEAD OF INDICATORS AND 
  ANALYSIS DIVISION, EDUCATION DIRECTORATE, ORGANISATION FOR 
      ECONOMIC CO-OPERATION AND DEVELOPMENT, PARIS, FRANCE

    Mr. Schleicher. Thank you very much.
    The OECD are now putting a lot more emphasis on education 
because we are seeing a growing impact of skills on the 
economic success of individuals and nations. We are also seeing 
that the increase in knowledge workers OECD countries has not 
led to a decrease in the pay, which is what happened to low-
skilled workers. And finally, the yardstick for educational 
success is no longer simply improvement by national standards, 
but the best performing systems globally.
    If you look at international systems comparisons, they show 
you what is possible. For example, the International PISA test 
showed Canadian 15-year-olds to be well over a school year 
ahead of 15-year-olds in the United States. They also show 
socially disadvantaged Canadians to be much less at risk of 
poor performance than is the case in the United States, and 
even some countries as diverse as the United States come out 
with a smaller achievement gap. There is a lot to be learned.
    International comparisons also give you an idea of the pace 
of progress that can be achieved. People often dismiss the 
stunning successes of countries like Singapore or Korea because 
they are hard to replicate in a western context. But think 
about Poland. Poland raised the literacy skills of its 15-year-
olds by the equivalent of almost a school year in less than a 
decade. Poland also succeeded in cutting the variability of 
school performance in half over that period.
    If the United States would do what Poland has done and 
achieve a similar level of increase in performance, that could 
translate into the longer-term economic value of over $40 
trillion in today's GDP. If the United States would close its 
large achievement gap by ensuring that the quarter of students 
that, according to our accounts now, do very poorly, reach at 
least the PISA baseline level 2, you would talk about $70 
trillion in additional national income.
    Let me add that we have very recent evidence showing that 
those who do not reach this baseline level of proficiency 
actually face very serious risks for the transition to work and 
also for subsequent educational opportunities. The education 
gap just widens as people get older.
    A couple of points worth making about those systems doing 
well. Many of them have developed educational standards to 
establish rigorous, focused, and coherent content across the 
entire system, across all levels. They have often coupled this 
with actually devolving more responsibility to the front line, 
encouraging schools to take much more responsibility and 
responsiveness to local needs.
    Of course, the United States has a decentralized system too 
but, while many systems have decentralized the delivery of 
educational service by actually keeping quite tight control of 
the definition and management of outcomes, the United States is 
quite unique in having decentralized both the delivery of 
service and the control over outcomes.
    Of course, the common core standards currently being 
developed might change all of that and address one of the big 
issues of widely discrepant State standards and also different 
cut scores, which mean that a student's success depends more 
than anything on where they are located, which is quite 
different from many other countries.
    That is just one side of the coin. The harder part actually 
is to create an environment for standards to translate into 
better instructions. Many countries have developed quite strong 
support systems that help individual teachers to better 
identify where the weaknesses are, seek to provide them as 
evidence and advice on what best practices are, and finally 
motivate them to make the necessary changes. That goes actually 
quite well beyond material incentives.
    Second, while performance data in the United States is 
often used for punitive accountability purposes, other 
countries tend to give greater weight to guide intervention, 
reveal best practices, and identify shared problems in order to 
encourage teachers in schools to develop a more productive 
environment. They also seek to intervene in the most troubled 
schools first rather than identifying too many schools as 
needing an improvement, which you consider a drawback of the 
current NCLB system by international standards.
    Another drawback of the current NCLB system is sort of what 
we call the ``single bar'' problem that leads to a lot of focus 
on students nearing proficiency while not valuing achievement 
growth through the system, and many countries address that 
through accountability systems that involve progressive 
learning targets that extends through the entire system, which 
lay out the steps that learners follow as they advance.
    The global trend here actually goes to what we call 
multilayered, coherent assessment systems that extend from 
classrooms to schools or local levels, regional levels, 
national levels, and international levels that are part of 
well-aligned instructional services and systems and provide 
information that students, teachers, and administrators can 
actually act on.
    Third and finally, many of the high-performing systems 
often do four things well. First of all, they have means to 
attract the best graduates into the teaching profession, 
realizing that the quality of the system cannot exceed the 
quality of the teachers. You have some countries getting the 
top 10 percent of graduates becoming teachers, and that is not 
primarily about money and salaries. They develop those teachers 
into effective instructors through, for example, coaching 
classroom practices or moving teacher training much more to the 
school and to the classroom, and they put in place incentives 
and differentiated support systems to ensure that every child 
is benefiting from that kind of instruction. And finally, they 
build networks of schools that stimulate and spread in a way 
you can share best practices.
    Let me make one final point. Many of those policy drivers 
that our analysis identify are actually not about money. In 
fact, spending in the United States is actually quite high by 
international standards in education. It is much more about 
investing the resources where they can make most of the 
difference, attracting the most talented teachers into the most 
difficult schools. It is about those kinds of things. The 
bottom line is that economic returns to improve learning 
outcomes--I gave you some numbers--actually exceed by far any 
conceivable cost of improvement.
    Thank you very much.
    [The prepared statement of Mr. Schleicher follows:]
                Prepared Statement of Andreas Schleicher
                                Summary
           a growing impact of education for economic success
    The relative importance of knowledge and skills for the economic 
success of individuals and nations is rapidly increasing. In addition, 
in the global economy, the yardstick for educational success is no 
longer merely improvement by national standards, but the best 
performing education systems internationally. International comparisons 
can drive educational improvement in several ways:

    <bullet> By showing what is possible in education, they can help 
optimize policies but also to reflect on alternatives to existing 
policies. For example, the international PISA assessments show Canadian 
15-year-olds, on average, to be well over a school year ahead of 15-
year-olds in the United States. They also show socio-economically 
disadvantaged Canadians much less at risk of poor educational 
performance than is the case in the United States.
    <bullet> They can assist with gauging the pace of educational 
progress and help reviewing the reality of educational delivery at the 
frontline. For example, Poland raised the reading performance of its 
15-year-olds by the equivalent of almost a school year in less than a 
decade. It also succeeded in halving performance differences between 
schools. The long-term economic value of a similar improvement in 
outcomes for the United States could be equivalent to over $40 trillion 
in additional national income. If the United States were to catch up 
with the best performing education system, Finland, the U.S. economy 
could gain $103 trillion. The international and national achievement 
gaps are imposing on the U.S. economy an invisible yet recurring 
economic loss that is greater than the output shortfall in the current 
economic crisis.
    <bullet> They can help set policy targets in terms of measurable 
goals achieved by other systems and help to identify policy levers and 
to establish trajectories for reform.

    Education systems in the industrialized world have improved more 
rapidly than the United States. Over the last decade, the United States 
has fallen from second place to 14th in terms of its college graduation 
rate. While primary-grade school children tend to do well by 
international standards, the latest PISA assessments show U.S. students 
performing below the OECD average. The United States also has a 
comparatively large achievement gap, which signals serious risks for 
students in their initial transition from education to work and of 
failing to benefit from further education and learning opportunities in 
their later life.
                          education standards
    National educational standards have helped many of the top 
performing education systems in important ways to establish rigorous, 
focused and coherent content at all grade levels; reduce overlap in 
curricula across grades; reduce variation in implemented curricula 
across classrooms; and facilitate co-ordination of various policy 
drivers ranging from curricula to teacher training. Countries have 
often coupled the establishment of standards with devolving 
responsibility to the frontline, encouraging responsiveness to local 
needs. The United States is, of course, a decentralized education 
system too, but while many systems have decentralized decisions 
concerning the delivery of educational services while keeping tight 
control over the definition of outcomes, the design of curricula, 
standards and testing, the United States is different in that it has 
decentralized both inputs and control over outcomes. Moreover, while 
the United States has devolved responsibilities to local authorities, 
schools themselves have less discretion in decisionmaking than is the 
case in many OECD countries.
    The establishment of ``common core standards'' in the United States 
is an important step that could address the current problem of widely 
discrepant State standards and ``cut'' scores that have led to non-
comparable results and often mean that a school's fate depends more 
than anything else on what State it is located. Do you want to focus 
this on students' fates, too?
               accountability systems in other countries
    While performance data in the United States are largely used for 
punitive accountability purposes, other countries tend to give greater 
weight to guide intervention, reveal best practices and identify shared 
problems in order to encourage teachers and schools to develop more 
supportive and productive learning environments. They also seek to 
intervene in the most troubled schools, rather than identifying too 
many schools as needing improvement--a drawback of the current NCLB 
system.
    Another major drawback of the current NCLB system, the ``single 
bar'' problem that leads to undue focus on students nearing proficiency 
rather than valuing achievement growth, is addressed in many countries 
through assessment and accountability systems that comprise progressive 
learning targets which delineate pathways characterising the steps that 
learners typically follow as they become more proficient and establish 
the breadth and depth of the learner's understanding of the domain at a 
particular level of advancement. The global trend here is leading 
towards multi-layered, coherent assessment systems from classrooms to 
schools to regional to national to international levels that: support 
improvement of learning at all levels of the system; are increasingly 
performance-based; add value for teaching and learning by providing 
information that can be acted on by students, teachers, and 
administrators; and are part of a comprehensive and well-aligned 
instructional learning system that includes syllabi, associated 
instructional materials, matching exams, professional scoring and 
teacher training.
                      an effective teaching force
    Third, many high performing systems share a commitment to 
professionalized teaching. To achieve this, they often do four things 
well: First, they attract the best graduates to become teachers, 
realizing that the quality of an education system cannot exceed the 
quality of its teachers. For example, countries like Finland or Korea 
recruit their teachers from the top 10 percent graduates. Second, they 
develop these teachers into effective instructors, through, for 
example, coaching classroom practice, moving teacher training to the 
classroom, developing strong school leaders and enabling teachers to 
share their knowledge and spread innovation. Third, they put in place 
incentives and differentiated support systems to ensure that every 
child is able to benefit from excellent instruction. Fourth, they place 
emphasis on building various ways in which networks of schools 
stimulate and spread innovation as well as collaborate to provide 
curriculum diversity, extended services and professional support and 
foster strong approaches to leadership that help to reduce between-
school variation through system-wide networking and to build lateral 
accountability.
                                 ______
                                 
                              introduction
    The Organization for Economic Co-Operation and Development (OECD) 
is placing increasing emphasis on education and training, as the 
relative importance of knowledge and skills for the success of advanced 
economies is rapidly increasing. In addition, in the global economy, 
the yardstick for educational success is no longer merely improvement 
by national standards, but the best performing education systems 
internationally. International comparisons have thus become an 
important tool to assess and drive educational change:

    <bullet> By showing what is possible in education, they can help to 
optimise policies but also to reflect on more fundamental alternatives 
to existing policies, which become apparent when these are contrasted 
with policies and practices pursued by other countries. For example, 
the OECD PISA assessments\1\ show Canadian 15-year-olds, on average, to 
be well over a school year ahead of 15-year-olds in the United States 
in key subjects such as mathematics or science. They also show socio-
economically disadvantaged Canadians much less at risk of poor 
educational performance than is the case in the United States.
---------------------------------------------------------------------------
    \1\ PISA stands for the OECD Program for International Student 
Assessment, a test of student knowledge and skills that are 
administered by the OECD on behalf of participating governments on a 3-
yearly basis in now 70 countries.
---------------------------------------------------------------------------
    <bullet> They can help set policy targets in terms of measurable 
goals achieved by other systems and help to identify policy levers and 
to establish trajectories for reform. Just on February 24, for example, 
the United Kingdom's Prime Minister announced the goal to raise student 
performance in the United Kingdom to Rank 3 on the international PISA 
mathematics assessment and Rank 6 on the PISA science assessment, 
together with a range of policies to achieve these targets.\2\
---------------------------------------------------------------------------
    \2\ The announcement was made on February 24, 2010, see http://
www.number10.gov.uk/Page22580.
---------------------------------------------------------------------------
    <bullet> They can assist with gauging the pace of educational 
progress and reviewing the reality of educational delivery at the 
frontline. For example, Poland raised the performance of its 15-year-
olds in PISA reading by the equivalent of almost a school year in less 
than a decade. It also succeeded in halving performance differences 
between schools. The long-term economic value of a similar improvement 
in student performance for the United States could be equivalent to 
over $40 trillion in additional national income.
    <bullet> Last but not least, they can support the political economy 
of educational reform, which is a major issue in education where any 
pay-off to reform almost inevitably accrues to successive governments 
if not generations.

    This paper (1) provides an analysis of where the United States 
stands, compared with the principal industrialized countries 
internationally, (2) quantifies the economic value of improvements in 
learning outcomes, and (3) identifies some policy levers for 
educational improvement that emerge from international comparisons and 
transcend economic and cultural settings.
         the united states is losing its educational advantage
    Among the 30 OECD countries with the largest expansion of college 
education over the last decades, most still see rising earnings 
differentials for college graduates, suggesting that an increase in 
knowledge workers does not necessarily lead to a decrease in their pay 
as is the case for low-skilled workers (OECD, 2008). The other player 
in the globalization process is technological development, but this too 
depends on education, not just because tomorrow's knowledge workers and 
innovators require high levels of education, but also because a highly 
educated workforce is a pre-requisite for adopting and absorbing new 
technologies and increasing productivity. Together, skills and 
technology have flattened the world such that all work that can be 
digitized, automated and outsourced can now be done by the most 
effective and competitive individuals, enterprises or countries, 
wherever they are.
    No country has been able to capitalize on the opportunities this 
``flat world'' provides more than the United States, which can draw on 
the most highly educated labor force among the principal industrialized 
nations, at least when measured in terms of formal qualifications. 
However, this advantage is largely a result of the ``first-mover 
advantage'' which the United States gained after Word War II by 
massively increasing enrollments. That advantage is now eroding quickly 
as more and more countries reach and surpass United States 
qualification levels. In fact, many countries are now close to ensuring 
that virtually all young adults leave schools with at least a high 
school degree (OECD average 82 percent), which the OECD indicators 
highlight as the baseline qualification for reasonable earnings and 
employment prospects. Over time, this will translate into better 
workforce qualifications in these countries. In contrast, the United 
States (78 percent) stood still on this measure and among OECD 
countries only New Zealand, Spain, Turkey, and Mexico now have lower 
high school completion rates than the United States. Even when 
including qualifications such as the GED (Graduate Equivalent Degree) 
that people can acquire later in life to make up for unsuccessful 
school completion, the United States has slipped from rank 1 among OECD 
countries for adults born in the 1940s to rank 11 among those born in 
the 1970s. Again, that is not because completion rates in the United 
States declined, but because they have risen so much faster in many 
other countries. Two generations ago, South Korea had the economic 
output of Afghanistan today and was at rank 24 in terms of educational 
output among today's OECD countries. Today it is the top performer in 
terms of the proportion of successful school leavers, with 96 percent 
of an age cohort obtaining a high school degree. Similar trends are 
visible in college education, where the United States slipped between 
1995 and 2005 from rank 2 to rank 14, not because U.S. college 
graduation rates declined, but because they rose so much faster in many 
OECD countries. Graduate output is particularly low in science, where 
the number of people with a college degree per 100,000 employed 25- to 
34-year-olds was 1,081 compared with 1,376 on average across OECD 
countries and more than 2,000 in Australia, Finland, Korea and Poland 
(OECD, 2009a). Whether the United States can continue to compensate for 
this, at least in part, through utilizing foreign science graduates 
will depend on the development of labor-markets in other countries. The 
developments will be amplified over the next decades as countries like 
China or India are raising their educational output at an ever-
increasing pace.
          quality of educational outcomes in the united states
    Quantity matters, but quality is even more important. The OECD 
Program for International Student Assessment (PISA) extends the picture 
that emerges from comparing national degrees with the most 
comprehensive international assessment of student knowledge and skills. 
PISA represents a commitment by 70 countries that together make up 
close to 90 percent of the world economy to monitor the outcomes of 
education systems in terms of student achievement on a regular basis, 
within an internationally agreed framework, and in innovative ways that 
reflect judgments about the skills that are relevant to adult life.\3\
---------------------------------------------------------------------------
    \3\ PISA seeks to assess not merely whether students can reproduce 
what they have learned in science, mathematics, and reading--which is 
easy to teach and test--but also how well they can extrapolate from 
what they have learned and apply their knowledge in novel situations.
---------------------------------------------------------------------------
    On the 2006 PISA science assessment of 15-year-olds, the United 
States ranked 21st among the 30 OECD countries \4\ (OECD, 2007). 
Moreover, while the proportion of top-performers in the United States 
was similar to the OECD average, the United States had a comparatively 
large proportion of poor performers: 24.4 percent of U.S.-15-year-olds 
did not reach Level 2, the baseline level of achievement on the PISA 
scale at which students begin to demonstrate the science competencies 
that will enable them to participate actively in life situations 
related to science and technology.\5\ A longitudinal follow-up of 
29,000 PISA students in Canada suggests that the absence of foundation 
skills below the PISA Level 2 signals serious risks for students in 
their initial transition from education to work and of failing to 
benefit from further education and learning opportunities in their 
later life. For example, the odds of Canadian students who had reached 
PISA Level 5 in reading at age 15 to achieve a successful transition to 
post-secondary education by age 19 were 16 times higher than for those 
who had not achieved the baseline Level 2, even after adjustments for 
socio-economic differences are made (OECD, 2010a).\6\ By age 21, the 
odds were even 20 times higher, suggesting that the advantages of 
success in high school are growing further as individuals get older.
---------------------------------------------------------------------------
    \4\ The confidence interval extends from the 18th to the 25th rank.
    \5\ To reach Level 2 requires competencies such as identifying key 
features of a scientific investigation, recalling single scientific 
concepts and information relating to a situation, and using results of 
a scientific experiment represented in a data table as they support a 
personal decision. In contrast, students not reaching Level 2 often 
confuse key features of an investigation, apply incorrect scientific 
information, and mix personal beliefs with scientific facts in support 
of a decision.
    \6\ No such data are available for the United States.
---------------------------------------------------------------------------
    Students who did not surpass the most basic performance level on 
PISA were not a random group. The results show that socio-economic 
disadvantage has a particularly strong impact on student performance in 
the United States. Indeed, 18 percent of the variation in student 
performance in the United States is explained by students' socio-
economic background--this is significantly more than at the OECD 
average level and contrasts, for example, with just 8 percent in Canada 
or 7 percent in Japan. This is not simply explained by a socio-
economically more heterogeneous U.S. student population, but mainly by 
an above-average impact of socio-economic differences on learning 
outcomes. In other words, the United States is among the OECD countries 
where two students of different socio-economic background show the 
largest difference in learning outcomes. Other countries with similar 
levels of disparities included only France, New Zealand, the Czech 
Republic, the United Kingdom, Belgium and Germany. It would perhaps be 
tempting to attribute the performance lag of U.S. students to the 
challenges which socio-economic disparities and ongoing immigrant 
inflows pose to the education system. However, while the integration of 
students with an immigrant background poses significant challenges in 
many countries, among the countries that took part in the latest PISA 
assessment there are several with a larger immigrant intake than the 
United States which, nevertheless, scored better.
                    the cost of the achievement gap
    The international achievement gap is imposing on the U.S. economy 
an invisible yet recurring economic loss that is greater than the 
output shortfall in what has been called the worst economic crisis 
since the Great Depression. Using economic modelling to relate 
cognitive skills--as measured by PISA and other international 
instruments--to economic growth shows that even small improvements in 
the skills of a nation's labour force can have very large impacts on 
the future well-being of countries. A recent study carried out by the 
OECD in collaboration with the Hoover Institute at Stanford University 
suggests that a modest goal of having the United States boost its 
average PISA scores by 25 points over the next 20 years--which is less 
than the most rapidly improving education system in the OECD, Poland, 
achieved between 2000 and 2006 alone--could imply a gain of U.S.D 41 
trillion for the U.S. economy over the lifetime of the generation born 
in 2010 (as evaluated at the start of reform in terms of real present 
value of future improvements in GDP). Bringing the United States up to 
the average performance of Finland, the best performing education 
system in PISA in the OECD area, could result in gains in the order of 
U.S.D 103 trillion. Narrowing the achievement gap by bringing all 
students to a level of minimal proficiency for the OECD (i.e. reaching 
a PISA score of 400), could imply GDP increases for the United States 
of U.S.D 72 trillion according to historical growth relationships 
(OECD, 2010b). The predictive power of student performance at school on 
subsequent successful education and labour-market pathways is also 
demonstrated through longitudinal studies (OECD, 2010a). In either 
case, the evidence shows that it is the quality of learning outcomes, 
as demonstrated in student performance, not the length of schooling or 
patterns of participation, which contribute most to economic outcomes.
    The gains from improved learning outcomes, put in terms of current 
GDP, far outstrip today's value of the short-run business-cycle 
management. This is not to say that efforts should not be directed at 
issues of economic recession, but it is to say that the long-run issues 
should not be neglected.
               some lessons from high achieving countries
    Perhaps the most important lesson to be learned from PISA is that 
strong performance, and indeed improvement, is possible. Whether in 
Asia (e.g., Japan and Korea), in Europe (e.g., Finland) or in North 
America (Canada), many countries display strong overall performance 
and, equally important, show that poor performance in school does not 
automatically follow from a disadvantaged socio-economic background and 
that the achievement gap can be significantly narrowed. Furthermore, 
some countries show that success can become a consistent and 
predictable educational outcome: In Finland, the country with the 
strongest overall results in PISA, the performance variation between 
schools amounts to only 5 percent of students' overall performance 
variation, so that parents can rely on high and consistent performance 
standards in whatever school they choose to enroll their children.\7\
---------------------------------------------------------------------------
    \7\ For the United States, the corresponding figure is 29 percent, 
the OECD average is 33.
---------------------------------------------------------------------------
    Performance on international comparisons cannot simply be tied to 
money, since only Luxembourg spends more per primary student than the 
United States and only Luxembourg, Switzerland, and Norway spend more 
per middle and high school student. The results for the United States 
reflect rather a range of inefficiencies. That point is reinforced by 
the fact that in international comparisons of primary grade school 
children the United States does relatively well by international 
standards which, given the country's wealth, is what would be expected. 
The problem is that as they get older, children make less progress each 
year than children in the best performing countries. The issue is 
therefore not just poor kids in poor neighbour- 
hoods, but about many kids in many neighbourhoods. It is noteworthy 
that spending patterns in many of the world's successful education 
systems are markedly different from the United States. These countries 
invest the money where the challenges are greatest rather than making 
resources contingent on the economic context of the local communities 
in which schools are located, and they put in place incentives and 
support systems that attract the most talented school teachers into the 
most difficult classrooms. They have often reformed inherited, 
traditional and bureaucratic systems of recruiting and training 
teachers and leaders, of paying and rewarding them and of shaping their 
incentives, both short-term and long-term. They often also devote a 
higher share of spending to classroom education than is the case in the 
United States and, different from the United States, often favor better 
teachers over smaller class sizes (OECD, 2009a).
    Looking beyond financial resources, PISA suggests that schools and 
countries where students work in a climate characterized by high 
performance expectations and the readiness to invest effort, good 
teacher-student relations, and high teacher morale tend to achieve 
better results. Interestingly, U.S.-15-year-olds usually rate 
themselves comparatively highly in academic performance in PISA, even 
if they did not do well comparatively. In part that may be due to 
culture, but one interpretation is also that students are being 
commended for work that would not be acceptable in high performing 
education systems. Many countries have pursued a shift in public and 
governmental concern away from the mere control over the resources and 
content of education towards a focus on outcomes. This has driven 
efforts to articulate the expectations that societies have in relation 
to learning outcomes and to translate these expectations into 
educational goals and standards. Educational standards have influenced 
many of the top performing education systems in various ways, helping 
them to establish rigorous, focused and coherent content at all grade 
levels; reduce overlap in curricula across grades; reduce variation in 
implemented curricula across classrooms; facilitate co-ordination of 
various policy drivers ranging from curricula to teacher training; and 
reduce inequity in curricula across socio-economic groups. The 
establishment, by States, of ``common core standards'' in the United 
States, which can be considered among the most innovative and evidence-
based approaches to standard-setting in the field, is an important step 
in that direction that could address the current problem of widely 
discrepant State standards and cut scores that have led to non-
comparable results and that often mean that a school's fate depends 
more than anything else on what State it is located and, perhaps even 
more importantly, that students across the United States are left on an 
unequal footing as to how well they are prepared to compete in the U.S. 
labor-
market.
    Coupled with this trend have been efforts in countries to devolve 
responsibility to the frontline, encouraging responsiveness to local 
needs, and strengthening intelligent accountability (OECD, 2009a). The 
United States is, of course, a decentralized education systems too, but 
while many systems have decentralized decisions concerning the delivery 
of educational services while keeping tight control over the definition 
of outcomes, the design of curricula, standards and testing, the United 
States is different in that it has decentralized both inputs and 
control over outcomes. Moreover, while the United States has devolved 
responsibilities to local authorities, schools themselves have less 
discretion in decisionmaking than is the case in many OECD countries. 
In this sense, the question for the United States is not just how many 
charter schools it establishes but how to build the capacity for all 
schools to assume charter-like autonomy, as happens in some of the best 
performing education systems (OECD, 2007).
    What further distinguishes the approaches to professional 
accountability developed in Finland, the use of pupil performance data 
and value-added analyses in England, or the approaches to school self-
evaluation in Denmark, is that these strike a different balance between 
using accountability tools to maintain public confidence in education, 
on the one hand, and to support remediation in the classroom aimed at 
higher levels of student learning and achievement on the other. These 
countries have gone beyond systems of test-based external 
accountability towards building capacity and confidence for 
professional accountability in ways that emphasize the importance of 
formative assessment and the pivotal role of school self-evaluation, 
the latter often in conjunction with school inspection systems that 
systematically intervene with a focus on the most troubled schools 
rather than dispersing efforts through identifying too many schools as 
needing improvement which one could consider another drawback of the 
current NCLB system. In some systems, strategic thinking and planning 
takes place at every level of the system. Every school discusses what 
the national standards might mean for them, and decisions are made at 
the level of those most able to implement them in practice. Where 
school performance is systematically assessed, the primary purpose is 
often not to support contestability of public services or market-
mechanisms in the allocation of resources. Rather it is to provide 
instruments to reveal best practices and identify shared problems in 
order to encourage teachers and schools to develop more supportive and 
productive learning environments.
    Another major drawback of the current NCLB system, the ``single 
bar'' problem that leads to undue focus on students nearing proficiency 
rather than valuing achievement growth, is addressed in many countries 
through assessment and accountability systems that incorporate 
progressive learning targets which delineate pathways characterising 
the steps that learners typically follow as they become more proficient 
and establish the breadth and depth of the learner's understanding of 
the domain at a particular level of advancement. One of the earliest 
approaches in this direction, the ``key stages'' in England, for 
example, provides a coherent system that allows measuring individual 
student progress across grades and subjects, thus also avoiding the 
problems associated with the ``multiple measures'' defining annual 
yearly progress in NCLB that have tended to lead to an undue emphasis 
on reading and mathematics.
    The global trend is leading towards multi-layered, coherent 
assessment systems from classrooms to schools to regional to national 
to international levels that:

    <bullet> support improvement of learning at all levels of the 
education system;
    <bullet> are increasingly performance-based and make students' 
thinking visible;
    <bullet> add value for teaching and learning by providing 
information that can be acted on by students, teachers, and 
administrators;
    <bullet> and that are part of a comprehensive and well-aligned 
instructional learning system that includes syllabi, associated 
instructional materials, matching exams, professional scoring and 
teacher training.

    Drawing a clearer line between assessments, on the one hand, and 
individual high-stakes examination systems helps countries to avoid 
sacrificing validity gains for efficiency gains, which tends to be an 
issue for the United States that is also mirrored in, by international 
standards, an unusually high proportion of multiple choice items.
    Second, in most of the countries that performed well in PISA, it is 
the responsibility of schools and teachers to engage constructively 
with the diversity of student interests, capacities, and socio-economic 
contexts, without having the option of making students repeat the 
school year, or transferring them to educational tracks or school types 
with lower performance requirements. To achieve this, education systems 
seek to establish bridges from prescribed forms of teaching, curriculum 
and assessment towards an approach predicated on enabling every student 
to reach their potential. Many high performing education systems have 
developed elaborate support systems that, first of all, help individual 
teachers to become aware of specific weaknesses in their own practices, 
and that often means not just creating awareness of what they do but 
changing the underlying mind set. They then seek to provide their 
teachers with an understanding of specific best practices and, last but 
not least, motivate them to make the necessary changes with instruments 
that go well beyond material incentives. Of course, the United States 
has some of the most innovative schools and teachers that have tailored 
curriculum and teaching methods to meet the needs of children and young 
people with great success for many years. However, what distinguishes 
the education systems of, for example, Victoria in Australia, Alberta 
in Canada, or Finland is the drive to make such practices systemic, 
through the establishment of clear learning pathways through the 
education system and fostering the motivation of students to become 
independent and lifelong learners. Obviously such ``personalized 
learning'' demands both curriculum entitlement and choice that delivers 
a breadth of study and personal relevance. But the personalization in 
these countries is in terms of flexible learning pathways through the 
education system rather than individualized goals or institutional 
tracking, which have often been shown to lower performance expectations 
for students and tend to provide easy ways out for teachers and schools 
to defer problems rather than solving them.
    Third, many high performing systems share a commitment to 
professionalized teaching, in ways that imply that teachers are on a 
par with other professions in terms of diagnosis, the application of 
evidence-based practices, and professional pride. To achieve this, they 
often do four things well: First, they attract the best graduates to 
become teachers, realizing that the quality of an education system 
cannot exceed the quality of its teachers. For example, countries like 
Finland or Korea recruit their teachers from the top 10 percent 
graduates. Second, they develop these teachers into effective 
instructors, through, for example, coaching classroom practice, moving 
teacher training to the classroom, developing strong school leaders and 
enabling teachers to share their knowledge and spread innovation. 
Singaporean teachers, for example, get 100 hours of fully paid 
professional development training each year. Third, they put in place 
incentives and differentiated support systems to ensure that every 
child is able to benefit from excellent instruction (McKinsey, 2007). 
The image here is of teachers who use data to evaluate the learning 
needs of their students, and are consistently expanding their 
repertoire of pedagogic strategies to address the diversity in 
students' interests and abilities. Such systems also often adopt 
innovative approaches to the deployment of differentiated staffing 
models. Examples include teacher selection processes as seen in 
Finland, highly specified professional development programmes as with 
the National Literacy Strategy in England, and teacher promotion based 
on professional competence as in Canada or Sweden.
    These efforts move away from traditional educational models that 
often still operate like a heavy bureaucratic production chain, where 
year after year new reform ideas are placed on top; where in the middle 
layers unfinished and incoherent reforms pile up; and where at the 
bottom, schools and teachers are confronted with incoherent regulation 
and prescription that they cannot make sense of and for which they feel 
no responsibility. High performing education systems tend to create a 
``knowledge rich'' education system, in which teachers and school 
principals act as partners and have the authority to act, the necessary 
information to do so, and access to effective support systems to assist 
them in implementing change. Of course, everywhere education is a 
knowledge industry in the sense that it is concerned with the 
transmission of knowledge, but a recent OECD study on teachers, 
teaching and learning suggests that education is often still quite far 
from becoming a knowledge industry in the sense that its own practices 
are being transformed by knowledge about the efficacy of its own 
practices (OECD, 2009b). In many other fields, people enter their 
professional lives expecting their practice to be transformed by 
research, but that is still rather rare in education. There is, of 
course, a large body of research about learning but much of it is 
unrelated to the kind of real-life learning that is the focus of formal 
education. Central prescription of what teachers should do, which still 
dominate today's schools, may not transform teachers' practices in the 
way that professional engagement, in the search for evidence of what 
makes a difference, can.
    External accountability systems are an essential part of all this, 
but so are lateral accountability systems. Among OECD countries, there 
are countless tests and reforms that have resulted in giving schools 
more money or taking money away from them, developing greater 
prescription on school standards or less prescription, or making 
classes larger or smaller, often without measurable effects. What 
distinguishes top-performer Finland is that it places the emphasis on 
building various ways in which networks of schools stimulate and spread 
innovation as well as collaborate to provide curriculum diversity, 
extended services and professional support. It fosters strong 
approaches to leadership and a variety of system leadership roles that 
help to reduce between-school variation through system-wide networking 
and to build lateral accountability. It has moved from ``hit and miss'' 
policies to establishing universal high standards; from uniformity to 
embracing diversity; from a focus on provision to a focus on outcomes; 
from managing inputs and a bureaucratic approach to education towards 
devolving responsibilities and enabling outcomes; and from talking 
about equity to delivering equity. It is a system where schools no 
longer receive prefabricated wisdom but take initiatives on the basis 
of data and best practice.
                               conclusion
    In one way, international educational benchmarks make disappointing 
reading for the United States. But they also indicate a way forward. 
Results from PISA show that strong performance is possible. Whether in 
Asia (e.g., Japan and Korea), in Europe (e.g., Finland) or in North 
America (Canada), many countries display strong overall performance 
and, equally important, show that poor performance in school does not 
automatically follow from a disadvantaged socio-economic background, 
even if social background is an important challenge everywhere. 
Furthermore, some countries show that success can become a consistent 
and predictable educational outcome, with very little performance 
variation across schools. Last but not least, Poland demonstrated that 
it is possible to achieve performance gains equivalent to three-
quarters of a school year within less than a decade. This paper has 
identified some of the policy levers that are prevalent in high 
performing education systems.
    The international achievement gap is imposing on the U.S. economy 
an invisible yet recurring economic loss that is greater than the 
output shortfall in what has been called the worst economic crisis 
since the Great Depression. Using economic modelling to relate student 
performance--as measured by PISA and other international instruments--
to economic growth shows that even small improvements in the skills of 
a nation's labour force can have very large impacts on future well-
being. A modest goal of having the United States boost its average PISA 
scores by 25 points over the next 20 years--which is less than the most 
rapidly improving education system in the OECD, Poland, achieved 
between 2000 and 2006 alone--implies a gain of U.S.D 41 trillion for 
the U.S. economy over the lifetime of the generation born in 2010 (as 
evaluated at the start of reform in terms of real present value of 
future improvements in GDP). Bringing the United States up to the 
average performance of Finland, OECD's best performing education system 
in PISA, could result in gains in the order of U.S.D 103 trillion. 
Closing the achievement gap by bringing all students to a level of 
minimal proficiency for the OECD (i.e., reaching a PISA score of 400), 
could imply GDP increases for the United States of U.S.D 72 trillion 
according to historical growth relationships. The predictive power of 
student performance at school on subsequent successful education and 
labour-market pathways is also demonstrated through longitudinal 
studies. In both cases, the evidence shows that it is the quality of 
learning outcomes, as demonstrated in student performance, not the 
length of schooling or patterns of participation, which makes the 
difference. The gains from improved learning outcomes, put in terms of 
current GDP, far outstrip today's value of the short-run business-cycle 
management. This is not to say that efforts should not be directed at 
immediate issues of economic recession, but it is to say that the long-
run issues should not be neglected.
    Addressing the challenges will become ever-more important as the 
best education systems, not simply improvement by national standards, 
will increasingly become the yardstick to success. Moreover, countries 
such as the United States will not simply need to match the performance 
of these countries, but actually do better if their citizens want to 
justify higher wages.
                               References
OECD (2004). What Makes School Systems Perform. Paris: OECD.
OECD (2006). Assessing Scientific, Reading and Mathematical Literacy. A 
    Framework for PISA 2006. Paris: OECD. OECD (2007). PISA 2006. 
    Science Competencies for Tomorrow's World. Paris: OECD.
OECD (2008). Education at a Glance--OECD Indicators 2008. Paris: OECD.
OECD (2009a). Education at a Glance--OECD Indicators 2009. Paris: OECD.
OECD (2009b). Creating Effective Teaching and Learning Environments. 
    Paris: OECD.
OECD (2010a), Pathways to Success. Paris: OECD.
OECD (2010b), The High Cost of Low Educational Performance. Paris: 
    OECD.
McKinsey and company (2007). How the world's school systems come out on 
    top. New York: McKinsey.

    The Chairman. Thank you very much, Mr. Schleicher.
    Now we will turn to Mr. Van Roekel, National Education 
Association.

 STATEMENT OF DENNIS VAN ROEKEL, PRESIDENT, NATIONAL EDUCATION 
                  ASSOCIATION, WASHINGTON, DC

    Mr. Van Roekel. Thank you, Chairman Harkin, Ranking Member 
Enzi, and members of the committee. Thank you very much for the 
opportunity to be with you here today.
    As a 23-year high school math teacher, I have the honor to 
represent 3.2 million people who absolutely believe in the 
power of education to transform lives. The passion and the 
commitment that brought them into the profession is what they 
bring to classrooms from pre-K to graduate every single day 
despite incredible challenges.
    As you deliberate about the reauthorization of ESEA, I hope 
you spend some time reflecting on a very fundamental or basic 
question. What do you believe is the purpose of public 
education for the United States for today in the 21st century?
    When I think of my grandchildren, I think about what it is 
it ought to provide them for their life. I want to visualize a 
circle divided into four quadrants. One of those quadrants I 
would assume would be academics, and when I think about what 
might be in there, I think of a very broad curriculum, 21st 
century skills, understanding what a student needs to know and 
be able to do in this coming century. It would be rich with 
arts and science, geography, history, health, and PE. As we 
talk about a global society, we must make sure that they have 
the ability to compete. I know there would be foreign language 
in there.
    Yet, when you look at the current system, the entire 
quadrant for academics has been narrowed to a very small sliver 
and we look at math and reading as if somehow measuring that 
will determine the success of a student, a school, or even a 
district.
    I would think one of the other quadrants for the purpose of 
American public education has to do with justice and equal 
opportunity. For someone who grew up in a small rural community 
in Iowa with 1,700 people in my town, I have the opportunity to 
be here today. The system that Government provided gave me the 
opportunity to my American dream, and so part of that purpose 
is to ensure that every student in America has access to that 
possibility and those opportunities.
    I would hope that another quadrant in that purpose would be 
to take the ideas and the ideals and the responsibility of 
citizenship in a democratic society and move them to the next 
generation. I would hope that part of that purpose would 
reflect the development of the whole child not just the 
academic as they grow into productive adults who can balance 
work and family and faith and community but as part of all of 
that.
    It is so important to reflect on that purpose because until 
you do that, it is very difficult to determine the standards 
for accountability and assessment of the system.
    In my written testimony, I spoke in detail of the 
inextricable link between investment in education and a strong 
economy and a competitive Nation. Education is the driver for 
individual and national success. Students in impoverished 
communities too often do not attend safe schools, do not have 
safe passage to and from, and do not have access to great 
teachers on a regular and consistent basis. Our challenge in 
reauthorizing ESEA is to ensure those benefits reach all 
students in all communities.
    Three things I would mention in the reauthorization:

    No. 1, codify those things that we know work based on 
research and the people who work there. Children are not 
experiments. Policies on accountability, assessments, and 
transforming schools should follow research not dogma. 
Accountability and flexibility are not mutually exclusive. We 
are encouraged by Secretary Duncan's remarks about being tight 
on goals and loose on means, providing flexibility of how to 
achieve it, and we would encourage Congress to make laws that 
honor that pledge.
    No. 2, the Federal Government should only incentivize 
initiatives in which collaborative plans from beginning to end 
involve all essential stakeholders. In the last 25 years, one 
thing we know, as we look at places that succeed, there is a 
common thread that you must have collaboration. You must have 
management, the board, the employees and their unions sit down 
together and say what is it that we need to do to transform and 
make it right for the students in our school. They must then 
reach out to parents and the community. We cannot afford to 
fail. Our students cannot afford us to fail, and the status quo 
is unacceptable.
    And finally, in the true spirit of the original ESEA from 
1965, Federal law and regulations are the only way to eliminate 
vast disparities. There is a corridor of shame in every State. 
Therefore, as a condition of receiving Federal money, all 
States should be required to submit a plan for remedying those 
disparities in all the key areas that make a great public 
school, publish them, post them on the Web, total transparency, 
and then allow the citizens to hold the State and local 
governments accountable for implementation of that plan.

    The road is a difficult one, but it is worth the effort. I 
want you to know that 3.2 million people stand ready to move on 
this journey and work with our partners to transform public 
education.
    Thank you, sir.
    [The prepared statement of Mr. Van Roekel follows:]
                Prepared Statement of Dennis Van Roekel
                                summary
    The public education system is critical to democracy. Its purpose 
is to:

    <bullet> maximize the achievement, skills, opportunities and 
potential of all students by promoting their strengths and addressing 
their needs, and
    <bullet> ensure all students are prepared to thrive in a democratic 
society and diverse changing world as knowledgeable, creative and 
engaged citizens and lifelong learners.

    Our public schools need a wholesale transformation with the 
resources to match our commitment. We cannot leave a generation of 
students behind by continuing to deny them the best education this 
country has to offer.
                   k-12 education in the u.s. economy
    There is no disagreement that there is an inextricable link between 
investment in education and a strong, competitive nation. Individuals 
who go further in school see higher earnings throughout their lifetime. 
But, the spill-over effects of a quality public education extend beyond 
individuals. The higher earnings of educated workers generate higher 
tax payments at the local, State, and Federal levels. Consistent 
productive employment reduces dependence on public income-transfer 
programs and all workers, regardless of education level, earn more when 
there are more college graduates in the labor force. In today's 
economy, investing in education will help prevent harmful cuts in 
programs, preserve jobs and reduce unemployment.
                revitalizing the public education system
    We must address opportunity gaps to strengthen our economy and 
build the educated workforce necessary for the 21st century. We should 
codify those things that we know work based upon research and the 
guidance of those closest to children. Children are not experiments. 
Policies on accountability, assessments, and turning around schools 
should follow research, not dogma.
             redesigning schools for 21st century learning
    Educating every student so they can succeed is not enough. We live 
in a global society and our students will have to compete with people 
from across the world. We need a world class education system that will 
prepare students to become critical thinkers, problem solvers, and 
globally competent.
       revamping accountability systems for 21st century learning
    States should have well-designed, transparent accountability 
systems that authentically assess student learning and the conditions 
for its success, focus on closing achievement gaps, help to monitor 
progress, and identify successes and problems. We should not continue 
the unhealthy focus on standardized tests as the primary evidence of 
student success. Educator voices are key to any successful 
transformation. We cannot discount the experience and knowledge of 
those who work in classrooms every day. The Federal Government should 
only incentivize initiatives in which collaborative plans--designed 
from start to finish by all essential stakeholders--are assured.
              ensuring sustainability of public education
    If we are to be true to the spirit of the original ESEA, Federal 
law and regulations are the only way to eliminate vast disparities in 
educational opportunity. As a condition of receiving Federal money, all 
States should be required to submit a plan for remedying disparities in 
the key areas that make a great public school. Transforming America's 
public schools is a daunting task. It will take the concerted efforts 
of all stakeholders and the commitment to continue the effort until 
every student has access to a great public school.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
thank you for the opportunity to speak with you today about the 
essential role of preparing students for success in the 21st Century 
and how the Elementary and Secondary Education Act must be redesigned 
to achieve this goal. I commend the committee for convening a hearing 
on this very important issue.
    As a 23-year veteran classroom math teacher, I have the great honor 
of being here today representing 3.2 million members who all believe in 
the power of education to transform lives. NEA members include teachers 
and education support professionals, higher education faculty and 
staff, Department of Defense schools' educators, students in colleges 
of teacher education, and retired educators across the country.
    Today, I will talk about K-12 education in the U.S. economy. I will 
also present NEA's views on revitalizing the public education system, 
redesigning schools and revamping accountability systems for 21st 
century learning, and ensuring sustainability of public education.
    The public education system is critical to democracy. Its purpose 
is to:

    <bullet> maximize the achievement, skills, opportunities and 
potential of all students by promoting their strengths and addressing 
their needs, and
    <bullet> ensure all students are prepared to thrive in a democratic 
society and diverse changing world as knowledgeable, creative, and 
engaged citizens and lifelong learners.

    However, today, students' success in school depends in large part 
on the zip code where they live and the educators to whom they are 
assigned. There are great teachers and education support professionals 
at work every day in this country who show up excited to teach students 
and feed them nutritious meals, help them travel safely to and from 
school, and make sure they attend schools that are safe, clean, and in 
good repair.
    Students who struggle the most in impoverished communities too 
often don't attend safe schools with reliable heat and air 
conditioning; too often do not have safe passage to and from school; 
and far too often do not have access to great teachers on a regular and 
consistent basis. We must address these opportunity gaps if we are to 
strengthen our economy, prepare our students to compete, and build the 
educated workforce necessary.
    What we have today is an interdependent, rapidly changing world, 
and our public school system must adapt to the needs of the new global 
economy. Every student will need to graduate from high school, pursue 
post-secondary educational options, and focus on a lifetime of learning 
because many of tomorrow's jobs have not even been conceived of today.
    I think we can all agree that our public schools need a wholesale 
transformation with the resources to match our commitment. We cannot 
leave a generation of students behind by continuing to deny them the 
best education this country has to offer. Instead of being first in the 
world in the number of inmates, let's work to be first in the world in 
the number of high school and college graduates.
    As President John F. Kennedy said in 1961 and it still holds true 
now:

          ``Our progress as a nation can be no swifter than our 
        progress in education. Our requirements for world leadership, 
        our hopes for economic growth, and the demands of citizenship 
        itself in an era such as this all require the maximum 
        development of every young American's capacity. The human mind 
        is our fundamental resource.''

    Simply put, we need a new vision of 21st century learning. My 
testimony today will lay out the inextricable link between investment 
in education and a strong, competitive nation and will discuss how we 
must approach ESEA reauthorization from an economic development 
framework.
    But I would be remiss if I did not point out that the best laid 
plans for 21st century learning will not succeed without a true 
partnership of change between educators, school boards and school 
districts. Simply put, reform in schools does not succeed without true 
collaboration among all those involved in creating, funding, and 
delivering quality education services to our students. We have to all 
shoulder the responsibility and hard work it will take to be sure 
schools improve dramatically, particularly for students who need the 
most. And we cannot continue to shun proven school improvement models 
because they don't generate as much press coverage as others.
    We know schools improve when educators are respected, treated as 
professionals, and given the tools they need and the opportunity to 
improve as a team for the benefit of their students. For example, Broad 
Acres Elementary School in Silver Spring, Maryland is a high-poverty, 
previously low performing school. In April 2001, all staff at Broad 
Acres Elementary School had the option to make a 3-year commitment to 
the school and its students. This commitment included working the 
equivalent of 15 extra days paid by a supplement to be used to extend 
the workday every Wednesday until 6 p.m. for planning sessions, study 
groups, and examining student work. Sixty percent of the staff elected 
to stay. According to the school district's Web site, students met the 
proficiency standards for adequate yearly progress in math and reading 
for the most recent year available. The student body is 99 percent 
minority and 88 percent qualify for free and reduced price meals. 
Furthermore, at Broad Acres, 30 percent of the teachers have more than 
15 years of experience, 52.7 percent have 5-15 years, and only 16.4 
percent have less than 5 years of experience. It appears from those 
numbers that Broad Acres has successfully retained experienced 
educators and probably also attracted newer ones who are staying.
                   k-12 education in the u.s. economy
    Every child and young adult has surely heard the following: ``To 
get ahead in life, get an education.'' This is a belief often repeated 
among noted economists and education experts, and is borne out by 
numerous studies. As Paul Krugman, New York Times columnist and Nobel 
Prize winner has said, ``If you had to explain America's economic 
success with one word, that word would be `education' . . . Education 
made America great; neglect of education can reverse the process.'' 
Former Treasury Secretary Henry Paulson has also stated, ``The best 
approach is to give people access to first-rate education so they can 
acquire the skills needed to advance.''
    Besides the benefits to individuals, society as a whole also enjoys 
a financial return on the investment in higher education. In addition 
to widespread productivity increases, the higher earnings of educated 
workers generate higher tax payments at the local, State, and Federal 
levels. Consistent productive employment reduces dependence on public 
income-transfer programs and all workers, regardless of education 
level, earn more when there are more college graduates in the labor 
force. (Education Pays, The College Board, 2007.)
    The provision of a quality K-12 public education plays a crucial 
role in the individual and economy-wide acquisition of ``human 
capital.'' The economic payoff to individuals of increased schooling is 
higher earnings throughout their lifetime--a market-based individual 
benefit. In addition, a considerable number of benefits from a quality 
K-12 public education--the spillover effects extend beyond individuals. 
Wolfe and Haveman (2002), economists noted for their efforts to put a 
monetary value on some of education's spillover effects, argue that the 
value of these spillovers for individuals and the economy is 
significant and that it may be as large as education's market-based 
individual benefits. For example:

    <bullet> Cutting statewide public K-12 expenditure by $1 per $1,000 
State's personal income could: (1) reduce the State's personal income 
by about 0.3 percent in the short run and 3.2 percent in the long run; 
(2) reduce the State's manufacturing investment in the long run by 0.9 
percent and manufacturing employment by 0.4 percent. Cutting statewide 
public K-12 education per student by $1 would reduce small business 
starts by 0.4 percent in the long run. Cutting statewide public K-12 
expenditure by 1 percentage point of the State's personal income would 
reduce the State's employment by 0.7 percent in the short run and by 
1.4 percent in the long run.
    <bullet> A reduction in a State's aggregate home values is likely 
if a reduction in statewide public school spending yields a decline in 
standardized public school test scores, if in the long run people leave 
or do not enter the State because of test-score declines. A 10 percent 
reduction in various standardized test scores would yield between a 2 
percent and a 10 percent reduction in aggregate home values in the long 
run.
    <bullet> Reduction in a State's aggregate personal income is also 
likely if a reduction in statewide public school spending yields a 
decline in ``quality'' of public education produced and a long-run 
decrease in earning potential of the State's residents. A 10 percent 
reduction in school expenditures could yield a 1 to 2 percent decrease 
in post-school annual earnings in the long run. A 10 percent increase 
in the student-teacher ratio would lead to a 1 to 2 percent decrease in 
high school graduation rates and to a decrease in standardized test 
scores.

    Investing in education will help prevent harmful cuts in programs, 
preserve jobs and reduce unemployment, thereby strengthening State and 
local economies.

    <bullet> According to the National Governors' Association, ``Long-
term prospects for strong economic growth are hampered by the high 
school dropout crisis . . . Dropouts costs the United States more that 
$300 billion a year in lost wages and increased public-sector expenses 
. . . the dropout problem is a substantial drag on the Nation's 
economic competitiveness.''
    <bullet> The latest study from the Alliance for Excellent 
Education, The Economic Benefits from Halving the Dropout Rate makes a 
powerful connection between easing the dropout crisis and strengthening 
local economies. Over time, for example, budgets that provide education 
and other basic services to economically disadvantaged people can 
increase their chances for solid jobs and productive lives and thereby 
reduce income inequality. Social spending, including education 
spending, often has a positive effect on GDP, even after weighing the 
effects of the taxes used to finance it.
    <bullet> A series of careful studies presented at the Teachers 
College Symposium on Educational Equity at Columbia University found 
that, among other things that a high school dropout earns about 
$260,000 less over a lifetime than a high school graduate and pays 
about $60,000 less in taxes. These same studies also found that America 
loses $192 billion--1.6 percent of our Gross Domestic Product--in 
combined income and tax revenue with each cohort of 18-year-olds who 
never complete high school. In other words, for each year's high school 
graduating class, the amount they would contribute to this Nation's 
economy over their lifetime in terms of their income and the taxes they 
pay would be larger by $192 billion if all of their same-age peers 
completed high school as well. The annual loss of Federal and State 
income taxes associated with the 23 million U.S. high school dropouts 
(ages 18-67) is over $50 billion compared to what they would have paid 
if they had graduated.

    <bullet> A survey for the Federal Reserve Bank of Boston showed 
that an educated, qualified workforce was by far the most important 
consideration of firms when deciding where to locate.
    <bullet> And a study for the World Bank showed that public 
investments in K-12 education yielded an annual return of 14.3 percent 
in additional revenue and reduced expenses, while the long-term return 
on common stocks was only 6.3 percent a year.
    <bullet> Two Harvard economists, Lawrence F. Katz and Claudia 
Goldin, studied the effect of increases in educational attainment in 
the U.S. labor force from 1915 to 1999. They estimated that those gains 
directly resulted in at least 23 percent of the overall growth in 
productivity, or around 10 percent of growth in gross domestic product. 
(What's the Return on Education, Anna Bernasek, The New York Times, 
December 11, 2005). They found education programs have contributed to 
economic growth while also increasing opportunities for individual 
advancement. Near-universal public education has added significantly to 
U.S. economic growth, boosted incomes, and lowered inequality (Goldin 
and Katz, 2008).

    It is clear that when faced with the choice of: (1) increasing 
revenue statewide to continue supporting the provision of quality 
public K-12 education; or (2) cutting support statewide to public K-12 
education to forestall a tax increase, a State's long-term economic 
interests are better served by increasing revenue. (NEA Working Paper, 
K-12 Education in the U.S. Economy: Its impact on Economic Development, 
Earnings, and Housing Values. Thomas L. Hungerford and Robert W. 
Wassmer, April 2004). Yet, according to NEA's own research, almost no 
States are currently funding their educational systems adequately and 
most States are around 25 percent short of funding their systems at a 
level adequate.
    These findings take on a particular significance in the current 
economy. State budgets typically lag any national economic recovery by 
a year or longer and, as a result, budget gaps will continue into 
fiscal year 2011 and beyond. In fact, the aggregate budget gap for 
fiscal year 2012 is expected to be larger than the 2011 gap, largely 
due to diminishing Federal stimulus funds. For many States, 2011 will 
mark the third consecutive year in which budget balancing actions will 
be needed to close sizable budget gaps. According to the Congressional 
Budget Office's (CBO) just issued Policies for Increasing Economic 
Growth and Employment in 2010 and 2011,

          ``Many States have experienced a high degree of fiscal stress 
        and are expected to have large budget gaps in the next few 
        years. Eighteen States have budget gaps larger than 20 percent 
        of general fund expenditures. . . .''

    The Federal Government, which, unlike most State governments, is 
not prohibited from running an annual budget deficit, is best suited to 
help State and local governments maintain educational funding during 
cyclical downturns. According to CBO,

          ``Federal aid that was provided promptly would probably have 
        a significant effect on output and employment in 2010 and 2011. 
        Such aid could lead to fewer layoffs, more pay raises, more 
        government purchases of goods and services, increases in State 
        safety-net programs, tax cuts, and savings for future use.''

    The evidence is clear that investment in education is essential for 
a strong economy and a well-prepared workforce, and that the Federal 
Government must step up at this critical juncture. This sort of 
investment in education as a means to stimulating economic growth is 
not unprecedented. In the last century, both the G.I. bill and the 
National Defense Education Act of 1958, which appropriated $1 billion 
for science education, helped propel economic growth.
    Leaving States to cut education more deeply to balance their 
budgets without additional Federal aid is short-sighted. Lessening the 
quality of education a student receives today as a result may be 
irreversible. Long-term productivity growth and a higher standard of 
living are dependent on an educated workforce. Investing in education 
is investing in the future growth of the country.
    Additional funding for public primary and secondary schools, 
however, will not generate greater student achievement unless the funds 
are used wisely. The remainder of this testimony will focus on how we 
must retool our education system for the 21st Century.
                revitalizing the public education system
    It is important to recall that 1965 was one of the notable years in 
the history of education in America. That year, as part of his War on 
Poverty, President Lyndon Johnson signed the Elementary and Secondary 
Education Act (ESEA) to reduce inequity by directing resources to poor 
and minority children and signed the Higher Education Act (HEA) to 
provide more opportunities and access to post-secondary opportunities 
for lower- and middle-income families. ``Poverty has many roots,'' 
Johnson said, ``but the taproot is ignorance.''
    Poverty is still an issue in this country, and unfortunately we 
still have schools that lack resources, committed and effective 
leadership, and enough great teachers and education support 
professionals to reach every student. Schools in struggling communities 
too often have high dropout rates, and the cycle of poverty continues.
    The Federal Government must be engaged in these issues, offering 
the only remaining leverage point to hold States accountable for 
remedying these untenable inequities. Later in this testimony, I will 
address our recommendation that the Federal Government require States 
to put together adequacy and equity plans that outline how they will 
address these inequities.
    NEA also stands ready to help do something about it--we must break 
this cycle of poverty. And we are ready to work with our partners, 
community by community, to revitalize the public school system and 
redesign schools for the 21st century.
             redesigning schools for 21st century learning
    To be clear, however, educating every student so they can succeed 
in this country is not enough today. We live in a global society and 
our students will have to compete with people from across the world.
    We need a world class education system that will prepare students 
to become critical thinkers, problem solvers, and globally competent. 
To prosper, graduates must learn languages, understand the world, and 
be able to compete globally, and we must benchmark our educational 
goals against other nations with strong education systems. If we 
collectively work toward that outcome, it is expected that the United 
States gross domestic product will be more than one-third higher in the 
next 70 years.
    To meet the challenges of the 21st century, we must transform the 
system by demanding sweeping changes that changes the dynamic--
significantly higher student achievement and significantly higher 
graduation rates for all groups of students.
    Our vision of what great public schools need and should provide 
acknowledges that the world is changing and public education is 
changing too. NEA's Great Public Schools (GPS) criteria require not 
only the continued commitment of all educators, but the concerted 
efforts of policymakers at all levels of government. These criteria 
will prepare all students for the future with 21st century skills; 
create enthusiasm for learning and engaging all students in the 
classroom; close achievement gaps and increase achievement for all 
students; and ensure that all educators have the resources and tools 
they need to get the job done.
    The criteria are:

    <bullet> Quality programs and services that meet the full range of 
all children's needs so that they come to school every day ready and 
able to learn.
    <bullet> High expectations and standards with a rigorous and 
comprehensive curriculum for all students. Curriculum and assessments 
must focus on higher order thinking and performance skills, if students 
are to meet the high standards to which we aspire. Students will be 
better prepared for the rigors of life and citizenship after school if 
they have had access to a broad, rigorous, relevant curriculum that 
prepares them for a variety of post-secondary educational and career 
options. Students' access to core academic content areas that 
incorporate 21st century skills as well as fine arts, civics, and 
career and technical education helps inspire their creativity, helps 
connect their school work to their outside interests, and can help keep 
them engaged in school.
    We must support innovative public school models of education that 
inform and accelerate school transformation efforts and prepare 
students for citizenship, lifelong learning, and challenging post-
secondary education and careers. The Federal Government can play a 
critical role in increasing educational research and development and 
providing a clearinghouse for innovative promising practices.
    <bullet> Quality conditions for teaching and lifelong learning. In 
an effort to obliterate the ``corridors of shame'' that exist and 
repair or rebuild crumbling schools, we also must focus resources on 
infrastructure. President Obama's administration and Congress already 
have taken a giant leap forward in this respect when they passed the 
American Recovery and Reinvestment Act (ARRA). ARRA included billions 
of dollars in aid that can be used to help update schools. We are 
pleased that both the House and Senate have passed legislation to 
extend and strengthen this program.
    We also know that if we are to revitalize our public schools, we 
must address the design of public schools. Schools today must work for 
students in rural, urban, suburban, and exurban areas. In rural areas, 
for example, broadband access is key to ensure students have access to 
virtual, supplemental material and support that is not available in 
their physical location. By creating this technology gateway, educators 
can also obtain high-quality professional development to which they 
might otherwise not have access.
    Schools and classrooms designed for 21st century learning also must 
be designed for universal access to ensure the inclusion of the widest 
spectrum of students. Every effort should be made to reduce the 
barriers to learning so that every student reaches his or her potential 
and dreams.
    <bullet> A qualified, caring, diverse, and stable workforce. 
Investments in teachers' and leaders' knowledge and skills are 
essential to all other reforms, and pay off in higher achievement. 
Strong preparation, mentoring, and professional development, as well as 
collaborative learning and planning time in schools, are the building 
blocks of any successful reform. We must ensure students have access to 
accomplished educators by requiring high standards for entry into the 
profession and by offering incentives to teach in hard-to-staff 
schools. We recommend creating a prestigious national education 
institute and provide incentives to States to create world-class 
teacher preparation programs that attract the top tier of college 
graduates nationally.
    Teachers and education support professionals must be respected as 
professionals by ensuring they are part of critical decisions affecting 
students, schools and themselves. We also need to encourage school 
leadership to be effective in both operational and instructional 
leadership.
    <bullet> Shared responsibility for appropriate school 
accountability by stakeholders at all levels. We must obtain the full 
commitment from all policymakers--at the Federal, State, and local 
levels. We also must involve our communities and partners, including 
governors, State legislators, mayors, county officials, business 
partners, the faith-based community, the civil rights community, and 
parents and families, to name a few. It will take the concerted effort 
of all of these stakeholders working with superintendents, school 
boards, and educators to ensure that all of our schools become the 
modern, safe, vibrant centers of the community that they can become.
    <bullet> Parental, family, and community involvement and 
engagement. Through more than 125 initiatives in 21 States, NEA's 
Public Engagement Project is demonstrating the essential role of 
school-family-community partnerships in student achievement. Our 
findings echo those of a 6-year-long study of multiple data sources 
conducted by the Annenberg Institute for School Reform at Brown 
University: such partnerships contribute to increased student 
attendance, improved performance on standardized tests, higher high 
school graduation rates, and college-going aspirations.
    <bullet> Adequate, equitable, and sustainable funding. Resources 
must be adequate and equalized across schools. We cannot expect schools 
that lack strong and prepared leaders, well-qualified teachers, and 
high-quality instructional materials to improve by testing alone. We 
must ensure adequate and equitable funding for schools and fully fund 
critical programs such as title I and IDEA and we must help States and 
districts to identify disparities in educational resources, supports, 
programs, opportunities, class sizes and personnel (including the 
distribution of accomplished educators) through required Equity and 
Adequacy plans.

    NEA is part of the Partnership for 21st Century Skills--a unique 
public-private organization formed in 2002 to create a successful model 
of learning for this millennium that incorporates 21st century skills 
into our system of education. The members of this Partnership believe 
that policymakers today have an opportunity--and an obligation--to move 
forward with a new direction for teaching and learning in the 21st 
century (The Road to 21st Century Learning: A Policymakers Guide to 
21st Century Skills, Partnership for 21st Century Skills).
    As laid out in the Partnership's guidebook, The Road to 21st 
Century Learning: A Policymakers Guide to 21st Century Skills http://
www.21stcenturyskills.org/downloads/P21_Policy_Paper.pdf) we see:

          ``. . . a growing sense of urgency that the Nation must act 
        now to ensure that future generations of Americans can 
        participate fully in the democratic process and the competitive 
        global economy. Education is the foundation of democratic 
        institutions, national security, economic growth and 
        prosperity--and Americans cannot be complacent about improving 
        the quality of education while competitors around the world are 
        focusing on preparing students for the demands of this century. 
        Only recently, the National Science Board, a Federal advisory 
        panel established by Congress, warned that the United States 
        faces a major shortage of scientists because too few Americans 
        are entering technical fields and because of the burgeoning 
        ranks of highly competent scientists in other nations.
          ``. . . America risks losing its long-standing pre-eminence 
        in science, engineering, technology, medicine, defense, 
        business and even democracy. Without many more highly educated, 
        highly skilled young people to carry the torch of inquiry, 
        innovation and enterprise into the future, American dominance 
        in these and other endeavors may fade. . . .
          ``There is broad consensus among educators, policymakers, 
        business leaders and the public that schools today must do a 
        better job of preparing young people for the challenges and 
        expectations of communities, workplaces and higher education. 
        Moreover, there is broad consensus about the knowledge and 
        skills that are essential in the world today--and about the 
        educational model that would make schools more relevant to the 
        world again as well. This model emphasizes that students today 
        need 21st century skills to guarantee America's success 
        tomorrow.''

    Incremental changes yield incremental results. We must be bolder. A 
legislative tweak here or a regulatory toggle there will not lead to 
the fundamental and transformative changes in education we all seek. 
When we address change, we have to focus on significant and sustainable 
improvement in the rates of achievement for all students, but 
especially poor and minority students.
    According to the Partnership for 21st Century Skills, integrating 
21st century skills into K-12 education will empower students to learn 
and achieve in the core academic subjects at much higher levels. These 
skills, in fact, are the learning results that demonstrate that 
students are ready for the world. It is no longer enough to teach 
students the 3Rs; we must also teach the 4Cs of creativity, 
collaboration, communication, and critical thinking.
    The Partnership calls on policymakers to imagine:

    <bullet> A place where all children master rigorous core academic 
subjects.
    <bullet> A place where teaching and learning are relevant to life 
outside of school.
    <bullet> A place where all children understand and use the learning 
skills--information and communication skills, thinking and problem-
solving skills, and interpersonal and self-directional skills--that 
lead to high performance in school and in life.
    <bullet> A place where vital new academic content is part of the 
common core curriculum.
    <bullet> A place where professional development and teaching 
strategies enable educators to help students gain the knowledge and 
skills they need.
    <bullet> A place where every student, teacher and administrator has 
on-demand access to 21st century tools and technologies and uses them 
to work productively.
    <bullet> A place where 21st century tools and context are embedded 
in core subjects and assessments.
    <bullet> A place where all students--including those with learning 
or physical disabilities and those who are learning English--can show 
what they know and can do with all of the knowledge and skills that are 
valued in the world.

    The Partnership members know that schools like these would be 
intellectually stimulating environments for students, teachers and 
administrators alike. Communities, employers, colleges and universities 
would be proud to welcome graduates of 21st century schools as the best 
prepared generation of citizens in American history. Reaching this 
vision is both important and possible--and it rests in the hands of 
policymakers today. It is this vision that Congress should have at the 
forefront as you reauthorize ESEA.
       revamping accountability systems for 21st century learning
    In order to support public school improvement, States should have 
well-designed, transparent accountability systems that authentically 
assess both student learning and the conditions for its success, focus 
on closing achievement gaps, help to monitor progress, and identify 
successes and problems. We should not continue the unhealthy focus on 
standardized tests as the primary evidence of student success.
    Achievement is much more than a test score, but if test scores are 
still the primary means of assessing student learning, they will 
continue to get undue weight. This is especially problematic because 
the tests widely in use in the United States, since NCLB narrowed the 
kinds of tests in use, typically focus on lower level skills of recall 
and recognition measured with multiple-choice items that do not 
adequately represent higher order thinking skills and performance. 
These are unlike the assessments that are used in high-achieving 
nations that feature essays, problem solutions, and open-ended items 
and more extensive tasks completed in classrooms as part of the 
assessment system. Achievement must take into account accomplishments 
that matter in the world outside of school, such as: Are you prepared 
for college or trade school? Can you form an opinion about something 
you read and justify your opinion? Are you creative? Are you inventive? 
Can you come up with a variety of solutions when you're faced with a 
problem?
    The Federal Government should use the ESEA implementation process, 
along with those associated with other Federal programs, as mechanisms 
to incentivize States to devise comprehensive accountability systems 
that use multiple sources of evidence (including rich, meaningful, and 
authentic assessments, such as developing and/or using native language 
assessments as appropriate for students until they gain proficiency in 
English as determined by a valid and reliable measure). Instead of the 
current NCLB system that has resulted in a significant narrowing of the 
curriculum, State accountability systems should be designed to support 
efforts to guarantee every child has access to a rich, comprehensive 
curriculum. Such systems also should:

    <bullet> Align with developmentally appropriate student learning 
standards;
    <bullet> Require the use of multiple, valid, reliable measures of 
student learning and school performance over time and assess higher-
order thinking skills and performance skills;
    <bullet> Replace AYP with a system that recognizes schools that 
make progress toward achieving learning goals and correctly identifies 
struggling schools in order to provide needed support instead of 
punishment;
    <bullet> Recognize the unique instructional and assessment needs of 
special populations, including students with disabilities and English 
language learners by designing standards and assessments that are 
accessible for all students; and
    <bullet> Foster high-quality data systems that are both 
longitudinal and complete and that protect student and educator privacy 
and improve instruction.

    These State systems should evaluate school quality, as well as 
demonstrate improvements in student learning and closing of 
achievement, skills, and opportunity gaps among various groups of 
students. NEA has developed a comprehensive diagnostic tool called KEYS 
to assess school climate and success using a variety of indicators. 
There are also important and highly informative surveys such as the 
Teacher Working Conditions survey (pioneered by the Center for Teaching 
Quality) and the Gallup student survey that should inform States' 
educational approach and accountability system as it relates to school 
system quality.
    As States design these evaluation systems, the design team must 
include practicing educators to ensure that the system can yield clear 
and useful results. The results of these evaluations should not be used 
to punish and sanction schools. Results instead should be used to 
inform State, local, and classroom efforts to identify struggling 
students and problematic school programs so that States, districts, and 
educators can provide appropriate interventions and supports for 
improvement.
    When considering individual schools that need significant reform or 
turn-around efforts, I strongly urge you not to be too prescriptive--as 
we believe the U.S. Department of Education's regulations in Race to 
the Top have been--in outlining specific methods of transforming 
schools. For example, we believe that turnaround assistance teams, such 
as those so successfully employed in North Carolina and Kentucky, serve 
as a highly effective, proven model of turning around low performing 
schools. We also believe that teacher-led schools have shown remarkable 
results in improving student learning. These two models were not 
included in the RTTT rules as allowable turn-around approaches. Such 
narrow prescriptions for school overhaul are predictive of one thing: 
diminished opportunity and tools to reach and turn around MORE schools.
              ensuring sustainability of public education
    Transforming America's public schools is a daunting task. It will 
take the concerted efforts of all stakeholders and the commitment to 
continue the effort until every student has access to a great public 
school.
    At the core of this effort is ensuring the fiscal stability of the 
educational system so that the energy of stakeholders can be spent on 
how best to serve students.
    As we have said in the past, the Federal Government should require 
States, as part of their application for Federal education funds under 
ESEA, to develop ``Adequacy and Equity Plans.'' Through these plans, 
States will demonstrate where there are disparities in educational 
tools and services, as well as opportunities and resources. The plans 
will outline steps underway or planned to remedy the disparities. The 
process of developing the plans should bring together stakeholders 
within the State to devise a plan to meet adequacy and equity goals, 
and for the first time significant Federal resources could serve as a 
powerful incentive that spurs action on this issue. This effort will 
help elevate the commitment to all students and build a shared 
understanding of what it will take to support them.
    The design of Federal approval and monitoring should be one that 
sensibly supports adjustments and flexibility as States pursue their 
goals and work toward eliminating disparities, without ever losing 
sight of the fact that the richest country in the world can provide 
every student with a quality education.
                               conclusion
    We know the road to economic stability and prosperity runs through 
our public schools, and we know that every student deserves the best we 
can offer. It is now time to deliver. NEA stands ready to do its part.
    Attached to this testimony are a series of fact sheets on key 
elements of ESEA reauthorization, as well as NEA's overriding 
principles for reauthorization.
    Thank you.
                                 ______
                                 
                              ATTACHMENT *
  NEA's Message to Members of Congress on the Reauthorization of ESEA
    The purpose of public education
---------------------------------------------------------------------------
    * NEA's Initial Legislative Recommendations for Reauthorization of 
the Elementary and Secondary Education Act--March 26, 2010 may be found 
at www.nea.org/assets/docs/NEA_ESEA 
_Proposals.pdf.
---------------------------------------------------------------------------
    The public education system is critical to democracy and its 
purpose is to:

    <bullet> maximize the achievement, skills, opportunities and 
potential of all students by promoting their strengths and addressing 
their needs, and
    <bullet> ensure all students are prepared to thrive in a democratic 
society and diverse changing world as knowledgeable, creative and 
engaged citizens and lifelong learners.
    To fulfill the purpose of public education, we must:

    1. Promote Innovation in Public Schools

    <bullet> Support innovative public school models of education that 
inform and accelerate school transformation efforts and prepare 
students for citizenship, lifelong learning, and challenging post-
secondary education and careers.
    <bullet> Increase educational research and development and provide 
a clearinghouse for innovative promising practices.

    2. Provide Students With Multiple Ways to Show What They Have 
Learned

    <bullet> Require the use of multiple, valid, reliable measures of 
student learning and school performance over time.
    <bullet> Replace AYP with a system that recognizes schools that 
make progress toward achieving learning goals and correctly identifies 
struggling schools in order to provide needed support instead of 
punishment.
    <bullet> Foster high-quality data systems that are both 
longitudinal and complete and that protect student and educator privacy 
and improve instruction.
    <bullet> Recognize the unique instructional and assessment needs of 
special populations, including students with disabilities and English 
language learners by designing standards and assessments that are 
accessible for all students.

    3. Elevate the Profession: Great Educators and Leaders for Every 
Public School

    <bullet> Respect teachers and education support professionals as 
professionals by ensuring they are part of critical decisions affecting 
students, schools and themselves.
    <bullet> Ensure students have access to accomplished educators by 
ensuring high standards for entry into the profession and by offering 
incentives to teach in hard-to-staff schools.
    <bullet> Encourage school leadership to be effective in both 
operational and instructional leadership.
    <bullet> Create a prestigious national education institute and 
provide incentives to States to create world-class teacher preparation 
programs that attract the top tier of college graduates nationally.

    4. Champion Adequate, Equitable, and Sustainable Funding for All 
Public Schools

    <bullet> Ensure adequate and equitable funding for schools and 
fully fund critical programs such as Title I and IDEA.
    <bullet> Help States and districts to identify disparities in 
educational resources, supports, programs, opportunities, class sizes 
and personnel (including the distribution of accomplished educators) 
through required Equity and Adequacy plans.
    <bullet> Provide support and foster research-based turnaround 
strategies for high priority schools.
                1. promote innovation in public schools
    It is clear that if we are to achieve world-class schools for every 
student within the next decade, we will need fresh approaches and ideas 
that produce dramatic leaps in achievement and growth among students, 
educators and communities. The Federal Government must embrace its role 
as a supporter of local and State initiatives to transform schools, 
rather than a micro-manager.
    ``Institutionalizing'' innovation is a paradoxical goal, and yet 
this is the Federal Government's solemn responsibility: it must craft 
policies that are strict in their flexibility, incentivize change as a 
fixed concept, and establish continuity in the pursuit of continuous 
transformation.
How can we promote innovation in schools?
    The Federal Government should increase and sustain funding in 
programs that are designed to foster innovation (such as the Investing 
in Innovation (i3) program funded under the American Recovery and 
Reinvestment Act of 2009). Innovative proposals should be developed in 
collaboration with educators and include a sustainability plan. We 
believe that research, development and pilot programs in the following 
areas are particularly useful and necessary:

    <bullet> Unique governance models for public schools, including 
staff-led schools.
    <bullet> Wraparound, before- and after-school, summer programs and 
services.
    <bullet> High-quality formative student assessments.
    <bullet> Curricular reform that includes 21st century learning 
skills.
    <bullet> Effective and rigorous teacher preparation and induction.
    <bullet> Education delivery systems for students in rural or low-
income school districts.
    <bullet> Incorporation of education technology into classrooms and 
schools.
    <bullet> Educator evaluation systems based on multiple, valid 
measures of performance and used to improve educators' practice through 
use of professional development systems that are job-embedded, aligned, 
and research-based.
    <bullet> Longitudinal data systems that assist in determining 
students' instructional and other needs.
    <bullet> Alternate structures to the school day and calendar year.
    <bullet> Magnet and themed public schools--e.g., science, 
technology, the arts.
    <bullet> Flexible high school pathways integrating preparation for 
career technical education and higher education.

    In addition to incentivizing pilot activities in the above areas, 
the Federal Government should sponsor its own research and establish a 
public clearinghouse for innovation and promising practices.
What kinds of innovative models of education have proven successful?
    We know that successful, innovative and autonomous models of public 
school education already exist. Such models invariably include deep and 
mutually beneficial partnerships with government, higher education, 
parent and community organizations, education unions, and businesses or 
philanthropic entities. These models also have produced new and 
imaginative ways to develop professional development, deliver student 
instruction and assessments, and offer time for team curricular 
planning.
    One promising example is the Math & Science Learning Academy 
(MLSA), a new, union-designed, teacher-led public school within the 
Denver Public School System. Other examples of innovation that feature 
strong union-administrator-school district partnerships include:

    <bullet> Say Yes to Education Foundation (Syracuse, NY).
    <bullet> Evansville Vanderburgh School Corporation (Evansville, 
IN).
    <bullet> Hamilton County Public Schools (Chattanooga, TN).
    <bullet> University of Connecticut--CommPACT Schools (Hartford, 
CT).
    <bullet> Milwaukee Partnership Academy (Milwaukee, WI).
    <bullet> Seattle Flight School Initiative (Seattle, WA).
Why should we care about school ``transformation'' as part of 
        innovation efforts?
    School ``transformation'' is not a silver bullet. Rather, it 
entails numerous, coordinated and aggressive changes in policies, 
programs and behavior within school systems. School transformation must 
address school organization and structure; leadership and governance; 
staff recruiting, development and retention; instructional and 
curricular practices; support services and resources; parent and 
community involvement; overall school infrastructure, culture and 
climate; and other factors.
    While intervention models that call for the replacement of existing 
leadership and the majority of staff, reorganization as a charter 
school or school closure are avenues to consider in limited 
circumstances, in many communities and regions they are not feasible 
options. Moreover, the choice of an intervention ``model'' alone does 
not equal reform: all of these models must be accompanied by 
transformation strategies described above if they are to improve and 
sustain student achievement and growth.

    NEA Recommendations to Congress:

    <bullet> Support and promote innovative public school models and 
programs that accelerate school transformation efforts and prepare 
students for citizenship, lifelong learning, and challenging post-
secondary education and careers.
    <bullet> Encourage innovation developed through partnerships--
primarily between educators' unions, administrators, and school 
districts--that focus on helping students thrive and develop critical 
21st century skills.
    <bullet> Increase educational research and development to provide a 
clearinghouse for innovative promising practices.
 2. provide students with multiple ways to show what they have learned
    There is widespread consensus that NCLB placed a necessary focus on 
the achievement gaps between advantaged and disadvantaged student 
populations. It, however, has wreaked havoc on schools by mislabeling 
successful schools as failing, under-serving those schools that are 
truly struggling, and placing undue emphasis on federally mandated 
standardized student assessments as the accountability yardstick for 
entire school systems. This has resulted in intense discontent among 
educators and parents and scant, if any, gains in a narrow range of 
skills and content areas among students.
    The next iteration of ESEA must prize authenticity above all else. 
That is, it must transparently identify and scale up valid measures of 
student learning in its totality--not just student performance on a 
test, and not just student growth in a series of tests, but all 
essential components of student learning as demonstrated by reliable 
and varied sources of evidence, beginning with the professional 
``assessment'' of the classroom teacher. These valid measures of 
student learning must then be analyzed as one, but not the only, 
important facet of overall school effectiveness.
    Accountability systems should be used primarily as part of a 
continuous improvement system designed to improve instruction rather 
than to punish schools. Promising instructional methods should be 
shared among colleagues and scaled up, and assessment systems should be 
used to identify which struggling schools are most in need of support, 
with the goal of delivering that needed support. Most importantly, 
accountability systems must be limited so as not to subsume the 
character of education itself. We must measure school performance, but 
we must do so in a way that enhances, rather than stifles, the 
educational process.
Can States develop authentic assessment systems that use multiple 
        measures of student learning and school performance?
    A complete and balanced authentic student assessment system is one 
factor essential to education improvement. A complete system should 
incorporate the concept of assessment purposes encompassing assessment 
of, for, and as learning. This concept is espoused by several experts 
in student assessment, and is used by several high-achieving countries 
such as Singapore, New Zealand, and Canada.
    Research and evidence show that the current test-and-label system 
under NCLB is fundamentally flawed and recommend that States be allowed 
to develop their own accountability systems using student growth models 
instead of having to demonstrate ``adequate yearly progress'' by group 
status or successive group improvement (currently NCLB ``safe 
harbor''). Beginning in 2005, the U.S. Department of Education approved 
a pilot program to allow States to use growth models to measure AYP. 
Twenty-two States and the District of Columbia have since applied to 
use growth models, and 15 States now have approved growth models: 
Alaska, Arizona, Arkansas, Colorado, Delaware, Florida, Iowa, Michigan, 
Minnesota, Missouri, North Carolina, Ohio, Pennsylvania, Tennessee, and 
Texas. We recommend that all States be given the option to set 
attainable performance goals and be given credit for demonstrating 
growth in student learning.
    In addition, we recommend three important changes to the current 
accountability framework:

    (1) Expand the current student growth models to include other valid 
indicators of student learning. Student growth on standardized 
assessments is but one out of multiple indicators of student learning. 
Evidence of student growth (as measured by accurate and reliable 
assessments and differentiated by subgroup) must be augmented with 
other measures, which may include district-level assessments; school-
level assessments; classroom-level written, oral, performance-based, or 
portfolio assessments; grades; and written evaluations. All measures 
must be rigorous and follow common protocols to allow comparisons 
across classrooms.
    (2) Require States to monitor multiple indicators of school 
performance beyond student learning. These include graduation rates; 
post-secondary and career placement rates; attendance rates; student 
mobility or transfer rates; the number and percentage of students 
participating in rigorous coursework (including honors, AP, IB, dual 
enrollment, early college); and the number and percentage of students 
participating in sciences, STEM, humanities, foreign languages, 
creative and fine arts, health, and physical education programs. This 
robust system would provide the public with a more complete picture of 
the performance of schools in their community and their State, instead 
of the current system, which holds schools accountable based solely on 
how many students reach an arbitrary cut score on a standardized test 
in reading, math, and science on a particular day.
    (3) Replace the current ``AYP'' system\1\ and corrective framework 
with a Continuous Improvement Plan that features multiple indicators to 
help States accomplish the following goals:
---------------------------------------------------------------------------
    \1\ NCLB currently requires schools to attain 100 percent student 
proficiency in math and literacy by the 2013-2014 school year. Schools 
must demonstrate AYP by setting and attaining increasingly higher 
target goals. Improvement must occur for every subgroup of students, 
i.e., low socioeconomic status, racial and ethnic groups, students with 
disabilities and students with limited English proficiency. Schools 
that receive title I funds and consistently fail to make adequate 
progress are then subject to a series of progressively harsher 
sanctions that range from allowing students to transfer to higher 
achieving schools and funding private tutoring to reconstitution, 
dismissal of staff, or even closure.

    <bullet> recognize areas of growth in all schools and States as 
part of a continuous improvement paradigm that all schools can improve;
    <bullet> identify schools and programs that may offer innovative 
approaches or platforms for other schools;
    <bullet> provide basic feedback to all schools on areas of possible 
growth or improvement (including support in one or more areas if 
warranted); and
    <bullet> identify which schools are or are at risk of becoming high 
priority (i.e., either ``persistently low-achieving'' or that 
demonstrate ``significant educational opportunity gaps'') in order to 
direct intensive resources and intervention supports to them.

    High priority schools (as identified by the State) would be 
required (and would be provided additional resources) to collect and 
submit additional data related to key school climate and success 
factors, including: leadership and staff experience and turnover 
statistics; class size (student-teacher ratio); number of National 
Board certified teachers; number of certified counselors, nurses and 
other support staff per student; school building and environmental 
ratings; school bullying violence statistics; descriptions of 
professional development and instructional improvement strategies, 
description of access to libraries, science laboratories, quality 
health care in the community, nutritional meals, before- and after-
school, and community and family engagement activities. The primary 
purpose of providing such additional data would be to direct 
appropriate resources and interventions to such schools. Such schools 
would have to provide such additional data until they are no longer 
deemed a high priority school.
Can States and/or districts establish reliable longitudinal data 
        systems that inform student learning and instruction in a 
        timely manner?
    The NEA supports State and local efforts to achieve high-quality 
longitudinal data systems that connect early learning to post-secondary 
(P-16) education systems and that provide timely and accurate 
information to educators about students to improve instruction. We 
support key aspects of high-functioning data systems, provided that 
such data systems sufficiently protect both student and educator 
privacy. No educational or performance data related to any individual 
should be made public, nor should ratings or levels be made public if 
there is a significant possibility that individuals could be identified 
through such publication. All ratings of educators informed by data 
systems that connect students to individual educators should be 
developed by and with educators, based on multiple means of evaluating 
educators, and should be aligned with collective bargaining agreements. 
All data systems must be associated with job-embedded professional 
development and planning time as an essential component in order for 
the data to be used for its intended purpose of improving instruction.
Can current efforts to revamp standards and assessments actually 
        improve accountability systems?
    The NEA supports the current effort among States to band together 
in consortia to voluntarily adopt a common core of high-quality 
standards and high-quality assessments aligned to those standards. 
Standards and assessments must be aligned with each other and with 
curricula, teacher preparation and professional development, and they 
must address the whole student and foster critical and high-order 
thinking skills and knowledge that will prepare students for a global 
and interdependent world in the 21st century and beyond. Assessments 
must include formative and summative components and be designed from 
the outset to accommodate the needs of special populations, including 
students with disabilities and English language learners.
Can we revise accountability systems to recognize the individual needs 
        of students, such as those with disabilities or who are English 
        language learners?
    Recent developments in education have converged to create a 
critical need for valid, reliable, unbiased methods for conducting 
high-stakes assessments for all students, including those with 
disabilities and English language learners (ELL). Foremost is the 
movement toward ensuring accessibility, fairness and accountability for 
all students. In this effort, assessments play a key role in supplying 
evidence to parents, policymakers, politicians, and taxpayers about the 
degree to which students meet high standards.
    To appropriately assess students with disabilities and ELLs, States 
should: (1) ensure that appropriate accommodations are available for 
students who need them, (2) use the principles of universal design for 
learning (UDL) in developing assessments for all students to increase 
accessibility, (3) ensure that valid, alternate assessments are 
available for those students who are unable to participate in regular 
assessments, (4) ensure that Individualized Education Program (IEP) 
teams understand the impact of alternative assessments on students' 
programs and graduation options, and (5) include measures of growth 
toward grade level targets, such as growth models that represent 
student progress over time.

    NEA Recommendations to Congress:

    <bullet> Require the use of multiple, valid measures of student 
learning and school performance.
    <bullet> Use student growth over time--not simply a one-day 
snapshot of standardized test performance--as one component of student 
learning.
    <bullet> Replace AYP with a Continuous Improvement Plan system that 
recognizes schools that achieve growth and correctly identifies 
struggling schools in order to provide meaningful support.
    <bullet> Foster high-quality, longitudinal data systems that 
improve instruction and protect student and educator privacy.
    <bullet> Recognize the unique instructional and assessment needs of 
special populations, including students with disabilities and English 
language learners.
    3. elevate the profession: great educators and leaders in every 
                             public school
    A growing body of research confirms what school-based personnel 
have known for years--that the skills and knowledge of teachers and 
education support professionals (ESPs) are the greatest factor in how 
well students learn. In turn, the presence of strong and supportive 
school leaders is one of the most important factors for recruiting and 
retaining accomplished teachers and ESPs. But for too long, we have 
neglected the most important factors in ensuring a strong and healthy 
pipeline of qualified educators. Today, the average person will change 
jobs between three to five times in a lifetime.\2\ Half of all teachers 
leave the classroom after 5 years.\3\ Fewer schools have experienced 
educators. As an entire generation of educators enters retirement, 
there is an urgent need to address all aspects of working in public 
schools. It is time to elevate the profession.
---------------------------------------------------------------------------
    \2\ See Department of Labor.
    \3\ See National Commission on Teaching and America's Future.
---------------------------------------------------------------------------
    The Federal Government must assist States to help seed future 
generations of educators at the earliest stages of undergraduate 
education and teacher recruitment all the way through teacher placement 
and retention. In particular, it is clear that we need a bold new 
center of excellence to bring prestige to the teaching profession: a 
national education institute to attract top college graduates and 
second-career professionals from across the country.
    Also, we know that even the best teachers struggle to perform well 
without the presence of an effective instructional leader. Primarily 
principals and other administrators, school leaders could include other 
colleagues who serve as mentors and coaches. Federal policies, 
therefore, must foster well-prepared and effective administrators as 
well as leadership skills within school professionals of different 
ranks and positions. And it is time that we recognize and support 
education support professionals, without whom no school would be able 
to succeed.
    Finally, we must ensure that great educators exist in every school, 
whether high- or low-achieving. The Federal Government must develop 
policies and provide funding that enables struggling schools and 
districts to offer incentives and conditions that will attract and 
retain the best educators in the Nation.
Why should we focus on each stage of the pathway from undergraduate 
        education all the way to retention of veteran educators?
    Research shows that, in order to infuse the educational system with 
great educators, each segment of the educator pipeline is important, 
including undergraduate education, recruitment of top graduates, 
graduate preparation, rigorous standards for entry into the profession, 
induction and placement, certification and licensure, mentoring, 
professional development, advancement and retention. Ultimately, we 
must develop systemic ways to recruit legions of top undergraduate 
students and professionals leaving other professions, to prepare them 
effectively, and to nurture and safeguard their path to and longevity 
within the classroom.
Can we foster excellence while establishing attainable standards within 
        the teaching profession?
    Teachers need to receive more than high-quality preparation within 
schools of education. The bulk of their learning comes from their 
experience in the classroom. We need policies that foster continuous 
learning in the form of high-quality, job-embedded professional 
development, mentoring programs, common planning and reflection time, 
and timely and continuous feedback from peers and school leadership.
    Funds should be provided so that more teachers receive the 
opportunity to earn certification from the National Board for 
Professional Teaching Standards; Board-certified teachers should be 
deemed highly qualified for accountability purposes.
    Federal policy also should recognize that some teachers must teach 
multiple subjects because of their geography or student population. 
This may include rural, special education, or elementary and middle 
school teachers. Therefore, teacher quality standards, while rigorous, 
also must provide accommodations for teachers in special circumstances 
and give them reasonable, common sense opportunities to improve or 
increase their skills and breadth of certification.
What can we do to improve school leadership?
    Similar to other educators, we must ensure that school principals 
and other administrators receive adequate preparation, mentoring and 
continuous professional development and support to improve their craft. 
They must receive timely and useful feedback from school staff as well 
as other administrators and be evaluated fairly and comprehensively. 
And they must have the resources and the staff necessary to manage a 
successful school.
    We must also advance policies that advance the leadership skills of 
teachers and education support professionals. All staff benefit from 
opportunities to both exhibit and receive leadership and mentoring 
within their specific profession or job category.
Why do we need a national education institute as well as State and 
        local reform within teacher and principal preparation programs?
    Elevating the profession means ensuring that the most talented 
individuals in the Nation have access to world-class education 
preparation programs. The establishment of a National Education 
Institute (NEI), a highly competitive public academy for the Nation's 
most promising K-12 teacher candidates in diverse academic disciplines, 
would allow the Federal Government to attract and retain top 
undergraduate scholars as well as second-career professionals and 
prepare them as leaders of school reform within school systems around 
the Nation. NEI would provide an intensive 1-year path (free tuition, 
room and board in exchange for 7-year commitment to service in select 
public schools) to full licensure, school placement, induction and 
lifetime professional development and mentoring opportunities from NEI 
faculty/graduates/master teachers, and annual meetings with other NEA 
alumni.
    NEI also would partner with existing teacher preparation programs 
to establish a highly competitive ``National Scholars'' program in 
select universities and to foster regional and local excellence in 
teacher preparation, licensure and induction.
    NEI would also sponsor a principal or leadership development 
program for top candidates who have served as teachers for at least 3 
years and wish to enter an intensive program to become a principal or 
school leader in a priority school.
Can we do more to recognize and support education support 
        professionals?
    Education support professionals (ESPs) comprise a critical part of 
the education team. They include school secretaries, custodians, bus 
drivers, teacher aides, food service personnel, paraprofessional 
laboratory technicians, telephone operators, medical records personnel, 
bookkeepers, accountants, mail room clerks, computer programmers, 
library and reference assistants, audio-visual technicians, and others. 
Schools cannot function without high-functioning ESPs. The Federal 
Government should create incentives and provide funds to recruit 
certified and qualified ESPs, and ensure they are included in job 
growth and professional development opportunities.
Can we recruit and create incentives for high-quality educators to work 
        in hard-to-staff schools?
    The NEA supports financial and other incentives to encourage top 
educators to work in hard-to-staff schools. Such incentives are most 
effective when they are voluntary, locally agreed upon, and include 
non-financial incentives such as the availability of continuous 
professional development, mentoring, paraprofessional assistance, 
effective school leadership, sufficient resources, planning time, class 
size reduction, and other factors that improve job quality and 
effectiveness. Inexperienced or new teachers should not automatically 
be placed in hard-to-staff schools until they have attained sufficient 
preparation and classroom experience.

    NEA Recommendations to Congress:

    <bullet> Focus on intensive efforts in the areas of undergraduate 
preparation and educator recruitment, preparation, certification and 
licensure, induction, professional development, mentoring, tenure, 
advancement and retention.
    <bullet> Foster continuous learning and rigorous yet attainable 
standards within the teaching profession.
    <bullet> Prioritize school leadership at all levels and positions 
within schools.
    <bullet> Create a prestigious national education institute and 
provide incentives to States to create world-class teacher preparation 
programs that attract the top tier of college graduates nationally.
    <bullet> Recognize and support the contributions and achievement of 
education support professionals.
    <bullet> Offer financial and non-financial incentives to teachers 
who teach in hard-to-staff schools.
   4. champion adequate, equitable, and sustainable funding for all 
                             public schools
    States and local school districts play a critical role in providing 
adequate and equitable resources to all of their schools. Likewise, the 
Federal Government must play an active supporting role to ensure that a 
student does not miss out on key opportunities by virtue of their zip 
code. Programs like Title I and IDEA must be fully funded because they 
are critical in providing necessary and sustained funds to schools 
serving disadvantaged students and special populations. States must be 
required to develop ``adequacy and equity'' plans that would measure 
and address disparities in educational resources, opportunities, 
programs and quality among communities and districts. Additionally, the 
Federal Government should reserve a portion of its funds to provide 
intensive support to struggling schools and provide research, 
assistance and guidance to foster sustainability of high-quality 
education programs, even in times of economic hardship.
What is the Federal role in ensuring adequacy and equity in schools?
    The original goal of the Elementary and Secondary Education Act was 
to provide educational opportunities to poor and disadvantaged 
students. That goal should endure in the future. While the bulk of 
educational funding comes from State and local coffers, the Federal 
Government must increase, concentrate and sustain formula funding in 
schools whose students lack the same opportunities and resources as 
other schools. In addition, it can provide competitive funding to 
encourage States to bridge gaps in educational, skills and 
opportunities among schools.
    Finally, it can develop policies that encourage States to play a 
more active role in monitoring and addressing (through ``Adequacy and 
Equity Plans'') specific success factors and disparities in schools 
that are persistently low-achieving or that have significant 
educational opportunity gaps. By requiring States to detail plans for 
helping close these fiscal and resource gaps in their Adequacy and 
Equity Plans, the U.S. Department of Education and the public can begin 
to provide critical support for State and local efforts to provide 
adequate and equitable funding for all schools.
Can we reserve our most intensive focus and resources for our high 
        priority schools?
    The Title I School Improvement Grants (SIG) Program should be 
revamped to require use of only research-based models of school reform 
to help meet the needs of more high priority schools--those at risk of 
becoming persistently low-achieving or that have significant 
educational opportunity gaps. The SIG program should be modified to 
allow State and local educational agencies clearer and immediate access 
to use local, State or regional turnaround teams, to provide for 
intensive team teaching and collaborative instructional strategies 
rather than firing half of the staff, and to require parental/caregiver 
and community engagement rather than closing a school or turning it 
over to a charter management organization.

    NEA Recommendations to Congress:

    <bullet> Ensure adequate and equitable funding for schools, and 
sustain and fully fund critical programs such as Title I and IDEA.
    <bullet> Help States and districts to identify disparities in 
educational resources, supports, programs, opportunities, class sizes 
and personnel through Equity and Adequacy plans.
    <bullet> Provide support and foster research-based turnaround 
strategies for high priority schools.
  Principles for the Reauthorization of the Elementary and Secondary 
                       Education Act (ESEA) 2010
    The reauthorized Elementary and Secondary Education Act (ESEA) must 
focus on policies that would help transform public schools into high-
quality learning centers by recognizing the shared responsibility among 
local, State, and Federal Governments. Given the law's complexity, each 
proposed change must be carefully considered to fully understand its 
effect on our Nation's schools and students. Therefore, the National 
Education Association encourages Congress to listen to the voices of 
educators in developing legislative proposals and offers these 
principles for ESEA reauthorization:

    <bullet> The Federal Government should serve as a partner to 
support State efforts to transform public schools.

        <bullet>  The 21st century requires a partnership among all 
        levels of government--Federal, State and local--to make up for 
        the historic inequitable distribution of tools and resources to 
        our Nation's students.
        <bullet>  We should support effective models of innovation 
        (such as community schools, career academies, well-designed and 
        accountable charter schools, magnet schools, inclusion of 21st 
        century skills, and educational technology), and create a more 
        innovative educational experience to prepare students for 
        challenging post-secondary experiences and the world of work.

    <bullet> The Federal Government plays a critical role in ensuring 
that all children--especially the most disadvantaged--have access to an 
education that will prepare them to succeed in the 21st century. The 
Federal Government should focus on high-quality early childhood 
education, parental/family involvement and mentoring programs, as well 
as quality healthcare for children to help overcome issues of poverty 
that may impede student progress. It should support community school 
initiatives in an effort to address these issues comprehensively; must 
invest in proven programs such as knowledge-rich curricula and 
intensive interventions; and must provide resources to improve teaching 
and learning conditions through smaller classes and school repair and 
modernization.
    <bullet> A revamped accountability system must correctly identify 
schools in need of assistance and provide a system of effective 
interventions to help them succeed. The schools most in need of 
improvement deserve targeted, effective, research-based interventions 
designed to address their specific needs. States and school districts 
should be given significant flexibility through a transparent process 
to meet agreed-upon outcomes, using innovative data systems and a 
variety of growth models based on movement towards proficiency. School 
quality and student learning must be based on multiple valid and 
appropriate measures and indicators.
    <bullet> The Federal Government should respect the profession of 
teachers and education support professionals by providing supports and 
resources to help students succeed. Hard-to-staff schools, especially 
those with high concentrations of disadvantaged students or those that 
have consistently struggled to meet student achievement targets, need 
significant supports and resources, including additional targeted 
funding to attract and retain quality educators; induction programs 
with intensive mentoring components; and professional development for 
educational support professionals.
    <bullet> The Federal Government should require States to detail how 
they will remedy inequities in educational tools, opportunities and 
resources. Funding should be targeted to schools with the highest 
concentrations of poverty. To build on the historic investment through 
the American Recovery and Reinvestment Act, the Federal Government 
should guarantee funding for critical Federal programs, such as Title I 
of ESEA and the Individuals with Disabilities Education Act.
    <bullet> State and local collective bargaining for school employees 
must be respected.
    <bullet> Targeted programs that support students and schools with 
unique needs--such as English Language Acquisition, Impact Aid, rural 
schools and Indian education--should be maintained and expanded.
    <bullet> The Federal Government should serve as a research 
clearinghouse, making available to educators a wealth of knowledge 
about how best to teach students and help schools improve practices.

    The Chairman. Thank you, Mr. Van Roekel. I was remiss in 
not mentioning that you came from the Ice Cream Capital of the 
World.
    [Laughter.]
    For those of you who do not know, that is Le Mars, IA.
    Mr. Butt, welcome.

    STATEMENT OF CHARLES BUTT, CHAIRMAN AND CEO, H-E-B, SAN 
                          ANTONIO, TX

    Mr. Butt. Good afternoon, Senator. It is truly an honor to 
address this distinguished committee.
    Our business had its beginning in 1905 when my grandmother 
established a little grocery store to keep her family afloat, 
and we are still going in Texas today.
    Recently, a major manufacturer, which opened a plant in 
Texas, had 100,000 job openings. Less than 5 percent of the 
applicants made it through the selection process. This 
illustrates our national dilemma.
    A McKinsey & Company study, which has been mentioned here, 
showed an education gap with the top countries such as Korea 
and Finland of $3 billion to $5 billion per day. I repeat the 
number because it is an astonishingly big number. In McKinsey's 
opinion, the existing gap in achievement imposed the equivalent 
of a permanent national recession.
    Now, their methodology is based on the supposition that in 
the 15 years after the 1983 report, A Nation at Risk, we had 
lifted student achievement to what they consider achievable 
performance. They then asked what was the economic impact in 
the 10 following years between 1998 and 2008 of not having 
raised achievement levels. In addition to the massive gap with 
global leaders in education, they identified three internal 
gaps. The racial gap between whites and African-Americans and 
Latinos. They estimate that at 2 to 4 percent of GDP. From 
students with families below $25,000 in household income to 
those with higher incomes, estimated at 3 to 5 percent of GDP. 
And for States that are below the national average, if they 
were brought up to the average, again 3 to 5 percent of GDP.
    Now, these are big numbers and hypothetical ones, but they 
do strike a responsive chord in me. A very small town, a very 
poor town on the Texas/Mexican border, Hidalgo, Texas, through 
great leadership has sent students to top national schools year 
after year.
    An urban, highly diverse, 50 percent economically 
disadvantaged district in the Houston area with over 100,000 
students and 98 language and dialect traditions is tied for 
first place in graduation rates in the United States among the 
100 largest districts. Success in large urban public school 
settings is clearly possible.
    Let us say the McKinsey numbers are overstated and the 
economic gap is less than they say, which I personally doubt. 
It is still devastatingly unaffordable for our Nation. Even if 
you divide it in half, it is unaffordable.
    In the success stories I mentioned, leadership is the key. 
In one case, it is a long-serving mayor who is dedicated to a 
great school. In the other, it is a smart, energized 
superintendent who uses data well, innovates extensively, and 
is not daunted by challenges.
    Now, if you have sat in a high school class recently, you 
will be impressed with the fact in a low-income school, 
particularly, but not exclusively, that schools are inheriting 
an over-entertained, distracted student. This is the product of 
the shallow learning culture that we have all created. This 
calls, in my view, for a more powerful role on the part of the 
teacher than he or she has ever played before, what I call a 
leadership teacher. Perhaps it is unfortunate that the schools 
are required to play this social role, but in my view it is 
important to our success.
    School boards often micro-manage but they miss their macro 
responsibility of choosing a superintendent and supporting her 
or him. In their defense, our system has produced too few 
superintendents who drive results. Our debate frequently misses 
where the vital choices are made--school boards and choices of 
superintendents who impact the principals and ultimately 
teachers. The appropriate role of Federal, State, and municipal 
government and funding are, of course, crucial issues. 
Technology and full-day, quality pre-K are big missings. Title 
I funds are vital.
    The diversity of views from education writers is wide, from 
charters to blow up the system, test more, test less. A key 
point is that we have success models now but are not 
replicating them. If you can find a way to stimulate the rapid 
development of results-
oriented superintendents and principals, it will be impactful 
because they are the ones who fight to find and keep great 
teachers, which is where it counts.
    Underlying it all, Senator, is America's will to win. Your 
leadership and stimulation of our national thought process 
about education and its vital role can be transformative. It is 
crucial that we see education as an investment and not a cost.
    Thank you for your service to the Nation.
    [The prepared statement of Mr. Butt follows:]
                   Prepared Statement of Charles Butt
                                summary
    All industries are brutally competitive today, especially during 
this recession, and most companies, like ours, have multiple 
productivity, process and efficiency efforts underway. Workplace-ready 
high school graduates are crucial to driving these programs forward. 
Firms are pushing for more college-bound people in math, science and 
technology.
    Companies need both and it's vital for the Nation that we produce 
both.
    A 2009 McKinsey & Company study showed that our education gap with 
top performing nations costs the United States $3 to $5 billion per day 
in GDP.
    Today the existing gaps in educational achievement impose the 
equivalent of a permanent national recession, as demonstrated by 
McKinsey's study of the Economic Costs of the Achievement Gap.
    If by 1998, 15 years after the publication of A Nation at Risk, we 
had improved African-American and Latino performance to that of white 
students, U.S. GDP would be $310 to $525 billion larger annually.
    If we had lifted the performance of students with family incomes of 
less than $25,000 to the same level of students with families earning 
more than $25,000, our 2008 GDP would have been $400-670 billion 
larger. And for individuals, avoidable shortfalls in academic 
achievement impose heavy and often tragic consequences via lower 
earnings, poor health, and higher rates of incarceration.
    Only 20-25 percent of new jobs in Texas require a 4-year college 
education. Nevertheless, much of the impetus continues to be focused on 
the vital national goal of preparing high schoolers for college.
    Developing globally competitive workplace skills calls increasingly 
for ``teaching as leadership'' rather than solely communicating subject 
content. Great teaching can open young minds to a wider, challenging 
world.
                                 ______
                                 
    Good afternoon Mr. Chairman, it's a great honor to address you and 
this distinguished committee.
    Our business had its beginning in 1905 when my grandmother opened a 
small grocery to keep her family afloat. Since the 1930's, we've given 
5 percent of our pre-tax income to public and charitable causes and 
consider ourselves close to the communities we serve. We now employ 
75,000 and are the largest private employer in Texas.
    Recently a major manufacturer opening a large new Texas plant had 
100,000 applicants. Less than 5 percent made it through the entire 
selection process for these new manufacturing jobs. This illustrates 
the dilemma of a society less than well-prepared for this century.
    A 2009 McKinsey & Company study showed that our education gap with 
top performing nations costs the United States $3 to $5 billion per day 
in GDP.
    In McKinsey's opinion the existing gaps in educational achievement 
impose the equivalent of a permanent national recession.
    The McKinsey methodology is based on the supposition that in the 15 
years after the 1983 report A Nation at Risk we had lifted student 
achievement to what they consider ``achievable performance.'' What 
then, they asked, was the economic impact in the 10 following years, 
between 1998 and 2008, of not having raised achievement levels?
    In addition to the $3 to $5 billion daily gap (accumulating 
annually to 9 to 16 percent of GDP) with nations that are global 
education leaders, they identified three major internal gaps in our own 
country.

    <bullet> The racial achievement gap between Whites and African-
Americans and Latinos is estimated to have been 2 to 4 percent of GDP--
$300 to $500 billion annually.
    <bullet> The achievement gap between students from families with 
income under $25,000 and those with higher incomes is estimated to have 
been 3 to 5 percent of GDP or $400 to $600 billion.
    <bullet> If States performing under the national average had 
reached the average we would have gained 3 to 5 percent in GDP-- again 
in the range of $500 billion based on McKinsey's model.

    Obviously, these are big numbers and hypothetical ones but they 
strike a responsive chord with me.
    Nevertheless, a small, very poor town on the Texas/Mexico border, 
Hidalgo, TX, through great leadership, has sent students to top 
national schools year after year.
    An urban, highly diverse, 50 percent economically disadvantaged 
district in the Houston area with over 100,000 students and 98 language 
and dialect traditions is tied for first place in graduation rates in 
the United States among the 100 largest districts. Truly inspiring! 
Success in large urban public school settings is clearly possible!
    Senators, these things jump out at me.
    Let's say the McKinsey numbers are overstated and the economic gap 
is less than they say, which I seriously doubt-- it's still 
devastatingly unaffordable.
    In the success stories I mentioned, leadership is the key. In one 
case a long serving, dedicated Mayor, in the other a smart, energized 
superintendent who uses data well, innovates extensively, and isn't 
daunted by challenges.
    School boards often micromanage but miss their macro responsibility 
of choosing a superintendent and supporting her or him. In their 
defense our system has produced too few superintendents who drive 
results.
    Our debate is too often missing where the vital choices are made: 
school boards and choices of superintendents who impact principals and 
ultimately teachers.
    The appropriate role of Federal and State Governments and funding 
are, of course, key issues. Technology and full-day, quality pre-k are 
big missings. Title I funds are vital.
    The diversity of views from education writers is wide--from 
charters to ``blow up the system,'' test more, test less. We have 
success models now but we aren't replicating them.
    In the business world leadership is key. Many business ideas don't 
apply to education but I believe this one does.
    If you can find a way to stimulate the rapid development of 
results-oriented superintendent and principal leadership it will be 
impactful because they are the ones who fight to find and keep great 
teachers--which is where it counts.
    Underlying it all is America's will to win--your leadership and 
stimulation of the national thought process about education's vital 
role can be transformative.
    As a nation, it's crucial we see education as an investment, not a 
cost.
    Thank you.

    The Chairman. Thank you very much, Mr. Butt.
    Now we will turn to Mr. Castellani.

 STATEMENT OF JOHN CASTELLANI, PRESIDENT, BUSINESS ROUNDTABLE, 
                         WASHINGTON, DC

    Mr. Castellani. Thank you, Mr. Chairman, Senator Enzi, 
members of the committee. I very much welcome the opportunity 
to appear before you today to address this vitally important 
task of reauthorizing the Elementary and Secondary Education 
Act.
    I am appearing on behalf of the Business Coalition for 
Student Achievement. BCSA is a business-based education reform 
coalition jointly led by my organization, the Business 
Roundtable, and the U.S. Chamber of Commerce. The coalition is 
chaired by Accenture's CEO, Bill Green; State Farm CEO Ed Rust; 
and the former CEO of Intel, Craig Barrett. Our members include 
business leaders that represent every sector of the U.S. 
economy, all of whom believe that improving America's K-12 
education system is necessary to provide a strong foundation 
for both U.S. competitiveness and for individuals in the 
country to succeed in today's rapidly changing world.
    The Business Coalition includes grassroots involvement from 
local and State chambers, roundtables, and business groups in 
rural, suburban and urban communities across the country.
    The recent deep recession and the currently painfully high 
rates of U.S. unemployment have cast longstanding U.S. weakness 
in education into sharp relief. Lagging U.S.-education 
attainment has real-world consequences for individuals and for 
the economy as a whole. Workers with less education suffer the 
highest rates of unemployment and an under-educated workforce 
reduces economic growth.
    The current U.S. unemployment rate announced last week is 
9.7 percent, which we know all too well. For Americans who do 
not have a high school diploma, it is 15.6 percent compared to 
5 percent for college graduates, an almost 11 point 
differential. In the world that our companies and our members 
face every year, which has been cited by other panelists, where 
the gap between what we are able to achieve here in the United 
States and what our competitors are able to achieve around the 
world--it is a gap that is not standing still. It is not 
static. The world is not standing still. Despite the recession 
that is global in scope, the worldwide knowledge-based economy 
continues to advance and more and more of today's jobs require 
an even higher level of skill and education, not just the high-
tech and professional jobs but all jobs.
    The Bureau of Labor Statistics reports that the fastest-
growing occupations are those that require higher levels of 
education and greater technical competence.
    We all have a stake in the success of the American public 
schools and the students, and that is why our coalition used 
reauthorizing ESEA as a top priority for Congress. Today we are 
releasing our principles for reauthorization, and they are 
included in my written testimony.
    The No Child Left Behind Act focused attention on the need 
to close the achievement gap and help all students reach the 
highest grade level proficiency in reading and math. Now we 
believe is the time to ramp up evidence-based reforms and 
innovations to close the two achievement gaps. We need to close 
the gap in education performance between poor and minority 
students and their more advantaged peers in the United States. 
We also need to close the gap between U.S. students and their 
international peers.
    The bottom line is that U.S. students should graduate from 
high school ready for post-secondary education and training 
without the need for remediation by post-secondary educators, 
employers, or the military.
    Education reform is in our view an economic security issue, 
a national security issue, and a vital social and moral issue. 
We believe it is not the time to point fingers and play a blame 
game because we believe we all can and must do better.
    On behalf of the Business Coalition for Student 
Achievement, I urge you and your colleagues to move ahead with 
a bipartisan approach to reauthorization of ESEA. I would point 
out that we come to this--and I certainly come to this--not as 
an education expert but as employers who understand the 
importance of strong and successful public schools.
    We look forward to working with you and the members of the 
committee to enact reform that does right by our students and 
prepares America's future workforce for the jobs of tomorrow. 
Thank you.
    [The prepared statement of Mr. Castellani follows:]
                 Prepared Statement of John Castellani
                                summary
    Mr. Chairman, Senator Enzi, members of the committee, my name is 
John Castellani and I serve as President of Business Roundtable, an 
association of chief executive officers of leading U.S. companies. I 
welcome the opportunity to address the vitally important task of 
reauthorizing the Elementary and Secondary Education Act (ESEA) on 
behalf of the Business Coalition for Student Achievement. BCSA is a 
business-based education reform coalition jointly led by Business 
Roundtable and the U.S. Chamber of Commerce. The Business Coalition 
includes grassroots involvement from local and State chambers, 
roundtables and business groups in rural, suburban and urban 
communities across the country.
    The recent deep recession and current painfully high rates of U.S. 
unemployment have cast longstanding U.S. weaknesses in education into 
sharp relief. Lagging U.S. education attainment has real-world 
consequences for individuals and for the economy as a whole.
    Workers with less education suffer the highest rates of 
unemployment and an undereducated workforce reduces economic growth. 
The current U.S. unemployment rate announced last week is 9.7 percent, 
but for Americans who don't have a high school diploma it is 15.6 
percent compared to 5.0 percent for college graduates--a 10 point 
differential. According to a McKinsey analysis, if America had closed 
the international achievement gap between 1983 and 1998 and raised its 
education performance to the level of nations such as Finland and 
Korea, U.S. economic output would have been between $1.3 trillion and 
$2.3 trillion higher in 2008, an increase equal to 9 to 16 percent of 
GDP.
    More and more of today's jobs require ever-higher levels of skill 
and education--not only high-tech and professional jobs, but all jobs. 
The Bureau of Labor statistics reports that the fastest growing 
occupations are those that require higher levels of education and 
greater technical competence.
    That is why the Business Coalition for Student Achievement views 
reauthorizing ESEA as top priority for Congress. Today we are releasing 
Principles for Reauthorization--they are included in my written 
testimony. Now is the time to ramp up evidence-based reforms and 
innovations that close two achievement gaps. We need to close the gap 
in education performance between poor and minority students and their 
more advantaged peers in the U.S. We also need to close the gap between 
U.S. students and their international peers.
    The bottom line: U.S. students should graduate from high school 
ready for post-secondary education and training without need for 
remediation by post-secondary educators, employers or the military. 
Education reform is an economic security issue, a national security 
issue and a vital social and moral issue. This is not the time to point 
fingers and play the blame game. We all can and must do better. On 
behalf of the Business Coalition for Student Achievement, I urge you 
and your colleagues to move ahead with a bipartisan approach to ESEA 
reauthorization.
                                 ______
                                 
    Mr. Chairman, Senator Enzi, members of the committee. Good morning. 
My name is John Castellani and I serve as President of the Business 
Roundtable, an association of chief executive officers of leading U.S. 
companies with more than $5 trillion in annual revenues and more than 
12 million employees. Business Roundtable member companies comprise 
nearly a third of the total value of the U.S. stock markets and pay 
more than 60 percent of all corporate income taxes paid to the Federal 
Government.
    I welcome the opportunity to appear before you today to address the 
vitally important task of reauthorizing the Elementary and Secondary 
Education Act on behalf of the Business Coalition for Student 
Achievement (BCSA), a business-based education reform coalition jointly 
led by Business Roundtable and the U.S. Chamber of Commerce. The 
coalition is chaired by William (Bill) D. Green, Chairman & CEO of 
Accenture, Edward B. Rust Jr., Chairman & CEO of State Farm, and Craig 
Barrett, former Chairman & CEO of Intel.
    BCSA's members include businesses of every size and grassroots 
business organizations, including local and State chambers of commerce 
and business roundtables. The small, medium and large businesses that 
comprise the coalition represent every sector of the U.S. economy in 
rural, suburban and urban communities. They have joined the coalition 
because they believe that improving America's K-12 education system is 
necessary to provide a strong foundation for both U.S. competitiveness 
and for individuals to succeed in today's rapidly changing world.
    Mr. Chairman, I am pleased that you are holding this hearing today 
because BCSA believes that reauthorizing the Elementary and Secondary 
Education Act--or ESEA--should be a top priority for Congress. The No 
Child Left Behind Act, as the most recent iteration of the 1965 
Elementary and Secondary Education Act, helped focus attention on the 
need to close the achievement gap and help all students throughout the 
Nation reach at least grade-level proficiency in reading and 
mathematics. It put a spotlight on the need to improve results for 
special needs students and English Language Learners.
    We believe that now is the time to build on No Child Left Behind 
and ramp up evidence-based reforms and innovations that close two 
achievement gaps. We need to close the gap in education performance 
between poor and minority students and their more advantaged peers in 
the United States as well as the achievement gap between U.S. students 
and their international peers.
    The recent deep recession, the current painfully high rates of U.S. 
unemployment and underemployment, and the reordering of the world's 
economy in the wake of a global financial crisis have cast longstanding 
U.S. weaknesses in education into sharp relief. America's low high 
school graduation and college completion rates represent systemic 
failure that leaves our children inadequately prepared in an 
increasingly competitive world.
    According to the U.S. Department of Education, only 19 percent of 
American ninth graders graduate from high school and then enter and 
graduate from college on time. Only 28 percent of American students 
pursuing associates degrees complete them in 3 years and only 56 
percent of American college students complete a bachelor's degree 
within 6 years. According to the Organization for Economic Cooperation 
and Development (OECD), the United States, which once enjoyed the 
world's highest rate of high school completion--a status it lost 40 
years ago--ranks 18th out of 24 developed nations in terms of high 
school graduation rates. Similarly, as recently as 1995, America was 
tied for first place in terms of college graduation rates but now ranks 
14th. Worse, the United States is now the only developed nation with a 
younger generation that has a lower level of high school or equivalent 
education than the older generations.
    Lagging U.S. educational attainment has real-world consequences for 
individuals and for the economy as a whole. Workers with less education 
suffer the highest rates of unemployment. According to the most recent 
data released last week, the current U.S. unemployment rate is 9.7 
percent, but unemployment among Americans with less than a high school 
diploma is 15.6 percent while unemployment among college graduates is 
5.0 percent. The difference is staggering--and we know those workers 
with less education will be the last hired as the economy recovers.
    McKinsey and Company has modeled the impact of low educational 
attainment on national economic performance. According to their 
analysis, if America had closed the international achievement gap 
between 1983 and 1998 and raised its performance to the level of 
nations such as Finland and Korea, U.S. economic output would have been 
between $1.3 trillion and $2.3 trillion higher in 2008, an increase 
equal to 9 to 16 percent of GDP.
    Two months ago, the Alliance for Excellent Education released a 
study of the economic impact of reducing the dropout rate by half in 45 
major metropolitan areas. The impact on personal earnings, consumer 
spending and local and regional job creation is undeniable. I would 
expect to see similar results in rural communities.
    The world is not standing still. Despite a recession that was 
global in scope, the worldwide knowledge-based economy continues to 
advance. More and more of today's jobs require ever-higher levels of 
skill and education--not only high-tech and professional jobs, but all 
jobs. In December, Business Roundtable released the findings and 
recommendations from The Springboard Project--an independent commission 
it convened--to ensure that American workers thrive after the economy 
rebounds. As part of the project we conducted a survey of employers in 
July of last year which revealed that employers perceive a large and 
growing gap between the educational and technical skills requirement of 
the positions they need to fill and the preparedness of U.S. workers to 
fill them. Their perception is, in fact, reality. The Bureau of Labor 
statistics reports that the fastest growing occupations are those that 
require higher levels of education and greater technical competence.
    The situation is clear. Jobs increasingly require higher levels of 
educational attainment and technical proficiency and Americans are 
increasingly less qualified to fill them. It is this growing mismatch 
that motivates business leaders like Bill Green, Craig Barrett and Ed 
Rust to become so personally involved in education reform. They, 
together with many other U.S. business leaders, have rolled up their 
sleeves and joined BCSA's effort to advocate for an ESEA 
reauthorization that does a better job for America's children.
    In many respects, the education reform landscape is very different 
since the No Child Left Behind Act was signed into law 8 years ago. 
Consider these four noteworthy developments:

    <bullet> The Common Core State Standards Initiative, led by the 
National Governors Association and Council of Chief State School 
Officers, is finalizing a draft of K-12 standards in math and English/
Language Arts. This voluntary effort by States to develop a common set 
of internationally-benchmarked, college- and career-ready standards 
that all students, in every grade, in every State and community across 
the United States should meet in two core subjects, with science coming 
next, is truly remarkable.
    <bullet> Better transparency and public reporting of student 
achievement data have put a spotlight on high school graduation rates, 
and particularly on the approximately 2,000 high schools (about 12 
percent of American high schools) that produce more than half of all 
U.S.-high school dropouts.
    <bullet> Likewise, it is no longer acceptable to obscure 
achievement gaps by reporting a school's average student achievement 
without disaggregating the data on performance results for all groups 
of students. States and school districts have deployed new data systems 
to measure and track student, teacher and school performance.
    <bullet> The stimulus bill included $100 billion in Federal support 
for new and existing K-12 education programs at the State, school 
district and individual school levels. Since the Administration 
established performance-based requirements to obtain competitively 
awarded ``Race to the Top'' and ``Investing in Innovation'' Federal 
education grants, we have seen how competitive grants can provide 
incentives to change long-standing education policies.

    Taking account of this changed landscape, and the need to get more 
than incremental improvement BCSA has developed principles for 
effective, results-oriented education reform in the context of ESEA 
reauthorization. We are releasing the following principles today:

    Expect Internationally Benchmarked Standards and Assessments to 
Reflect Readiness for College, Workplace and International 
Competition.--The standards and assessment provisions in a reauthorized 
ESEA must:

    <bullet> Incorporate challenging State-developed common 
internationally benchmarked standards and aligned assessments tied to 
college and workplace readiness.
    <bullet> Continue annual assessments of student achievement in math 
and reading, while working to establish annual assessments of student 
achievement in science.
    <bullet> Invest in R&D to develop a next generation of assessments 
to measure progress in other subjects and skills needed for college and 
workplace readiness.
    <bullet> Base annual progress measurements on rigorous measures of 
year-to-year growth in academic achievement tied to specific goals, 
including goals for specific subgroups of students.
    <bullet> Provide for the fair and comprehensive participation of 
special needs and English language learning students with particular 
focus on ``at-risk'' students and schools.

    Hold All Schools Accountable While Putting a Laser-like Focus on 
Ending ``Dropout Factories.''--Schools must continue to be accountable 
for getting all students (and subgroups) proficient in at least 
science, mathematics and reading. In addition, special attention must 
be placed on the less-than-3 percent of high schools that produce half 
of America's dropouts. Specifically, this must include:

    <bullet> Maintaining the current law's consequences for schools 
that are chronically under-performing and ensuring that States and 
districts undertake proven interventions to put an end to ``business as 
usual'' at chronically low-performing schools.
    <bullet> Increasing support for the School Improvement Grants 
program, while simplifying current Federal guidance to target resources 
and support to those schools in most dire need of reform.
    <bullet> Supporting initiatives to develop new personnel and 
governance policies in low-performing schools.
    <bullet> Targeting distribution of effective educators to high-
needs schools through updated incentive programs.

    Measure and Reward Teacher and Administrator Success.--High-
performing schools need highly effective teachers and administrators, 
and the best way to do that is to:

    <bullet> Change the current law's definition of ``highly qualified 
teachers'' to the definition of ``highly effective teachers'' used in 
the Race to the Top Fund.
    <bullet> Redesign and strengthen ineffective professional 
development programs to make them more ``teacher-driven'' using 
research proven strategies that boost student achievement.
    <bullet> Improve the use of data systems to measure teacher 
effectiveness and design compensation systems based on pay for 
performance models, not just seniority and additional training.
    <bullet> Implement policies and practices to fairly and efficiently 
remove ineffective educators.
    <bullet> Continue to focus on policies that promote equal 
distribution of highly effective teachers. Align teacher preparation at 
the post-secondary level with expectations for teacher effectiveness 
and common, internationally benchmarked, college- and career-ready 
standards.
    <bullet> Invest in high quality alternative certification 
initiatives and programs that bring talented individuals, including 
majors in STEM fields and second career teachers, into the teaching 
pool.
    <bullet> Expand the Teacher Incentive Fund with a priority on STEM.

    Foster a ``Client-Centered Approach'' by Districts and Schools.--
Good organizations, whether public or private, know that without an 
intensive focus on its clients, long term success is impossible. ESEA 
should require the following ``client-centered'' provisions:

    <bullet> Easy to understand report cards that include data on the 
performance of each student group and that do not rely on the use of 
statistical gimmicks and sleights-of-hand to sugar-coat results and 
undermine accountability measures.
    <bullet> High quality Supplemental Educational Services (SES) 
programs that require districts to provide students and parents with 
timely and easily understood information on their options to choose 
either free tutoring or the ability to move to higher performing public 
schools.
    <bullet> Increased support for parent involvement programs.
    <bullet> Additional involvement of community and business groups in 
school improvement, transformation, and turnaround activities.

    Leverage Data Systems to Inform Instruction, Improvement, and 
Interventions.--The use of data to inform and improve student learning 
has been one of the most important developments in education reform 
over the past decade. ESEA reauthorization should build upon these 
efforts, including recent efforts supported by the American Recovery 
and Reinvestment Act (ARRA), and develop fully functioning statewide 
data systems that:

    <bullet> Enable teachers to access user-friendly data to help 
support instruction.
    <bullet> Offer timely, accurate collection, analysis and use of 
high quality longitudinal data that align to district systems to inform 
decisionmaking and improve teacher effectiveness and student 
achievement.
    <bullet> Provide educator training on the use of data to 
differentiate instruction for students, especially for those who are 
not yet proficient and those who are more advanced.
    <bullet> Integrate existing data systems so that teachers and 
parents get a comprehensive and secure profile that includes 
information necessary to customize instruction.
    <bullet> Provide leadership with the full range of information they 
need to allocate resources or to develop, enhance or close programs.

    Invest in School Improvement and Encourage Technology and Other 
Innovations to Improve Student Achievement.--Improving schools in the 
21st century is not a static process, it requires constant innovation 
and research focused on what works. ESEA must include support for high-
quality research and proven reform initiatives by:

    <bullet> Using the competitive approach in the Race to the Top and 
Investing in Innovation funds to support the next generation of 
partners (non-profit and for-profit) to assist with school reform 
efforts.
    <bullet> Supporting R&D to improve school, educator, and student 
performance as well as reforms that revamp unproductive school 
governance, compensation regimes, and building use.
    <bullet> Supporting expansion of high-quality charter schools and 
virtual schools and holding them accountable for improved academic 
achievement with the same expectation that we have for public schools.
    <bullet> Supporting academic-focused extended learning time 
initiatives (including after school and summer programs) for at-risk 
students.
    <bullet> Reforming secondary schools and holding them accountable 
for increasing the graduation rate (using the common definition adopted 
by the Nation's governors), and graduating students who are ready for 
college and work.
    <bullet> Offering opportunities for students to enroll in advanced 
coursework (such as Advanced Placement or International Baccalaureate), 
early-college high schools, or dual enrollment programs that prepare 
students for college and careers.
    <bullet> Engaging students by demonstrating that standards based 
curriculum has real world applications in acquisition of knowledge and 
increased opportunities for career exploration and exposure.
    <bullet> Utilizing advanced communications technologies to improve 
delivery and increase effectiveness for students and teachers with 
optimization of online learning tools and multi-platform devices and 
systems.
    <bullet> Encourage parent engagement by using technology to provide 
information about their child's achievement and how to best support 
remediation or determine the need for increased support where 
appropriate.

    Establish a Dedicated Strategy and Funding Stream to Improve STEM 
Education.--For students to graduate from high school with the 
foundation, knowledge, and skills they need in science, technology, 
engineering, and mathematics (STEM), ESEA should:

    <bullet> Support a targeted ``innovation fund,'' which focuses 
funds towards taking proven STEM programs to scale while encouraging 
the development and research of new strategies to increase student 
achievement in STEM subject areas.
    <bullet> Support collaborations (schools, districts, States, 
communities and businesses along with other partners) to develop high-
quality online and in-person professional development for STEM 
teachers.
    <bullet> Continue development and support of student curricula, 
inquiry-based learning, project-based learning and hands-on activities 
in addition to other proven strategies to improve student achievement 
in STEM.

    As you can see from these principles Mr. Chairman, BCSA has gone to 
some length to develop comprehensive recommendations for ESEA 
reauthorization. We believe this is one of the most important issues 
you will address this year. We strongly endorse ESEA reauthorization. 
Education undergirds everything we do, as individuals and as a society. 
We cannot make sustained progress on creating stable, long-term 
employment, on boosting economic growth or in solving our greatest 
national challenges, such as responding to terrorism or addressing 
climate change and the need for energy security without addressing the 
underlying weakness of our educational system. Absent serious, 
effective, results-oriented reform, America's underperforming 
educational system will continue to fail many of America's youth and 
hold back the U.S. economy. Education reform is an economic security 
issue, a national security issue and a vital social and moral issue. 
This is not the time to point fingers and play the blame game. We all 
can and must do better.
    Mr. Chairman, I applaud you for holding this hearing today. On 
behalf of the Business Coalition for Student Achievement, I urge you to 
move ahead with a bipartisan approach for ESEA reauthorization. We come 
to this not as education experts but as employers and taxpayers who 
understand the importance of strong and successful public schools. 
Companies and local, State and national business organizations are 
committed to ensuring U.S. high school graduates are prepared for post-
secondary education, careers and participation in our democracy. We 
look forward to working with you and the members of this committee to 
enact reform with bipartisan support that does right by our students 
and prepares America's future workforce for the jobs of tomorrow.
    Thank you again Mr. Chairman, Senator Enzi and members of the 
committee. I appreciate this opportunity to express Business 
Roundtable's views on this important legislation. I welcome your 
questions.

    The Chairman. Thank you very much, Mr. Castellani. Thank 
you all for your excellent testimony and for being here.
    We will start a 5-minute round of questions.
    Mr. Schleicher, you pointed out that in some of the OECD 
countries--I do not know how many, but they tend to track the 
top 10 percent of their graduating classes to be teachers. I 
assume you are talking about the top 10 percent--is that out of 
college or out of high school?
    Mr. Schleicher. College.
    The Chairman. Out of college. Now, I do not know how they 
do that because, Mr. Van Roekel, you talked about the fact that 
it is teachers who are going to impact our students and we want 
to have the best teachers. I do not understand how you do that. 
How do they attract the top 10 percent when in this country, if 
you are in the top 10 percent, you go out and make a lot of 
money. How do they do that? You said it was not just payment.
    Mr. Schleicher. You have countries where it is payment. If 
you look to Korea, Korea pays its teachers about twice GDP per 
capita, twice as much as the United States in relative terms.
    Finland, the country that has the most attractive teaching 
profession, does not pay teachers very well but creates a set 
of incentives and a working environment that is very attractive 
for knowledge workers, a working environment that offers lots 
of opportunities for professional development, has well-defined 
career paths. It is not sort of a single job, but you can move 
up, and it is very open outward and inward mobility. The field 
of work is very, very attractive for people who are knowledge 
workers despite average pay. They are not that well paid, but 
they get 9 to 10 applicants for each post now.
    The Chairman. Mr. Van Roekel, how do we attract the top 10 
percent into teaching?
    Mr. Van Roekel. I think there are two things that we should 
be looking at. No. 1, we will have to deal with the issue of 
compensation because in our economy here in the States, we are 
competing with other occupations that require a college degree, 
and we simply are not competitive. A friend of mine who is an 
attorney--we both started the same year. As an associate, he 
started at $11,000. I started at $6,100. I asked him just about 
6 months ago, what does an associate make in your law firm now 
in Phoenix, and he said about $125,000. We cannot get teachers 
at $35,000 starting. It is four times as much. That is one 
thing.
    The second thing is that within the teaching profession, we 
have many first-generation college graduates. Many of my 
colleagues--we were the first in our family to have the honor 
and privilege of going to college. The top achieving one-third 
of students who are in the poor category have the same 
probability of going to college as the lowest one-third in 
academic ability for those who have resources. I think there is 
a great potential in reaching out to those very high achieving 
who have commitments to their community, they are first-
generation, and would love to have an opportunity to go to 
college, and I believe that is a great source of future 
teachers.
    The Chairman. In all my years dealing with education and 
being involved in different experiments and trials and things 
like that, the one thing that has always come through--every 
time I talk to teachers--I am talking about elementary school 
teachers, not so much high school--especially those that are 
just starting out--they have just been there 1 year, 2 years. 
We have a big drop-off. They are there 1 or 2 years and then 
they leave. The biggest single factor that has come through to 
me time and time and time again is the size of the classroom. 
It is how many students they have to teach. I cannot tell you 
how many times I have talked to teachers who have in elementary 
school, first, second, third, fourth grades, 10 or 12 kids and 
it is wonderful. You talk to others that have 25 and they are 
just inundated. They just give up.
    We had a goal one time. This Congress stated the goal of 
reducing elementary classes down to, in the early grades, less 
than 15, if I am not mistaken. I could be corrected on that, 
but something like that. Do you find that as a factor, Mr. Van 
Roekel?
    Mr. Van Roekel. Absolutely. One of the longstanding 
research projects came out of Tennessee, and at the beginning 
of that, all teachers and all students were selected for this 
research were all totally done by random. The only variable was 
the size of the class in K through 3, and they tried to keep it 
below 20. They have done over a 25-year follow-up with all of 
these students, by every measure, high school graduation, 
college-attending, graduation from college. By every one of 
those measures, they do better. Class size makes a huge 
difference, especially in those lower grades.
    I can tell you right now, as you go across the country with 
the economic situation the way it is, and with States facing 
their biggest challenge in 2010-2011, because the State 
stabilization funds that were the American Recovery and 
Reinvestment Act will not be there--layoffs are starting to 
come through. There are schools now with class sizes up to 40.
    I always said that I can teach just about any size group, 
but how I teach and what I am able to do varies immensely.
    The Chairman. Mr. Schleicher, you did not address this. 
What are the class sizes in OECD countries? I am talking about 
in the early years, first, second, third, fourth, fifth grades.
    Mr. Schleicher. Actually the United States has below 
average class sizes. The United States would be a country that 
has relatively small class sizes. If you look at some of the 
best performing systems, they actually trade in better 
salaries, better working conditions, more professional 
development against larger classes. If you look, for example, 
at some of the best performing systems like Finland, like 
Korea, they do actually have larger classes than the United 
States and they use that money to actually buy other things 
like more attractive environments for teachers, more individual 
personalized learning opportunities.
    The Chairman. Do these countries allow every child into 
those classes? Kids with disabilities, kids with learning 
disabilities are all in these classes too just like in America?
    Mr. Schleicher. There are different philosophies in 
countries. There are some countries where they are in special 
classes in schools, some in which they are integrated. If you 
look at the Nordic countries in Europe, you have a much higher 
degree of personalized learning opportunities. You have large 
classes in general, but then you have 30 percent of instruction 
time that is devoted outside formal classrooms, not just for 
students with disabilities, but also for students with special 
talents. It is just engaging with diversity in a different way.
    Our research actually does not support that smaller classes 
are the most effective investment to raise learning outcomes. 
That is not something that international comparisons would 
support. You can spend your money only once, and you have to 
make choices between better salaries, more learning time, 
smaller classes. Smaller class size is not often the most 
effective choice. That is what our comparisons would tell you.
    The Chairman. Well, I will have to take a look at that 
data. I went over my time.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I appreciate the testimony of all of you, particularly your 
complete testimony. There are a lot of good ideas in there.
    Mr. Butt, the McKinsey report highlighted NAEP scores in 
both Texas and California, and Texas outscored California on 
all fronts, but also spends about $900 less per student. In 
your opinion, what changes could be made today in educational 
systems that would cost little but have a big impact on closing 
the achievement gap?
    Mr. Butt. I do not think I can answer that for you, 
Senator, but I will try to respond by letter.
    I would like to say one thing about teaching. There are two 
issues in the pay issue. One is the starting pay and one is the 
pay to which teachers can look forward, and you have to address 
both to be competitive in the marketplace for bright leadership 
people which I think are needed today.
    And second, KIPP, which is so touted for its success, pays 
a few thousand dollars more but the teachers are crazy about 
their principal. They really follow him or her. We have 
principals today, unfortunately, that when they get a bright, 
new teacher, it is actually a problem for them because they 
have to manage that new energy in the classroom and it is 
disruptive for them. That is why I feel leadership at the 
superintendent and principal level is so critical.
    Senator Enzi. Thank you.
    Mr. Castellani, your testimony highlights the 
recommendations of the Business Coalition for Student 
Achievement, BCSA, for the reauthorization. Can you talk a 
little bit more about what BCSA means by a client-centered 
approach? Does this translate into more involvement by business 
in the schools or something else?
    Mr. Castellani. Yes, I can. The good organizations, whether 
public or private, know that without kind of an intense focus 
on their clients, long-term success is impossible. What we have 
recommended is first, easy-to-understand report cards that 
include data on performance of each student group and that do 
not rely on the use of statistical gimmicks and sleights of 
hand to sugar-coat the results and undermine accountability 
measures.
    Second, SES, Supplement Education Service, programs that 
require districts to provide students and parents with timely 
and easily understood information about their options to choose 
either free tutoring or the ability to move to higher 
performing public schools.
    Third, increased support for parent involvement programs 
which we believe are very, very important.
    And fourth, additional involvement of community and 
business groups in school improvement, in transformation, and 
in turnaround activities, get the communities more involved.
    Senator Enzi. You also mentioned specifically recruiting 
retirees as teachers and promoting teaching as a second career. 
Can you elaborate on that idea?
    Mr. Castellani. Yes. There are many, we believe, skilled 
retired business people, retired from all sectors, who have 
degrees in science, who have degrees in mathematics, who have 
degrees in English and history, who are living longer, are much 
more active longer, and looking for ways to give back to the 
community. We think that the school systems should look at 
being more flexible in teacher certification requirements and 
that post-secondary education particularly be expanded so 
people in those circumstances who can bring both their history 
and knowledge and their passion into the school room and into 
the schools have a pathway to do that, whether it is a post-
retiree from the private sector or from the military sector.
    Senator Enzi. Thank you.
    Mr. Schleicher, in your comparison of countries, I am 
wondering how similar the systems are to one another. For 
example, compulsory education in some countries goes to fourth 
grade, in some countries it goes to sixth grade. We do a lot of 
our statistics clear through high school, even though the 
compulsory education requirements often do not go that far. 
When you are doing those comparisons, is that taken into 
consideration? I know that it motivates kids a little bit if 
they know they can be left out at fourth grade, but it is a 
disservice too and we do not recognize that.
    Mr. Schleicher. To get around this, we actually compare age 
groups. We take an age group across countries and compare that. 
For example, our PISA comparisons look at 15-year-olds. 
Enrollment is universal across OECD countries except for Turkey 
and Mexico. So we do have a comparable basis.
    In fact, if you are very precise about it, in most OECD 
countries enrollment at age 15 is higher than in the United 
States. The United States takes a slight advantage out of those 
comparisons. But those differences are very small.
    Taking an age group gets you around the problem of having 
different educational structures across countries.
    Senator Enzi. It is also my understanding that your report 
indicates that relatively small improvements in the skills of a 
nation's labor force can have large impacts on the country's 
future well-being. Can you elaborate on those findings and 
explain what this means specifically to education and workforce 
policy in the United States?
    Mr. Schleicher. Yes. If you take the example of Poland, 
over the last 6 years, Poland raised its achievement by 29 
points on our PISA scale, which is three-quarters of a school 
year. It is a relatively modest level of improvement. If you 
would translate that in the U.S. context, you raise everybody's 
performance by this rather modest amount over the next 20 
years, being very generous with reform time implementation, you 
are talking about $40 trillion in additional economic income 
over the lifetime of people born today. You can really see how 
small improvement in the skills over time translates into 
better workforce qualifications, which then have a very 
significant impact on the economic outcomes in terms of the 
historical gross relationship. That is something that surprised 
us as well, but these results come out quite consistent.
    What is important in this context is that the relationship 
between educational success and economic success tends to 
become tighter and tighter over time. That is, the benefits for 
those who are well-educated continue to rise. The penalties in 
terms of labor market and earning outcomes for those who do not 
succeed in school actually have become quite a bit larger as 
well across OECD countries. That is a quite clear picture.
    Senator Enzi. Thank you. I will certainly be paying more 
attention to your report and to the work of others on the 
panel. I thank you and I have exceeded my time as well.
    The Chairman. Senator Dodd.

                       Statement of Senator Dodd

    Senator Dodd. Thank you very much, Mr. Chairman.
    Just great testimony, really fascinating to hear from all 
of you.
    First, we have got some wonderful people on this committee, 
Mr. Chairman. Obviously, Lamar Alexander, former Secretary of 
Education of the country, and Michael Bennet, our newest member 
of the committee, was the superintendent of schools in Denver, 
CO, and having talked to them, they have some wonderful and 
thoughtful ideas about education as well. We have got some rich 
talent here on the committee that can contribute to this 
debate.
    A couple of things. If somebody said to me I am going to 
give you the power, Senator, to do one thing and one thing only 
on education, what would you do, the one thing I would do, 
would be to increase parental participation in education. If 
parents could be more involved, I cannot think of anything that 
would have a more salutary effect than if you could engage the 
parents in their children's education. We do that with Head 
Start. We have a requirement that programs encourage parents to 
be involved. Yet, by the first grade in this country, parental 
participation in the average family drops significantly and 
continues to decline to almost zero over time.
    Let me begin with you, Mr. Castellani, because I think the 
business community--George David, who is a good friend of 
mine--and you know him well from United Technologies--did some 
remarkable things in higher education. I appreciate your 
comments today about the changes we would like to see occur in 
terms of the improvement of K-12.
    To what extent can the business community help the people 
who work for the business community? I cannot think of a better 
contribution that business can make than to be supportive of 
the parents that are employed by the major corporations of this 
country and others to have the time and the ability to be able 
to engage with their children.
    I authored the Family Medical Leave Act years ago, and it 
was a controversial bill. We have talked about improvements to 
it over the years. In fact, Patty Murray I think made some 
suggestions along these lines. Where there is an illness of a 
child--people do not want to debate that and clearly, their 
parents ought to be there. To what extent do we provide any 
kind of time for parents to be with their children, for 
instance, at an athletic contest or to be there at a parent-
teacher conference at school?
    What ideas do you bring to the table on how the business 
community--if you agree with me, that the parental gap that 
exists in terms of being involved in their children's 
education, what can the business community do about that?
    Mr. Castellani. Well, as I said in my response to Senator 
Enzi's question, this is one of the things that we think, among 
a lot of others, that should be examined and could help improve 
the quality of education. So you are absolutely spot on.
    One of the problems we have in the workplace is the 
mismatch in time demands, which are very considerable on any 
family, but also the structure of the timing, the work day, 
compared to how it is structured with the school day. The 
school day and a work day do not match. The school probably has 
less ability to be flexible but needs to be flexible in terms 
of its timeframe to engage the parents, and clearly in the 
workplace as employers, we have to be flexible.
    What you are seeing more and more in the workplace, at 
least within the private sector, is a greater reliance on 
flexible time, on telecommuting, on changing the rules. For 
example, in some organizations, we had very rigid rules about 
what were sick leave days, what were vacation days, what were 
personal days. And we are seeing some very innovative companies 
just say here is the amount of time you have off. Wherever you 
want to take it, you take it. You do not have to tell us what 
the reason is.
    It is providing more opportunity to use technology to be 
able to work remotely. It is providing more flexibility within 
the working hours. It cannot work across all. You cannot say to 
an emergency room physician, you can leave in the middle of 
this procedure and go off and watch a soccer game, but it is 
using technology and providing more flexibility.
    Senator Dodd. I would be very interested if you could ask 
your members at the Business Roundtable to submit to you and 
then to us what some of the ideas individual companies are 
doing to expand parental involvement so we might promote some 
of these ideas.
    Mr. Castellani. We would be delighted.
    Senator Dodd. Now, if I was given a second chance to do 
something else in education, it would be with principals. I 
want to commend Mr. Butt for your comments about the 
superintendents and principals, but particularly principals, it 
seems to me. Again, we have wonderful teachers who get elevated 
to be principals. The skill sets to be a teacher and to be a 
principal are very different in my view. It does not mean the 
leadership is not important in the classroom, but leadership in 
the school is as well. I do not think we do enough to really 
train and to promote the notion of identifying people who are 
good school principals.
    Are there some things that you are familiar with that might 
help us do a better job?
    Mr. Butt. I think the schools of education have a role to 
play here, Senator. I do not have a definitive comment on what 
that is, but I think there is something there.
    Senator Dodd. Well, if you have any ideas, let us know. I 
think that is a gap that we do not address well.
    Mr. Butt. Well, this is maybe an anathema to the 
educational community, but some of the best superintendents 
have an M.B.A. It is really an enormous management job, and it 
is really quite different from teaching, as you point out. Some 
people go into it from academia and do great, but others do 
not.
    Senator Dodd. I will come back to that at some point.
    Last, you said something to Senator Harkin, Mr. Schleicher, 
that I am curious about. I thought I heard you say just grades 
1 through 3, the class size--I think it surprised a lot of us 
here when you indicated the class size was less relevant in 
other grades in your experience. Did I hear you say just in 
grades 1 through 3, does class size have the greatest impact, 
or through the entire K-12 comparable age group?
    Mr. Schleicher. In fact, I was talking about the entire 
education system. I mean, class size is important, everything 
else being constant. There is no question about that. But when 
you have to make a tradeoff, when you have to decide how do you 
invest your money, our analysis suggested investing resources 
in reducing class is often less effective than investing it in 
other parts of the entire system. That is, I think, the 
tradeoff to be made.
    On your point on instructional leadership, I mean, that is 
what our research supports as well. It is a very important 
variable determining success and many countries actually do 
have a separate career path for school principals, in fact, 
even separate institutions to educate those people.
    Senator Dodd. What about the parent thing? Do you do 
anything on the parent side of this thing?
    Mr. Schleicher. It is harder to measure, harder to 
quantify. You do have some countries that are very successful 
in this. If you look to Japan, the most powerful organization 
in Japan, in terms of influence on the reality in the classroom 
is the parent-teacher organization, and they sit in every 
school. They have a real role to play. They are not just sort 
of at the football match, but they are really involved in the 
life of schools and have a major influence. It is just one 
example where a country has drawn on that resource in a very 
systematic way.
    Senator Dodd. Thanks.
    The Chairman. Senator Alexander.

                     Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Castellani, in 2005 a bipartisan group of Members of 
Congress asked the National Academies to recommend to us steps 
that would help increase American competitiveness. They gave us 
20. We spent a couple of years and passed most of them. One was 
to increase support for advanced placement programs. That was 
already going on here. Senator Harkin has long pushed that. So 
has Senator Hutchison.
    In the current budget, President Obama suggests eliminating 
funding for this program and consolidating it into a larger, 
competitive program for school districts to choose which 
programs to fund. As a former Governor, I am sympathetic to 
that kind of thing.
    What would your advice be about whether to target advanced 
placement programs or whether to turn over to States and local 
districts that amount of money and let them choose how to spend 
it?
    Mr. Castellani. Well, one of the things that the Academies 
pointed out and were dealing with--you asked the question, as 
you know very well--was a very substantial gap in the 
production of STEM-capable students and the needs that we have 
for science, technology, engineering, and mathematics capable 
students within business.
    The answer is you really need both quite frankly. We very 
much need a very intense focus which comes on some dedicated 
funding at the Federal and quite frankly the State and local 
level. Because of all of the hierarchy of what we need in terms 
of output from our education system, the highest need right now 
are those people who have those kinds of skills, those people 
who have analytical skills. So it really is a matter of doing 
both, quite frankly.
    Senator Alexander. Mr. Van Roekel, 26 years ago when I was 
a Governor, in a fit of naivete, I helped our State become the 
first State to pay teachers more for teaching well. We created 
a master teacher program, raised taxes to fund it, paid 
teachers a lot more, and 10,000 teachers went up a career 
ladder. It would be an underestimate to say that in doing so, I 
had a street brawl with the National Education Association, not 
so much with the American Federation of Teachers. Al Shanker 
said, ``Well, if we have master plumbers, we can have master 
teachers.'' It was hard to do because the teachers unions were 
against it. The colleges of education said you could not tell a 
good teacher from a bad teacher, and that left us politicians 
with a very difficult job. Ten thousand teachers went up that 
career ladder.
    I had a pleasant experience a couple of years ago, even 
though after I left the Governor's office, it was eliminated 
primarily with the affiliate of the NEA urging it. Five 
representatives of the Tennessee Education Association came to 
see me and thanked me for it. They were all master teachers. 
They said it was a good idea.
    A lot has happened over that period of time. Both the NEA 
and the FT worked with Governor Hunt of North Carolina and the 
National Board for Professional Teaching Standards to try to 
find a way to encourage outstanding teaching. Many local school 
districts have done that. Senator Bennet did it in Colorado, 
what Senator Corker did when he was mayor of Chattanooga, 
making agreements with local NEA affiliates to try to find fair 
ways to reward outstanding teaching.
    The Teacher Incentive Fund, which is a part of the 
Elementary and Secondary Education Act, has had a number of 
success stories in Arizona, California, Colorado, Florida, and 
North Carolina where local school districts working with 
teachers unions have found fair ways to reward outstanding 
school leadership and outstanding teaching. I agree with 
Senator Dodd. Parents are first, but if parents are first, 
teachers and school leaders are second.
    My question is, have we not got to find a way to pay good 
teachers and good school principals more for teaching well and 
to find fair ways to reward that? Is the Teacher Incentive 
Fund, which really allows local school districts to figure out 
how to do it in each case, is a good way to do it? Do you 
support that, or do you have another suggestion for how we 
should go about it from here? Or do you still think, as the NEA 
did 30 years ago, that it is just wrong to pay some teachers 
more than others based on the quality of the teacher?
    Mr. Van Roekel. You mentioned that much has happened in 
those 25 years. The National Board of Professional Teaching 
Standards--I was talking to Jim Kelly one day, and he talked 
about over 20 years they had spent about $200 million 
developing good assessments so that they could assess the 
practice of teaching from early childhood to high school. I 
think that was money well spent.
    I believe very much in the profession, and there have been 
many attempts to change how we pay teachers over time. We have 
supported many of those. We support paying teachers who achieve 
National Board certification. We differentiate pay on a lot of 
different ways. The only one I would say that we really have 
opposed, especially recently, is when they want to pay a 
teacher based on a single high-stakes test score. I think it is 
important to develop those. It is something that must be done 
at the local level in cooperation.
    You mentioned a career ladder. In my own experience in 
Arizona, we started one in 1985. It was discontinued this year 
due to finances and the lawsuit. From the time it started, it 
was far more expensive, and they had 14 districts and then 
allowed 20, but never more than 20. In this past year, one of 
the districts sued and said we want to be in this too. They 
lost in court. They said you are right. If you are going to 
provide it for some, you must provide it for all, and the 
legislature said, yes, it is a good idea but it costs $175 
million and we are not funding it. So they eliminated it from 
the 20 that had it and for the future.
    The issue of compensation, as mentioned before, when I was 
talking with Senator Harkin is very important. We have got to 
be able to compete. I think developing good compensation 
systems is very important. It just comes down to really three 
steps to me. No. 1, you have to define what you are going to 
pay for. Is it skills, knowledge, responsibility? In many of 
those career development plans, they define those in the area 
of skills and knowledge.
    Senator Alexander. My time is up.
    Teachers Incentive Fund. Are you for it or against it?
    Mr. Van Roekel. We support what is done at the local level 
by our local affiliates. The answer is----
    Senator Alexander. Is that a yes or a no?
    Mr. Van Roekel. Yes. It is a yes. We support what our 
locals do at the local level.
    Senator Alexander. Excuse me for interrupting. I saw my 
time was up.
    Mr. Van Roekel. That is all right.
    Senator Alexander. Thank you very much.
    The Chairman. Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Thank you, Mr. Chairman, for having this 
very important hearing as we begin our Elementary and Secondary 
Education discussions. I really want to thank all of our 
distinguished witnesses today for your testimony. I am 
personally glad to see we have teachers and business and the 
global perspective represented here today.
    Career and college readiness has long been a focus and a 
passion of mine, and I think the voices we have here really are 
an essential part of making sure that our students are truly 
prepared for the next steps to make sure our economy is strong 
and they have the skills they need. I think that that link 
between education and the workforce is more important now than 
ever before as we face a crisis in how many students are 
actually prepared, once they get through school, to get those 
jobs that we need them to have in their own communities.
    For the past two Congresses, I have introduced legislation 
called the Promoting Innovations to 21st Century Careers Act, 
which is focused on building better connections between the 
education, business, and workforce communities. By creating 
these partnerships, we can provide better student access and 
really do the right thing for our economy as well because the 
goal of the bill really is career and college readiness. I am 
fortunate my bill has been supported by a lot of diverse 
groups, teachers, Chambers of Commerce, workforce development 
representatives. When I was developing this bill, I went out in 
my community and held roundtables to bring together K-12, 
higher education, workforce, and economic development 
stakeholders.
    One of the things I heard when I was developing this bill 
was that there is a lot of barriers to collaboration between 
all these different entities. I think that we have got to have 
people talk together in their own communities to make sure that 
what the kids are learning in school actually helps them be 
successful when they get out.
    One of the things I hear from employers all the time, and 
actually universities and economic folks too, is that reading 
and math are important skills for kids to have, but it is not 
enough, that we need students who are able to communicate and 
do critical thinking and problem solving and not just learn the 
core basics, but those skills as well.
    My question to all of you today is what do you think 
students need to be able to know today for our education system 
to be considered world-class and for our students to have the 
skills they need to be able to succeed? What do they need to 
know? I will open it up to any of you.
    Mr. Butt. I think one of the conflicts, Senator, is trying 
to do workforce-ready and college-ready. A lot of the 
establishment has pushed college-ready, which would be 
favorable to you and all of us, during recent years. Workforce-
ready in my opinion has gotten somewhat lost in the backwash, 
and it is challenging to do both in the same school. That is 
clear. It requires a very specialized curriculum and great 
leadership. I think that that is an issue on which you may want 
to focus because the two groups are often at odds with each 
other.
    Now, we testified last year, along with about 10 major 
national companies, for more workforce-ready people. That is 
the reason that this company I quoted did not get enough people 
to fill their jobs. Both are badly needed. Clearly, we want 
more college graduates and community college graduates. In 
Texas, only about 25 percent of the new jobs, maybe 20 percent, 
require a college education.
    Senator Murray. They do require some kind of skill training 
is my guess.
    Mr. Butt. They do. They require a good high school 
education, but they do not necessarily require college.
    Senator Murray. What kind of skills do they need?
    Mr. Butt. Well, they need math. They need grammar and they 
need interpersonal relationships.
    Senator Murray. Math, grammar, interpersonal relationships.
    Anybody else? Mr. Schleicher?
    Mr. Schleicher. Thank you, yes. In fact, if you look at 
skill utilization, which is often a good indicator for the 
demand for skills, you see that actually there has been a quite 
rapid decline in routine cognitive skills. Things that are easy 
to teach, things that are easy to test are actually less 
important now than they were in the past. The rises in demand 
are, first of all, in what we call non-routine analytic skills, 
the capacity not to reproduce what you have learned, but to 
extrapolate from that and apply your knowledge in a novel 
context. We also see sort of interpersonal skills, having a 
rise in importance.
    At the OECD, we use a framework that categorizes this in 
sort of ways of thinking, problem solving, creativity, and 
decisionmaking, and so on; ways of working, collaboration, 
communication; tools for working. That is about ICT and 
instruments like this. Then there is sort of living in the 
world in a heterogenous world, civic competence and global 
citizenship and so on. Those are four categories which we 
actually do not put in contrast to math and science and reading 
and so on, but we look at the intersection. When you look at 
mathematics, knowing the formulas is less important today, but 
understanding how mathematics----
    Senator Murray. Because you can look it up on Google.
    Mr. Schleicher. Yes. But understanding how mathematics is--
--
    Senator Murray. You have to know how to get there.
    Mr. Schleicher. Yes.
    Senator Murray. You need to know how to communicate it.
    Mr. Schleicher. Well, there is a global trend toward 
broadening the concept of school subjects in many countries 
now.
    Senator Murray. Mr. Van Roekel.
    Mr. Van Roekel. Senator, I would say that you really 
incorporated that into your question. There is a need, I 
believe, for a solid curriculum that is broad, and I mentioned 
some of those in my opening from foreign language, history, 
civics education. All of that is important. It should be done 
in the context of 21st century skills. Creativity is something 
that is very much needed. Collaboration, which requires the 
interpersonal skills. Communication skills are getting more 
important and it seems almost a contradiction in this age of 
technology that communication is more important, but it is. And 
then the critical thinking.
    Using these new skills and all of these subject matters I 
think is what we have to prepare students for. Young students 
on a YouTube I saw the other day mentioned that in times of 
old, information was very expensive. Only a few had it. It was 
very valuable. Now it is for everyone. What are the skills you 
need in order to separate the wheat from the chaff, as we used 
to say, and figure out what is needed in a certain situation?
    Senator Murray. My time is up. I would just say, Mr. 
Chairman, that one of the things we try to do in my 
legislation--I hope we can look at it--is try and bring local 
people together from business and workforce and schools to make 
sure that they are actually learning those skills that they 
need to go into those jobs.
    The Chairman. Thank you very much.
    Senator Reed.

                        Statement of Senator Reed

    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    Mr. Schleicher, just I think a technical question. As you 
do your country comparisons, do you control for income 
disparities and racial disparities?
    Mr. Schleicher. Yes. Actually we do not know how to control 
for racial disparities because they are hard to measure in a 
global context, but we look at socioeconomic background like 
parental education, parental income, and factors like this. You 
can basically look at this and you can look at the impact those 
have on outcomes and can you control for them. That is actually 
done in many of our comparisons.
    Senator Reed. Do you not--and I know it is probably very 
difficult--look at the distribution of income in a country? I 
would suspect if an average pay of a teacher is X in a country 
but the highest pay is only one and a half times that where in 
some countries it is 100 times that, that is a different 
context.
    Mr. Schleicher. You mean in terms of the wage distribution 
for teachers?
    Senator Reed. Yes.
    Mr. Schleicher. Yes. That is much harder to do. Actually 
the way we look at this is we look at salaries of people with 
similar qualifications. For example, teachers usually have a 
masters degree qualification, so you can compare with salaries 
of a person with a masters qualification.
    Senator Reed. Frankly, thank you for your insights. They 
have been very valuable, and it is a very difficult area to 
make these and as a whole sort of subject area of culture. I 
think you have given us some extraordinarily good insights, and 
I thank you for that.
    Mr. Van Roekel, you have talked about collaboration in your 
testimony, but also I think you emphasized research-based 
approaches to reform. Could you identify what you consider are 
some of the more promising research-based approaches to reform?
    Mr. Van Roekel. Well, what I reference that is--for 
example, there is a real debate right now about charter 
schools. Should we remove the cap? Should we have more? I think 
it is the wrong question. What does research say about whether 
they are doing better or worse? Instead say, what is it in the 
practice of those schools that changes that?
    One of the comments earlier was that in these schools that 
are highly successful, they have networks where they share the 
practice. That to me is where the collaboration really works. 
It is taking knowledge--if, for example, in my math class, I 
get better results than others who are teaching the same class, 
what we ought to do is to share that practice and figure out 
why. As we look at other countries around the world, they 
spend--far more of a teacher's time at school is done in 
collaboration about determining the best practice and the way 
of presenting lessons instead of always being isolated with 
students by themselves. The value of collaboration is over all 
aspects of education.
    I am such a believer in the profession that it is my 
practice. It is not a test score. It is what I do diagnosing 
what a student needs. How am I able to adjust my instruction to 
meet their needs?
    If I could wave my magic wand and do just one thing, as 
Senator Dodd said, I would have the adults in every building in 
America connected with the parents and community members, spend 
1 week together before every school year, and say, based on 
where our students are, what they need, what are we willing to 
do together to ensure that it changes? I believe you would 
transform education.
    Senator Reed. Thank you.
    Mr. Butt, first, let me commend you for your public 
service. You have a pretty big job running your grocery chain, 
but you have spent many years in Texas, as I see from your 
resume, trying as a citizen to move education forward. One of 
the comments that impressed me was the notion that a lot of 
this is leadership style. A lot of this is having command of 
the school and command of the classroom, and those things are 
not necessarily taught in education schools or measured in 
terms of the performance. I wonder if you could comment on how 
we can do a better job of teaching those skills and measuring 
those skills.
    Mr. Butt. Well, it is multifactorial, obviously. I think 
State commissioners of education should be advocates for 
education and they should be intimately involved in the big 
districts and as many as possible in their State. In Texas, we 
have 1,030 school districts. They cannot be involved in all of 
them, but the commissioners should know the superintendents of 
all the big and middle-size districts and have an opinion about 
how they are doing, find a way to express that to board 
members, and play a constructive role in raising the standard.
    I think schools of education have focused mostly on 
teaching. They have some programs on superintendents and 
principals. I think more of that is needed. I think if our 
university systems--higher education and public education have 
become pretty separated in this country, and higher education 
does not take much responsibility for pre-K-12. North Carolina, 
I think, has a K-16 system, but few States do. I think that 
would be an opportunity.
    Senator Reed. Thank you, sir. And thank you, John, for your 
testimony.
    Mr. Chairman, my time is up.
    The Chairman. Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Thank you, Mr. Chairman.
    Let me thank all of the panelists for their excellent 
testimony.
    Let me start off with Mr. Schleicher. Mr. Schleicher, in 
this country, to go to a good college costs maybe $50,000 a 
year at a time when many working families do not make $50,000. 
How much does it cost to go to college in Germany?
    Mr. Schleicher. Actually, that is an easy country. Nothing.
    Senator Sanders. Ah, nothing. I see. Nothing, zero.
    Mr. Schleicher. You do have wide variability. The United 
States is a class in itself with very high levels of tuition. 
Japan would come second, and then sort of the European 
countries in the middle.
    Senator Sanders. And Scandinavia is nothing or very, very 
little.
    Mr. Schleicher. Scandinavia actually pays you to go to 
university. You get a subsidy----
    [Laughter.]
    Mr. Schleicher [continuing]. For your living costs.
    Let me just add one point. Actually we calculate the public 
investment and look at the public returns, and actually 
governments get more in tax receipts, even in those countries, 
than they actually spend on that.
    Senator Sanders. Well, that gets back to the point that Mr. 
Butt made a moment ago as to whether or not we consider 
education a cost or an investment. Presumably those countries, 
far removed philosophically from where we have been, actually 
believe that if you have a well-educated workforce, you do 
better. Everything that all four of you have said have 
indicated that. But we do not do that.
    In terms of child care, one of the issues, Mr. Chairman, we 
have not talked about either. We are talking about kids 
mysteriously at the age of 5 or 6 going into school. What 
happens in their previous 5 years? In this country, one of the 
untold stories that we absolutely do not focus on enough is the 
disaster in child care. My guess is you got millions of kids 
today right now sitting in front of a television set with an 
untrained child care worker, and that is the first 5 years of 
their lives. If I were in Finland right now or in Denmark and I 
had a baby, what child care is available to me?
    Mr. Schleicher. Coverage in some OECD countries go up to 90 
percent in terms of sustained early childhood education and 
child care.
    Senator Sanders. Are the child care workers trained?
    Mr. Schleicher. Pardon?
    Senator Sanders. Are they well-trained?
    Mr. Schleicher. In some countries--I mean, it is easier to 
measure the pay. In some countries, they get paid and have an 
education like a primary school teacher. In other countries, it 
is more a child care job.
    Senator Sanders. In this country, people leave child care 
to get a job at McDonald's to see a raise in pay.
    Mr. Schleicher. Let me just sort of put----
    Senator Sanders. I do not mean to interrupt you because I 
have other questions as well.
    My point is, I think if you are going to talk about 
education, there are millions of kids who are 10 years old who 
understand they aren't ever going to go to college because they 
cannot afford it. There are other kids who, by the time they 
walk into the first grade, are already so far behind they are 
never going to catch up. The point to be made, in comparing--I 
know some of my Republican friends put down Europe, Europe, 
Europe. But I think they have something. They have taught us 
something, that investing in kids--what about the crime rate? 
What about the percentage of young people who end up in jail 
compared to the United States? Do you have any statistics on 
that?
    Mr. Schleicher. They exist, but I do not have them.
    Senator Sanders. Well, it is far higher in this country. So 
we put them in jail rather than investing in child care and an 
education.
    I want to ask Mr. Butt a question because, again, it talks 
to a broader issue. You used the term ``shallow learning 
culture.'' Now, I am going to ask you what you mean by that. 
Back home in Burlington, VT, I got 50 channels on my TV and I 
turn them on, go through the 50 channels. There isn't nothing 
much to watch. Do you think we really are serious about--do we 
respect education in this country? How do you move forward in a 
serious way if we do not respect education? Maybe you want to 
comment on that.
    Mr. Butt. Well, if I had the answer to that, Senator, I 
would have certainly shared it with you. I think it is the 
challenge of all affluent nations. You know, we get a little 
too big for our britches and think that we do not have to keep 
doing what we used to do. I wish I had the answer to that. 
Maybe this recession will make us more aware of the necessity 
of going back to our roots with a hardworking attitude toward 
learning.
    Senator Sanders. Thank you.
    Mr. Castellani, do you think we should emulate Europe and 
put a great deal of money into child care and early childhood 
education? In some countries, I think in France it is--I mean, 
God did not create public schools at the age of 5. Now you have 
70-80 percent of women who are working and kids are forced to 
go to child care. Do you think we should do what Europe does 
and fund child care the way we do public education?
    Mr. Castellani. Senator, I think the broader question is 
how do we achieve the kinds of things that make students ready 
for learning, that have students that are ready for learning, 
indeed, get a very strong education, and have those who get the 
right education to be able to get----
    Senator Sanders. No, but that was not my question.
    Mr. Castellani. My answer is it has to be, as all of our 
things are here, uniquely American.
    Senator Sanders. Well, but uniquely American is failing. We 
do not want to be the only country where our educational 
standards can not compete with the rest of the world.
    My question was a simple one. Is child care important in 
your opinion?
    Mr. Castellani. Child care is important.
    Senator Sanders. Do you think an average working family can 
afford child care at 300 bucks a week?
    Mr. Castellani. No. I think it is very difficult.
    Senator Sanders. All right. Do you think that we should 
consider early childhood education as they do in many other 
countries as part of the overall public policy, that we should 
invest in that?
    Mr. Castellani. Early childhood education?
    Senator Sanders. Yes. Child care as well.
    Mr. Castellani. Yes.
    Child care as well? That is difficult.
    Senator Sanders. Why?
    Mr. Castellani. Again, it is a question of what is 
affordable and what is appropriate.
    Senator Sanders. All right, but many of these other 
countries have said that was a good investment. Do you think 
so?
    Mr. Castellani. How would you pay for it?
    Senator Sanders. By raising taxes on wealthy individuals.
    [Laughter.]
    Mr. Castellani. Fair enough.
    Senator Sanders. Fair enough. All right, good. Note that 
for the record, Mr. Chairman.
    Thank you.
    The Chairman. Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you very much, Mr. Chair.
    I appreciated your testimony here today. I was one of those 
children who was the first in their family to go to college, 
and I can tell you that I had that opportunity because I had 
good public schools in a working class community. I always felt 
pretty good about the chance to go to a major university and be 
able to compete with folks from much more elite backgrounds. I 
want to see that type of opportunity exist for every child in 
America. It is a real privilege to be here for this discussion 
of No Child Left Behind.
    I can tell you that in the course of running for the 
Senate, I talked to parents, school administrators, teachers, 
school boards, and I heard a consistent set of problems with No 
Child Left Behind.
    The first was that the testing was mostly designed to 
compare apples to oranges, that is, one class of third graders 
with another class of third graders, rather than tracking an 
individual student through the process so that teachers would 
have the type of information able to best help them assist a 
student, identify where they are struggling and advance them.
    Second, the curriculum would be narrowed to those items 
that were being tested, which was not necessarily in the 
student's best interest, but that was driven by the test 
results.
    And third, there was a pressure to teach to the bubble, and 
by that, I mean, children fall into three groups: those who 
easily exceed the standards, those who might exceed the 
standards with a lot of coaching, and those who are far away. 
Teachers were focusing on the bubble boys and girls that they 
might be able to get over that boundary but perhaps neglecting 
the educational advancement of those who already could meet 
that test or who they felt were too far away from meeting the 
test.
    And then finally, the system under No Child Left Behind was 
penalizing schools that needed help rather than helping schools 
that needed help.
    I would just like to ask whoever would like to jump in to 
address their perspectives on whether those concerns are 
legitimate as we launch this discussion of how to improve upon 
our system.
    Mr. Van Roekel. Let me take a crack at that very quickly. 
In the last 8 years, I have been in schools all across this 
country, and I have never been in one that they did not bring 
up No Child Left Behind and the things they say are exactly the 
four you say, that the testing is overemphasized and the 
apples-to-oranges, the timing of giving the results make it not 
informative in terms of informing practice. Narrowing the 
curriculum was a big deal. Teaching to the golden band or the 
bubble----
    Senator Merkley. What did you call that? The golden?
    Mr. Van Roekel. Yes. One principal called it the golden 
band.
    Senator Merkley. The golden band.
    Mr. Van Roekel. At the beginning of the year faculty 
meeting, he said this year we know these kids are already 
there, and there is a group down here who will never make it. 
We are going to take this golden band, those that we think we 
can push over that proficiency line, and that is going to be 
the focus of all of us for all year long. And they hate that. 
They believe it violates what their professional 
responsibilities are to the students.
    I totally agree with all four of your points.
    Senator Merkley. Other folks? Mr. Schleicher?
    Mr. Schleicher. Yes. In fact, I cannot comment on the 
gravity of the issues that you outlined, but I think these are 
all issues that can be quite easily addressed. There are many 
countries that have actually successfully addressed them.
    If you look at the single bar problem, that you only value 
sort of people nearing proficiency, many countries have systems 
that look at learning progressions, that look at sort of key 
stages, how you move through the system. You look to England 
and Nordic countries in Europe, lots of examples on this. They 
choose a different balance between formative and salutive 
assessments like you have school-based assessment plus sort of 
high-stakes assessment and that balance creates a different set 
of incentives for teachers to use and actually understand what 
those results mean.
    That also addresses part of the issue of teaching to the 
test. I mean, my impression is that the United States often 
sacrifices validity gains for efficiency gains in the testing 
process, and that I think is something that is----
    Senator Merkley. Expand on that just a little bit. Validity 
versus efficiency.
    Mr. Schleicher. Basically I mean measuring things that you 
can measure cheaply through multiple choice tests rather than 
measuring things that are really what matters, what counts.
    Those things can be addressed. I do think we have many good 
examples of very sort of intelligent accountability systems 
that actually measure progress comprehensively and that also 
measure the fields of study quite broadly, not necessarily sort 
of high-stakes accountability tests. Countries usually use 
multiple instruments within a coherent framework of national 
standards or regional or State standards.
    Senator Merkley. Mr. Chair, amazingly my time has 
disappeared, but could the other folks answer this question, if 
they would like to? Do we have time for them to do that? Please 
be very brief, if you would like to answer, because I have 
colleagues who want to--
    Mr. Castellani. Sure. Very briefly, we supported No Child 
Left Behind, and we do agree it can be improved. It should 
reflect the experience that we have had with it, that there are 
some issues. The underlying concept is something that we still 
believe is vitally important if we are going to be successful, 
and that is that we have to set high standards for our 
education system and the outcomes of our education system and 
we have to test the performance against those standards 
appropriately.
    Mr. Butt. We have to set high standards, but we have to 
have the resources to let the students reach the high 
standards.
    Senator Merkley. Thank you all very, very much. I may 
follow up or have my team follow up with you all to expand on 
how we tackle those issues. Thank you.
    The Chairman. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman, for holding this 
hearing, the first of, I hope, many on this reauthorization.
    Mr. Butt, thank you for talking about principals and 
talking about superintendents and talking about leaders and 
leadership teachers. You talked about new grade teachers that 
come in and are crazy about their principal maybe in a charter 
school, but then you have a new grade teacher come in in some 
schools and a not-so-great principal looks at the teacher as a 
threat.
    I believe in leaders, and I believe that principals lead 
the school and they should not just be custodians or 
administrators of a building.
    I have introduced a bill called the School Principals 
Recruitment and Training Act. What this does is it gives 
competitive grants to school districts and schools to find 
principals who want to work in high-needs areas. That is what 
Mr. Schleicher was talking about is what they do in these OECD 
countries, is they focus on these high-needs schools and 
mentor.
    I know Senator Dodd asked you for some ideas. One idea that 
we have talked to a lot of principals about is to have a 
mentoring system where for a year you recruit a principal who 
wants to be a principal. Maybe the teacher comes from somewhere 
else and is mentored for a year and there is follow-up.
    This is not a question. I am just plugging my bill. OK?
    [Laughter.]
    Enough of that.
    I want to get into testing. I talked to some principals a 
few weeks ago, and one of the principals called the current No 
Child Left Behind testing where you give the test in April and 
you get it in June right as the kids are leaving--he called 
these tests--he said they have a name for them--``autopsies,'' 
which I think is pretty significant.
    Mr. Schleicher, this is a question. You are talking about 
progress. There is a test in Minnesota that all the teachers 
love and all the superintendents love, a computer test. You 
cannot use it because in No Child Left Behind because not every 
kid gets the same test because it gets harder if you answer 
right and it gets easier when you answer wrong. You get the 
results instantly, and they can give it three times a year. And 
you can measure each kid's progress. Is this the kind of thing 
they are doing in the countries that are more successful than 
we are?
    Mr. Schleicher. Yes. There are many electronic testing 
systems that provide real and immediate feedback to a student's 
teachers and schools. In some other countries, they may not use 
electronic testing, but they have more school-based assessment. 
Basically within a framework of national standards, schools 
devise complementary international tests, their own 
instruments, and have, therefore, instruments where they know 
the results very quickly. They are not high-stakes 
accountability tests, but basically tests for the school to 
figure out what its relative strengths and weaknesses are. So 
it is not all electronic. It is often just also school-based.
    Senator Franken. Mr. Castellani, you said your group was in 
favor of No Child Left Behind. Does it make sense to you to 
maybe have three tests a year where you can use it 
diagnostically? I think that is what every parent in the 
country thought when they heard No Child Left Behind. I think 
they went, great, my kid is going to be tested. My teacher is 
going to look at the results. It will be diagnostic. My teacher 
will be able to teach my kid by the results. This is great. 
Instead, they get tested at the end of the year and all the 
data is aggregated to see if the school is failing or not.
    We had a school up in Cass County, MN that was named one of 
the top 100 high schools in America by U.S. News and World 
Report. Two weeks later, they failed the annual yearly 
progress. This is ridiculous the way this is working.
    Mr. Castellani. Senator, one of the principals or two--
actually several of the principals that I have included in our 
written testimony get right to this point. We have to have 
timely, accurate analysis of the testing data. We have to have 
accurate and timely tests in and of themselves that are 
relevant. We have to have better data systems so that teachers 
can use it not only collectively but for individual students 
and how they can change their approach to teaching that class. 
Absolutely, improving that data, improving the value of the 
data and the timeliness of the data--
    Senator Franken. One thing I think everyone agrees we need 
to be looking at in this new reauthorization is how we do this 
testing. I would advocate for testing that can be done several 
times a year and that teachers be measured on the kids' 
progress. From 1 year to the next, you do not know--the 
population changes. So you really cannot measure anything by 
that year-end test about progress.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman, and thank you for 
allowing me to be part of this conversation. I cannot tell you 
how much I look forward to working with you on this.
    When I was superintendent of schools in Denver, I spent a 
lot of time wondering why everybody in Washington was so mean 
to our teachers and to our kids. What I have discovered 
actually is that they are not mean, at least when it comes to 
education, that everybody here is well-intentioned, and that 
there is a universal agreement that we really do want our kids 
to achieve. So that is good.
    We also know a lot of what works. All of you have touched 
on things that work here and work in other places as well, and 
I have seen it.
    I know that the children in America's cities have the 
intellectual capacity to do the work we are asking them to do 
because I have spent a lot of time with them.
    Here is the question, but I am not going to let you answer 
yet. The question is what do you think are the biggest 
impediments to preventing these successes from scaling across 
our school districts and schools?
    Let me just say first when I became superintendent of 
schools, on the 10th grade math test that we administer, there 
were 33 
African-American students proficient on that test and 61 Latino 
students proficient on that test. Fewer than four classrooms of 
kids proficient on a test, that if we are honest with 
ourselves, measures a junior high school standard of 
mathematics in Europe in a district of 75,000 children and in a 
city of 550,000 children.
    A fourth grader today, as we are sitting here today, in a 
low-
income neighborhood, low-income ZIP code is already 2 or 3 
years behind her peers. She has a 1 in 2 chance of graduating 
from high school and a 1 in 10 chance of graduating from 
college.
    I do not think anybody in the Senate would accept those 
odds for any of our kids or grandkids. In fact, probably we 
would resign our seats and run home to make sure that was not 
what the outcome was going to be.
    In view of all that, my question to you is, what is getting 
in our way to scaling the successes that we know we have in the 
United States of America? We will start with you. Go ahead.
    Mr. Castellani. Senator, it is a very difficult question 
and I have to say I feel a little like Ebenezar Scrooge. You 
are the one I fear the most, the last.
    [Laughter.]
    Senator Bennet. They put me here for a reason.
    Mr. Castellani. No, no. I am the son of two teachers, one 
of whom went to the dark side to become a school administrator 
like you. My 94-year-old father who still calls me up and says, 
``what do you in the business world know about teaching and 
running a teaching system?''
    We have had long discussions about it and we have thought 
about it a long time.
    Senator Bennet. All I can say, Mr. Castellani, I spent 
about half my career in the business world and then half doing 
this other stuff, and it probably means I do not know much 
about any of it.
    Mr. Castellani. That is all right. I am sure it is to the 
contrary.
    One of the things that strikes me that is very difficult is 
the contrast between how the rush to implement the best 
practices, the most innovative practices, the most successful 
practices is a basic--in an operating circumstance in the 
business world and it is not in a lot of other worlds, 
including education because in the business world, you do not 
have those kind of impediments. They tend to be just resource-
limited or time-limited because in order to be competitive, you 
have to adopt them.
    I think the difference is because the reward structure is 
very, very different, and that is, if you adopt very rapidly 
the best practices in the business context and the economic 
context, the presumption is you will be rewarded because you 
will get more customers, you will have higher margins, you will 
be more profitable, which will result in more return for your 
shareholders. We do not have a way to translate that within the 
education system, and I think that in part is why people are 
not rushing to do what we do in this other sector regularly.
    Senator Bennet. Mr. Van Roekel? Oh, I am sorry, Mr. Butt. I 
will just go right down the table here, as long as the chairman 
will let us.
    Mr. Butt. Thank you, Senator.
    Three reasons. One, general apathy, which is due to the 
culture that I mentioned. You had a big crowd for the Academy 
Awards Sunday night. A teacher event, education event draws a 
big yawn, not sexy, and we are nationally over-confident. So 
that is one.
    The second is that the establishment has moved away from 
the public schools either through multiple districts, which 
achieve de facto segregation, or having their kids in private 
schools. In Texas, we have 5 million kids, nearly 10 percent of 
the national student group, of which, 4.6 million of those are 
in public school. The other 400,000, which include much of the 
affluent and voters and the people that influence the 
politicians, are in private schools. We have lost the 
leadership of the establishment--whatever it is worth, good or 
bad, and that is a matter of debate--to the public schools.
    And third, parents lose interest after their kids graduate 
from school. Parents and grandparents are not interested in the 
schools anymore. They are opposed to raising taxes, but they 
really do not care about the schools.
    Those would be my three reasons that it is difficult to 
penetrate and get change to elect good people to school boards 
and to elect State legislators and leaders that really care 
about education.
    Mr. Van Roekel. Senator, I would say, No. 1, it is turnover 
especially in our high-needs schools, the turnover of staff and 
of principals and superintendents. It is impossible to have an 
integrated, well thought-out plan that continues on for a long 
enough time to really impact it.
    Senator Bennet. By the way, I completely agree with your 
idea about having people come early for a week or two, parents 
and teachers.
    Mr. Van Roekel. A second thing is that too often a new 
culture or environment is created and it is personality-driven, 
and when that personality leaves, so does the whole plan and a 
new one comes in. It is impossible as a faculty member--it is a 
new reading program, it is a new math program, it is a new 
discipline program, it is new this, and we never just sit down 
and put it in place.
    The third thing I will say is that we tend to focus on 
activities that we think will change the system, instead of 
going at a systemic approach and really looking at coming up 
with that common purpose of what we are trying to achieve. I 
think that is where business has an advantage over us. They 
know what it is they are trying to achieve in their enterprise, 
and we do not talk enough about that. What happens is somebody 
says, ``oh, look, this school is doing well, and they have 
uniforms. Let us put uniforms in this school.'' They have no 
idea why they have uniforms--the discussion is about what it is 
they were trying to achieve.
    That is why I talk so much about collaboration. One of the 
things that happens in successful places--Syracuse, New York 
where Say Yes Foundation came in and they are changing the 
whole district. They do memorandums of understanding so that 
the management, the school board, and union all sign onto that, 
so when one of the big three players changes, they cannot 
suddenly go off in a new direction. There may be better ideas, 
but you have to come back and say, together, ``let us decide if 
there is a better place.''
    Those are my three best impediments.
    Senator Bennet. Mr. Chairman, one final thought. I would 
just stitch together what Mr. Van Roekel just said with what 
Mr. Castellani just said, and you can put this in the 
``whatever it is worth'' category. But, I do think there is 
enormous reform fatigue that goes on in these school districts, 
and part of it is because we have not applied the approach of 
continuous improvement that you would think of in the business 
world. I think it is very important for us to keep that in mind 
because I think there is a lot that our school districts could 
gain from a continuous improvement approach in our teachers and 
our kids.
    Mr. Butt, I would just say I completely agree with your 
observation, and I think that we as a country are going to rue 
the day unless we think about the children that are living in 
poverty in the United States, no matter who we are, as our own 
children. This is the next generation of Americans, and we are 
not going to be able to compete in the 21st century if we do 
not address these issues. The path to doing that runs right 
through the urban school districts of the United States.
    Thank you for being here today.
    Thank you, Mr. Chairman, for letting me go over.
    The Chairman. Thank you very much.
    Senator Franken.
    Senator Franken. Mr. Chairman, thank you for indulging me.
    One short question since you are here, Mr. Schleicher. I 
read your written testimony and thank you for it. I just want 
to know if you saw any correlation because a lot of the OECD 
countries--I guess they all have universal health care. Many of 
the high-needs schools that we have are under-performing, and 
we have a lot of the dropouts coming from there. Kids do not 
have health insurance. Is there any correlation that you saw--
maybe this was not part of your study at all--between having 
health insurance as a kid and doing well in school?
    Mr. Schleicher. Since, as you say, health care is universal 
in most of the countries--actually I think in virtually all of 
the countries--you cannot see any correlation basically. You 
can only study correlations when there is variability.
    Senator Franken. OK. You did not study all those countries 
versus us, but they are all improving and we are not.
    Mr. Schleicher. Not all countries are improving. There is 
quite some variability in performance.
    Senator Franken. OK. But we are falling in regard to the 
rest of the OECD countries. That is fair to say, right?
    Mr. Schleicher. What you can say is that social background, 
socioeconomic difference in the United States make more of and 
have a stronger impact on learning outcomes than is the case 
in----
    Senator Franken. My contention would be that a kid with an 
ear infection who does not have insurance is less likely to get 
it treated and more likely to miss school. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    I thank our panel. I could sit here for another hour and go 
over a lot of things with you. I think we had a good discussion 
here to kick off our series of hearings.
    I sent down for this book. It is called The Unfinished 
Agenda: A New Vision for Child Development and Education. I 
remember this very well. This came out in 1990. I had just been 
elected to the Senate in 1985. I was not on this committee at 
the time. I came on a little bit later. President Reagan had 
been re-elected that same year in 1984.
    Around 1986 President Reagan wanted to find out--he said we 
have all these studies on education. He said we need a study on 
education on an economic basis. What do we need to do in 
education today so that we will have a solid future 
economically for America? I do not remember all his words, but 
in his own way, the President said something like, ``I do not 
want a bunch of those pointy-headed guys doing this either. I 
want solid, strong business people that will tell us what we 
need to do.''
    The Committee on Economic Development formed this 
subcommittee on education. The chair of it was James Renier, 
chairman of Honeywell at the time. This has got all the 
members. These are all CEOs and chairmen of some of your 
largest corporations and companies, Ciba-Geigy, First Commerce, 
Aetna, the Freeman Company, Texas Instruments, Smuckers, Arco 
Chemical. You get the idea. And Jim Renier became the chairman.
    I never met this man, but in 1990 I was chairman of the 
Subcommittee on Appropriations on Education, the one I chair 
now, aside from this committee. One day this person wanted to 
come see me by the name of James Renier from Honeywell. Well, I 
figured, Minnesota is next door, what the heck, I will see him. 
He wanted to see me about education. He came into my office and 
reminded me of what had been going on.
    This committee had been set up in the 1980s. They had done 
all these studies and interviews and panels, and they really 
took their work very seriously. He handed the executive summary 
to me, and on the outside it had one paragraph. ``We must 
understand that education begins at birth and the preparation 
for education begins before birth.'' That is in this book.
    I can read it to you.

          ``The report urges the Nation to develop a 
        comprehensive and coordinated strategy of human 
        investment, one that redefines education as a process 
        that begins at birth and encompasses all aspects of 
        children's early development, including their physical, 
        social, emotional, and cognitive growth.''

    Well, here are all these hard-headed business people. What 
did they say? Get to those kids early. Get to them early. That 
is what this whole book is.
    So, I sent for it again; they found it in my file in Des 
Moines, and now I am going to keep it close by.
    I would like to bring this up about health care. In 1991, I 
said that the problem with health care is we are patching, 
fixing, and mending. We are putting all of the money into sick 
care, not into health care. If we really want to control costs, 
do prevention and wellness. Get at it early. Now, a lot of 
private companies have done that. Talk to Pitney Bowes. Talk to 
Safeway. Talk to companies that have actually done that, and 
they will tell you they save a lot of money.
    The same, I submit to all of you, is true in education. We 
have got to get to these kids early.
    What did you say, Mr. Butt? You said something that just 
really caught my ear--by the way, I thought your testimony was 
just great and so were your responses. Our kids coming to 
school--they are over-entertained. And what was the rest of 
that?
    Mr. Butt. Distracted.
    The Chairman. And distracted. That is right. We have to get 
to these kids earlier than we are now. By the time they come, 
they are already way behind. Somehow we have just got to focus 
more on that. I do not have the answer. I just know where the 
problem lies. The problem lies with kids before they actually 
get to school. Now, I suppose some of it has to do with social 
structures and things like that, but if we do not crack that 
nut, we are just going to continue to patch and fix and mend, 
and we are never going to get out of the hole that we are in.
    I submit this to you and I would ask for your thoughts on 
this later. Perhaps we need to re-define elementary and 
secondary education. Does elementary education really begin 
when kids enter kindergarten, or should we expand the thought 
of what elementary education really involves? I invite your 
thoughts on that in any regard, in any way you want to transmit 
them.
    This has been great. This has just been a wonderful kickoff 
to a whole series of hearings that we are going to have on 
this. I invite you later on, as we go through our hearings, if 
anything comes up that you want to get in, get it to our 
committee and to us. I could not have asked for a better 
beginning of the process. Thank you all very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Brown

    Thank you, Chairman Harkin and Senator Enzi for kicking off 
the HELP Committee's consideration of the reauthorization of 
the Elementary and Secondary Education Act with a focus on a 
fundamental truth--a world class education for our students is 
directly linked to a world class economy for our Nation.
    I would also like to thank the witnesses for joining us 
today. Your statements clearly illustrate that standing still 
in education means losing ground in the 21st century economy.
    Last month, the HELP committee held a hearing on the 
reauthorization of the Workforce Investment Act. We heard 
testimony that between 2008 and 2018, nearly two-thirds of all 
job openings would require at least some post-secondary 
education and that there was a growing mismatch between the 
skills of our workers and the demands of the workplace.
    Our long-term jobs strategy must address education.
    We know that there are persistent gaps in educational 
outcomes for students based on family income, race, language, 
and special needs. Ohio is no exception. National Assessment 
for Education Progress results show little progress in 
narrowing the gaps in math, science, and reading achievement 
over the last 10 years.
    We must do better.
    The No Child Left Behind Act helped shine a light on the 
achievement gaps. Reauthorization gives us the opportunity to 
move beyond just identifying long-standing gaps in opportunity 
and achievement and move towards a smart, strategic system for 
closing the gaps and improving achievement across the board.
    As we look to renew the law, I hope we strengthen it in 
several key areas, including:

    <bullet> Moving from merely collecting and reporting data 
to using today's sophisticated tools to harness the power of 
information for improving teacher practice and personalizing 
learning for students;
    <bullet> Building school-community partnerships to deliver 
the full range of supports that students and families need to 
be successful; and
    <bullet> Making the connection to college and careers real 
for all students.

    In Ohio, we have seen progress in all of these areas, but 
there is more work to be done. Ohio has made great strides in 
moving to a fully integrated data system that will enable us to 
analyze how students progress through elementary and secondary 
school to college and into the workforce.
    Local philanthropies and community leaders such as STRIVE 
in Cincinnati and the Cleveland Scholarship Programs have 
demonstrated the power of collaboration in improving outcomes 
for young people.
    Just this past January, President Obama--the first sitting 
president to visit Lorain County since President Truman--saw 
first-hand how we can connect students to college and careers. 
He visited Early College High School Students at Lorain County 
Community College's Fab Lab.
    After the visit, one of the students, Paula Jones, blogged,

          ``The FabLab is a creative and hands-on-learning 
        experience. It is a great resource for geometry class 
        because we can get accurate and precise measure of 
        angles and shapes by using the laser cutter and the 
        other utensils in the lab. There are many Fab Labs 
        throughout the world, and I am glad to have had the 
        opportunity to share this experience with not only my 
        peers, but the President.''

    Education is more than the sum of test scores or a 
collection of data points. Students must be able to apply their 
knowledge and skills in the real world. The students at the Fab 
Lab have already learned that lesson.
    We know what success looks like. We just need to build the 
capacity in our communities to deliver it for all students. 
Reauthorization of the Elementary and Secondary Education Act 
is our opportunity to support success.
    Thank you.

                  Prepared Statement of Senator Casey

    Good afternoon. First, I'd like to thank Chairman Harkin 
and Ranking Member Enzi for holding the first in a series of 
hearings which will provide an opportunity to hear testimony, 
examine data and evidence, and debate ideas for education 
reform. I think it is entirely appropriate to begin with a 
focus on the importance of education to the long-term economic 
health of the United States, and I appreciate you providing us 
with this framework.
    As we move forward to reauthorize the Elementary and 
Secondary Education Act, there are a few areas I believe we 
must address if we are to use education as the great equalizer 
of opportunity and a tool to enhance U.S. competitiveness in 
the global economy. First, we must expand and improve early 
childhood education. As President Obama has recognized in his 
Fiscal Year 2011 Budget Proposal, the early years of a child's 
life, from birth through age 5, are crucial for learning. By 
emphasizing early education through measures such as the 
Prepare All Kids Act which I have introduced, we will ensure 
that our children are ready to learn and increase their chances 
for success in grades K-12. Second, we must, as Mr. Van Roekel 
states in his testimony, revitalize the public education system 
and ensure its sustainability. Standards and assessments that 
will ensure accountability are critical and we must have a full 
and healthy debate on how best to measure student achievement 
and growth. Third, just as we must ensure that every child has 
access to quality education in the earliest years of his or her 
life, we must graduate every student from high school. The 
wealth, productivity, and growth that are lost as a result of 
the Nation's dropout crisis are devastating. An educated, 
skilled workforce is crucial to attracting employers and jobs 
to the United States.
    I want to thank each of the witnesses today for their 
thoughtful testimony. Your insight and observations are 
fascinating and should inform our deliberations throughout the 
reauthorization process. Perhaps most importantly, your 
testimony makes it clear that we must think of education not 
only as a moral imperative, but as an investment in our 
country's future, without which we will continue to fall behind 
other nations in educating our children.
    Thank you again, Mr. Chairman, and I look forward to 
working with you and my colleagues on the HELP Committee on 
this important legislation.

    Response by Andreas Schleicher to Questions of Senator Mikulski 
                           and Senator Casey
                      question of senator mikulski
    Question 1. I'd like to direct a question to Andreas Schleicher, 
who is doing some pretty fascinating work in looking at how we're doing 
relative to other countries. But, first, I'd like to thank Senator Tom 
Harkin for his leadership on this committee. We've been working 
together on these issues for a long time and I'm glad that education is 
one of the first things he'll have to put his unique signature on. Mr. 
Schleicher, through your research, I'm sure you've found that other 
industrialized countries are able to outperform their American peers at 
least partly due to the fact that they're in school longer. Their 
school days are longer, or their school years are longer, or both. 
Researchers at Johns Hopkins have been studying the detrimental effects 
of having such a large lag between school years for children, and 
they've found that the degree to which knowledge is lost during the 
summer months is more pronounced in youngsters from low-income 
backgrounds. The idea of extended learning time, or using things like 
after school activities, academic enrichment during the summer months, 
etc., is being piloted in pockets throughout the country, including my 
home State of Maryland. Could you please speak to the difference 
investing in extended learning time has played in other countries and 
also, what existing practices in the United States show promise for 
scalability?
    Answer 1. Learning outcomes are a function of the quantity and 
quality of educational provision. The OECD provides comparative 
measures on the quantity of educational provision but not on the 
quality of instruction, other than what is measured indirectly through 
student learning outcomes in PISA.
    It is problematic to compare the incidence and intensity of 
extended learning time through the summer months between the United 
States and other countries, because most other countries have 
significantly shorter summer breaks than the United States does. Among 
the 30 OECD countries, only France provides fewer weeks of instruction 
per year than the United States (see the attachment D4.xls, \1\ 
although the comparatively low number of instructional weeks and days 
in the United States needs to be seen in the context of comparatively 
long school days). The attached tables Tab_2.xls \2\ provides 
comparative data on different types of opportunities to learn for 
students at age 15 and the attached table Tab_ch3.xls \2\ breaks these 
data down by socio-economic groups.
---------------------------------------------------------------------------
    \1\ Attachment D4.xls may be found at www.oecd.org/edu/eag2009.
    \2\ The material referenced may be found at www.pisa.oecd.org.
---------------------------------------------------------------------------
                       question of senator casey
    Question 1. What are the three most important specific 
recommendations you would make to this committee for reforming 
education through the reauthorization of the Elementary and Secondary 
Education Act?
    Of all the ideas and recommendations for education reform, where do 
you believe there is consensus among education professionals, 
policymakers, academics, business leaders, and other stakeholders?
    Answer 1. I will focus on those issues which internationally 
comparative analysis suggests can be addressed successfully in complex 
stakeholder environments.
    First, judging from the experience of other countries, the 
consistent implementation of the ``common core standards'' in the 
United States could be an influential measure to address the current 
problem of widely discrepant State standards and ``cut'' scores that 
have led to non-comparable results and often mean that a school's fate 
depends more than anything else on what State it is located. Another 
policy goal could be a different balance between using accountability 
tools to maintain public confidence in education, on the one hand, and 
to support remediation in the classroom aimed at higher levels of 
student learning and achievement, on the other. While the emphasis of 
NCLB has been on test-based external accountability, many high 
performing education systems make greater efforts to build capacity and 
confidence for professional accountability in ways that emphasize the 
importance of formative assessment and the role of school self-
evaluation, the latter often in conjunction with school inspection 
systems that systematically intervene with a focus on the most troubled 
schools rather than dispersing efforts through identifying too many 
schools as needing improvement, which one could consider another 
drawback of the current NCLB system. Where school performance is 
systematically assessed in high performing countries, the primary 
purpose is often not to support contestability of public services or 
market-mechanisms in the allocation of resources. Rather it is to 
provide instruments to reveal best practices and identify shared 
problems in order to encourage teachers and schools to develop more 
supportive and productive learning environments.
    Second, I consider the ``single bar'' problem a major drawback of 
the current NCLB system, as it leads to undue focus on students nearing 
proficiency rather than valuing achievement growth. In many countries, 
this problem is addressed through assessment and accountability systems 
that incorporate progressive learning targets which delineate pathways 
characterising the steps that learners typically follow as they become 
more proficient and establish the breadth and depth of the learner's 
understanding of the domain at a particular level of advancement. One 
of the earliest approaches in this direction, the ``key stages'' in 
England, for example, provides a coherent system that allows measuring 
individual student progress across grades and subjects, thus also 
avoiding the problems associated with the ``multiple measures'' 
defining annual yearly progress in NCLB that have tended to lead to an 
undue emphasis on reading and mathematics. The global trend here is 
leading towards multi-layered, coherent assessment systems from 
classrooms to schools to regional to national to international levels 
that: support improvement of learning at all levels of the education 
system; are increasingly performance-based and make students' thinking 
visible; add value for teaching and learning by providing information 
that can be acted on by students, teachers, and administrators; and 
that are part of a comprehensive and well-aligned instructional 
learning system that includes syllabi, associated instructional 
materials, matching exams, professional scoring and teacher training.
    Third, drawing a clearer line between assessments, on the one hand, 
and individual high-stakes examination systems could avoid sacrificing 
validity gains for efficiency gains, which tends to be an issue for the 
United States that is also mirrored in, by international standards, an 
unusually high proportion of multiple choice items in the assessment 
systems.
      Response to Questions of Senator Casey by Dennis Van Roekel
    Question 1. What are the three most important specific 
recommendations you would make to this committee for reforming 
education through the reauthorization of the Elementary and Secondary 
Education Act?
    Answer 1. (1) Make a decisive and immediate break from NCLB by 
articulating a broad purpose for the Act that encompasses the ``whole 
student'' and by creating a new accountability system that helps, 
rather than impedes, school communities in their efforts to address the 
whole student.
    As we stated in our recent submission to the HELP Committee hearing 
on Meeting the Needs of the Whole Child, NCLB shifted the emphasis of 
public education from developing well-rounded individuals to testing 
low-level, basic skills in reading and math. The real impact of NCLB 
was in direct contradiction to its purported goals: it labeled our 
schools as failures based on crude measures yet did little or nothing 
to help us understand why or provide help to improve. It diminished the 
educational experience for millions of students by narrowing the 
curriculum and focusing the definition of success on two narrow, one-
size-fits-all tests that were given on one day during the school year. 
Most significantly, NCLB failed to raise the knowledge and skills of a 
generation of students--in fact, it left far too many behind, in 
violation of its own name.
    Therefore, immediate and dramatic change is needed to undo NCLB's 
harmful effects--to refocus our education system on developing a well-
educated citizenry equipped to meet the challenges of the 21st century.
    NEA is calling on Congress to pass a new bill--the Great Public 
Schools for All Act of 2010 or ``GPSA''--that would reauthorize and 
amend ESEA in important and dramatic ways, beginning with a new ESEA 
purpose statement:

          ``The public education system is critical to democracy and 
        its purpose, as reflected in this Act, is to maximize the 
        achievement, skills, opportunities, and potential of all 
        students by building upon their strengths and addressing their 
        needs, and to ensure that all students are prepared to thrive 
        in a democratic society and diverse, changing world as 
        knowledgeable, creative, and engaged citizens and lifelong 
        learners.''

    GPSA would require schools to meet the needs of the whole child by 
addressing multiple dimensions, including students' physical, social 
and emotional health and well-being, and ensuring that students are 
actively engaged in a wide variety of experiences and settings within--
and outside--the classroom. Under GPSA, school curricula would address 
the knowledge, skills and dispositions necessary to master not only 
core academic subjects but also career and technical skills for the 
21st century; effective and engaged community and civic participation; 
and physical and emotional health, well-being and self-actualization.
    Let us be clear: Congress must help school communities best meet 
the needs of the ``whole child'' by implementing a new foundation for 
the public education system's accountability system that rests on an 
authentic, reliable and valid system of assessments. The new 
accountability system must eliminate AYP and replace it with a new 
system designed to foster progress in student learning, close gaps in 
learning among students, and improve high school graduation rates. The 
new system must recognize and reward ``exemplary'' schools and 
individuals who are performing well above average, and it must allow 
the majority of schools that are ``on target'' to carry on without 
significantly increased Federal requirements. This is not to suggest 
that the majority of schools should not continue to find ways to 
improve, but rather to specify that Federal requirements that are 
prescriptive or punitive are not an appropriate way to foster that 
improvement. The new system must also correctly identify and foster 
improvements in ``priority'' schools (addressed further below).
    As for student testing, we must improve assessment systems as well 
as restore assessments to their proper role in the accountability 
system, which is to improve instruction and enhance student learning. 
Assessment systems should be aligned with high-quality standards, 
curriculum and professional development and cover much broader 
curricular areas (as articulated above) as well as more complex sets of 
knowledge, skills and dispositions within those curricular areas. They 
should comprise multiple components and offer multiple ways to 
demonstrate knowledge beyond a single, standardized test. Assessments 
should be developed and designed according to principles that allow 
their use with students of diverse abilities and diverse cultural and 
linguistic backgrounds. Finally, while State or local agencies may 
choose to administer their own assessments more frequently--and likely 
will do so in order to help improve instruction in a timely manner--
standardized tests mandated by the Federal Government should not occur 
more than once in each of three grade spans (e.g., 4-6, 7-9, 10-12) 
during a student's K-12 career.
    Schools and educators must have the time, ability and resources to 
complement assessment systems by establishing other systems critical to 
``whole child'' development, such as:

    <bullet> curricular and extracurricular expansion and development;
    <bullet> parent, family and community engagement and partnerships;
    <bullet> high-quality teacher and principal induction and 
professional development systems;
    <bullet> systems that support qualified specialized instructional 
support personnel (i.e., school psychologists, school counselors, 
speech language pathologists, audiologists, school social workers, 
school nurses, occupational and physical therapists, music/art/dance 
therapists and adaptive physical education teachers and others involved 
in providing assessment, diagnosis, counseling, educational, 
therapeutic, and other necessary corrective or supportive services) who 
provide critical services to students;
    <bullet> systems that support qualified education support staff to 
assist instruction, provide supplemental or wrap around services or 
activities, provide nutritional meals and safe transport to students, 
and maintain schools as vibrant centers for student learning;
    <bullet> positive behavior support systems, a school-wide approach 
to improving safety and school behavior for all students;
    <bullet> student health, nutrition, sports, mentoring and 
counseling to foster physical and emotional health and safety; and
    <bullet> construction and modernization to ensure that schools and 
classrooms are technologically equipped and serve as comfortable and 
inviting spaces and facilities that meet diverse curricular and 
extracurricular needs.

    Finally, to avoid overlapping and conflicting accountability 
systems, upon reauthorizing ESEA Congress must immediately replace NCLB 
accountability labels and requirements with a new, strengthened 
accountability system as outlined in GPSA. To address the obvious need 
for a transition to this new system, GPSA should specify what limited, 
NCLB-era standardized assessments must be administered pending the 
implementation of new assessment systems under Race to the Top and 
other assessment reform efforts. Furthermore, we strongly believe NCLB-
era assessment results should no longer be used for Federal 
accountability purposes after ESEA is reauthorized. The cessation of 
the NCLB accountability timeline--and the all-too-often inaccurate 
school labels--is critical to allow States to begin developing more 
complete accountability systems comprising multiple measures of student 
learning. States will also use this time to pilot and ramp up new 
assessment instruments under the new accountability system so that they 
may be used as soon as possible.
    (2) Ensure equity, adequacy and sustainability in education funding 
and resources, including intensive assistance and supports to 
struggling schools to close gaps in student learning, opportunities, 
and college and career readiness.
    Congress should restore the original intent of the Elementary and 
Secondary Education Act to eliminate disparities in educational 
opportunities between advantaged and disadvantaged students. It should 
do this in two ways:

    <bullet> Adequate, equitable and sustainable funding. First, 
Congress should establish that the role of the Federal Government is 
to: (1)  investigate and research to what extent and how education 
funding policies and practices and other external influences and events 
at the Federal, State and local levels lead to disparities and 
fluctuations in educational opportunities, quality and performance 
among students, and (2) close, to the extent possible, disparities and 
eliminate fluctuations in educational opportunities, quality and 
performance among students through direct Federal funding and 
assistance and through policies designed to encourage adequate, 
equitable and sustainable education funding and assistance at the State 
and local levels. (See our legislative specifications in GPSA regarding 
``equity and adequacy plans'' which should be required under a 
reauthorized ESEA).
    The current education jobs crisis has illuminated a dangerous and 
unacceptable ebb and tide in the continuity and stability of public 
education nationwide; such fluctuations also hinder education reform 
efforts. Just as safeguards against harmful fluctuations in financial 
institutions have been developed over time, so too should the education 
system--the engine of the U.S. economy--be stabilized through 
equitable, adequate and sustainable funding.
    NCLB did a poor job at providing and encouraging sufficient and 
stabilized education funding for all schools. Even with ARRA, NCLB 
programs were never funded at their authorized levels and in the last 8 
years the per-pupil funding and resource gaps between LEAs have not 
narrowed or closed. The NEA proposes that Congress remedy these 
problems in its legislation reauthorizing ESEA by closely monitoring 
disparities between authorized and appropriated funding levels and 
requiring State plans to include improvements in adequate, equitable 
and sustainable funding and resources as a top priority.
    For ESEA reauthorization, Congress should prioritize increases in 
equitably distributed funding channels such as title I and the main 
portion of the ARRA State Fiscal Stabilization Fund. These programs 
enable districts to plan efficiently and provide adequate, equitable 
and sustainable funding to schools. While we support the need for 
innovation and improvement in education, we do not believe that 
increasing overall funding of ESEA programs primarily through 
competitive programs such as Race to the Top, Investing in Innovation, 
and the Teacher Incentive Fund--particularly in a time of State fiscal 
crisis--is a sound approach for improving education opportunities, 
services, and outcomes for students or for achieving equity, adequacy 
and sustainability of those opportunities in all 50 States.
    Priority schools. Second, Congress should, through ESEA, address 
struggling or ``priority schools'' by requiring States to adopt plans 
that call for comprehensive internal and external review teams to study 
the operations and systems of priority schools and, based on the 
review, pursue a school transformation approach that emphasizes 
collaboration, capacity-building and aggressive improvements--not the 
rigid implementation of prescriptive intervention ``models,'' as 
currently proposed by the Obama administration. Examples of successful 
transformation models may be found in the Denver Public Schools 
(Denver, CO), Hamilton County Public Schools (Hamilton County, TN) and 
Putnam City West High School (Oklahoma City, OK). For more information 
about successful transformation approaches, see www.nea 
priorityschools.org.
    (3) Address teacher and principal recruitment, retention and 
effectiveness thoughtfully and comprehensively.
    Research shows that infusing the educational system with great 
educators requires attention be paid to each segment of the educator 
pipeline--from promoting education as a career to rigorous standards 
for entry into the profession. It also includes induction and 
placement, certification and licensure, mentoring, professional 
development, advancement, and retaining accomplished educators. 
Ultimately, we must develop systems to recruit legions of top 
undergraduate students and professionals leaving other professions, to 
prepare them effectively, and to nurture and safeguard their path to 
careers in education.
    According to some estimates, a third of our Nation's public school 
teachers will have retired over the next several years. To compound the 
problem, a third of new teachers leave the profession within 3 years, 
and some districts replace half of their new staff every 5 years. (See 
www.nctaf.org.) We are also losing hundreds of thousands of teachers 
and other education employees to layoffs due to the ongoing fiscal 
crisis. (See NEA's synopsis of layoffs in 50 States at http://
www.nea.org/assets/docs/
State_Budgets_and_Education_50_state_chart_2010.pdf.) In short, this 
country needs bold ideas for how to attract and retain talented new 
teachers to address the looming national teaching shortage.
    NEA has proposed that Congress establish a National Education 
Institute (NEI), a highly competitive public academy for the Nation's 
most promising K-12 teacher candidates in diverse academic disciplines, 
which would allow the Federal Government to attract top undergraduates 
as well as second-career professionals and prepare them as leaders of 
school reform around the Nation. NEI would provide an intensive 1-year 
path (free tuition, room, and board in exchange for a 7-year commitment 
to service in select public schools) to full licensure, school 
placement, induction, along with lifetime professional development and 
mentoring opportunities from NEI faculty/graduates/master teachers. NEI 
also would partner with existing teacher preparation programs to 
establish a highly competitive ``National Scholars'' program in select 
universities that would foster regional and local excellence in teacher 
preparation, licensure and induction. Additionally, NEI would sponsor a 
principal or leadership development program for top candidates who have 
served as teachers for at least 3 years and wish to enter an intensive 
program to become a principal or school leader in a hard-to-staff 
school.
    Teacher effectiveness begins, but does not end, at the recruitment 
and preparation stages. We need policies that foster continuous 
learning in the form of high-quality, job-embedded professional 
development, mentoring programs, common planning and reflection time, 
and timely and continuous feedback from peers and school leadership. 
Congress should increase funding in title II to allow more teachers to 
become certified by the National Board for Professional Teaching 
Standards or similar programs.
    Teacher and principal evaluation systems must be reformed to become 
more useful avenues for improving professional practice. The recent 
release of the Administration's Blueprint compels us to raise with you 
our grave concerns about the Blueprint's call for a State-defined 
system to rate the effectiveness of teachers which must be based in 
significant part on student academic growth. First, it is not 
appropriate for Federal policy or law to mandate the terms of an 
individual teacher's employment. We do not, from the Federal level, 
prescribe to Governors or mayors how to evaluate other public 
employees. The Federal Government does not hire or fire public 
employees; therefore, instruments that impact these decisions should 
not be mandated from the Federal level.
    Second, mandating the use of standardized test scores for the 
assessment of teacher performance is neither psychometrically valid, 
nor does it accurately capture the myriad elements of instructional 
practice. This is not because we do not believe that assessments are 
potentially useful instruments, or that teachers are critically 
responsible for improving student learning. As an educators' 
association, we do know the impact that we have on our students. We 
also know that assessments--especially if they are improved to test 
broader and deeper skills and to include multiple components and 
stages--can serve as useful diagnostic and instructional tools for both 
teachers and students to help improve instruction and learning.
    Third, the Blueprint fails to address several other implementation 
problems. For example, how would a teacher effectiveness definition 
which is based substantially on ``student academic growth'' impact art 
teachers or music teachers or other instructional personnel who teach 
subjects not easily assessed by traditional methods? How would the 
system take into account the fact that children learn cumulatively--
meaning that they learn skills from all of their educators--so how can 
we accurately identify which educator should be ``credited'' with 
specific levels of student growth?
    In sum, we object to the Blueprint's mandated linkage between 
student assessments and teachers for evaluative purposes for two 
reasons: (1) because research does not bear out that measuring teacher 
performance through his or her student's standardized test score growth 
is accurate or reliable, to make such a link would have a devastating 
impact not only on teacher instruction and practice but on teacher 
recruitment, retention and morale nationwide; and (2) using 
standardized tests in this manner would perpetuate and exacerbate the 
effects of NCLB because they would increase the unwarranted premium and 
emphasis placed on such tests--which has been perhaps the most frequent 
criticism of NCLB voiced by our members--and divert attention and 
resources away from developing the ``whole child'' through offering a 
more complete curriculum as well as other activities and services. 
Instead, a reauthorized ESEA should foster high-quality teacher and 
principal evaluation systems that are locally and collaboratively 
agreed upon built upon sound principles of professional practice--i.e., 
the essential knowledge, skills and dispositions a quality teacher or 
principal should possess. (See the document entitled ``Ensuring Every 
Child a Quality Teacher'' in our HELP submission on Teachers and 
Leaders for more information on professional practice principles.)
    Furthermore, we will never cease to point out that learning is a 
process influenced by many people and factors in a child's life. As 
noted conservative education historian Diane Ravitch recently noted, 
``It would be good if our Nation's education leaders recognized that 
teachers are not solely responsible for student test scores. Other 
influences matter, including the students' effort, the family's 
encouragement, the effects of popular culture, and the influence of 
poverty.'' (http://www.huffing 
tonpost.com/diane-ravitch/first-lets-fire-all-the-t_b_483074.html) We 
will continue to highlight the reams of studies and evidence that 
supports this conclusion and urge--as we have throughout our 
association's 150-year history--that Federal, State, and local policies 
must acknowledge that the entire education system as well as 
communities, parents, and policymakers have a shared responsibility to 
address the multitude of factors that impact learning.
    Teaching and learning conditions must be addressed as a key 
component of increasing teacher recruitment and retention as well as 
teacher effectiveness. Congress must take additional steps in 
reauthorizing ESEA through school construction and modernization 
funding, title II funding and other ``whole child'' reforms (see above) 
to ensure that teachers and paraprofessionals receive sufficient 
resources, manageable class sizes and the support of other 
professionals to address student health, safety, well-being, nutrition 
and parent and family engagement.
    Finally, we must ensure that school principals and other 
administrators--as well as teachers and education support 
professionals--receive adequate preparation, mentoring, and continuous 
professional development and support to improve their craft. They must 
receive timely and useful feedback from school staff as well as other 
administrators and be evaluated fairly and comprehensively. And they 
must have the resources and the staff necessary to create and maintain 
a successful school.

    Question 2. Of all the ideas and recommendations for education 
reform, where do you believe there is consensus among education 
professionals, policymakers, academics, business leaders, and other 
stakeholders?
    Answer 2. There is broad consensus that we need to identify and 
learn from exemplary schools that are successful at sustaining high 
levels of student learning, graduating high rates of students, and 
closing gaps between student subpopulations. There is also widespread 
agreement that we must rally together as a community and provide 
intensive support to address our ``priority'' or lowest-achieving 
schools. While the ideas on how to showcase exemplary schools or help 
priority schools may differ, we agree that NCLB has done little to 
benefit either end of the school performance spectrum. Therefore, we 
ask Congress to reauthorize ESEA by devoting substantial attention to 
supporting and recognizing achievement and progress in both exemplary 
and priority schools.
    We also agree that none of the improvements needed to create world-
class centers for learning is possible without great educators and 
education support professionals who staff our public schools. That's 
why NEA is calling on Congress to stanch the current tide of layoffs 
and to establish policies through ESEA reauthorization that will 
stabilize education funding and resources and attract and retain 
millions of new, talented educators and education support professionals 
to serve the next generation of American students.
         Response to Questions of Senator Casey by Charles Butt
    Question 1. What are the three most important specific 
recommendations you would make to this committee for reforming 
education through the reauthorization of the Elementary and Secondary 
Education Act?
    Answer 1. (1) If funds were available, full day Pre-K for all low-
income and ESL children with a teacher certified in early childhood, 
and an aide, in a class size of no more than 22. All studies of the 
efficacy of Pre-K are based on these criteria.
    (2) Encourage the entry of leadership individuals into 
superintendent and principal roles and, importantly, include continued 
developmental assistance throughout their careers.
    (3) Enhance curriculum design to provide courses that are relevant 
and rigorous for students who choose not to go to college or at least 
not pursue a 4-year college degree. This should not involve tracking 
but should provide true choice for each student. In recent years the 
focus has been on students that plan to go to college and this effort 
should be enhanced not diminished. At the same time we need to combat 
the drop-out rate by having available more relevant courses for other 
students. Both can be done well if curriculum planning and school 
leadership are effective.

    Question 2. Of all the ideas and recommendations for education 
reform, where do you believe there is consensus among education 
professionals, policymakers, academics, business leaders, and other 
stakeholders?
    Answer 2. Virtually everyone agrees that superior ``leadership 
teaching'' is the underlying requirement to move American education 
ahead. This includes:

    <bullet> Longer term career-pay opportunities that are competitive 
with business and finance. Starting pay has improved in some States but 
few have pay for longer service teachers of outstanding ability that is 
competitive with other professionals.
    <bullet> Currently the bottom third of SAT scoring college 
applicants choose teaching as a career. In the top achieving nations 
globally only the top 5-20 percent of all college graduates are 
admitted to teaching. If we aren't able to attract our strongest young 
people into the field all other efforts will be only modestly effective 
at best.
    <bullet> Although there are many ineffective teachers not serving 
students well, by whom they are replaced is the crucial question. 
Rewarding a few master teachers with very high pay is still untested as 
a concept but even if it proves successful the starting pay and long-
term career pay for a broad spectrum of teachers will be key to 
changing the profession. Even this will be of limited value unless the 
screening and admission procedures are raised significantly and adhered 
to in a highly disciplined way.
    <bullet> Schools should be allowed to replace ineffective teachers.
       Response by John Castellani to Questions of Senator Dodd 
                           and Senator Casey
                        question of senator dodd
    Question 1. Mr. Castellani, as I have said on numerous occasions, 
parental involvement is vital to a child's success in school. The 
Family and Medical Leave Act, which I authored, allows parents to care 
for their newborn or adopted children or when their children are sick. 
However, we still need to allow parents the time they need to be 
involved with their children's schooling. I think business has a role 
to play in encouraging and increasing parental involvement. How can 
businesses help promote parental involvement for children of all ages? 
What do businesses in your coalition currently do to increase employee 
flexibility to allow for more parental involvement in schools? What are 
some innovative ideas that your members have on how to promote this in 
the future?
    Answer 1. Companies are using innovative strategies to encourage 
and support parental involvement in education. For example:

    <bullet> Prudential holds a series of 2-hour seminars for employees 
called ``Prudential CARES About Education,'' that focuses on empowering 
employees to engage with and become informed consumers of public 
education. The seminar is streamed to Prudential employees who cannot 
attend at the company's headquarters in Newark, NJ. The most recent 
forum addressed what parents can do to help their children succeed in a 
global economy.
    <bullet> State Farm provides a yearly paid Education Support (ES) 
day to volunteer in a local school. This provides a way for all 
employees--not just parents--to get involved in their schools.
    <bullet> Procter & Gamble's flexible work options have resulted in 
employees reporting that their morale has increased and they appreciate 
the opportunity to attend parent activities at their children's 
schools.
    <bullet> Over 200 companies in Maryland link to the Maryland 
Business Roundtable for Education's PARENTS COUNT Web site that 
provides information to their employees who are parents on how they can 
help their children succeed in school.
    <bullet> Recent research on workplace flexibility initiatives for 
hourly workers sponsored by Corporate Voices for Working Families found 
they are as successful as those designed for professional staff. In 
fact, businesses that offer hourly employees flexible work options find 
that they enhance recruitment, retention, engagement, cost control, 
productivity and financial performance. While companies' use of 
workplace flexibility is not exclusively to provide time for parental 
involvement in schools, case studies demonstrate that employees feel 
comfortable using the flexibility for this purpose.
                       questions of senator casey
    Question 1. What are the three most important specific 
recommendations you would make to this committee for reforming 
education through the reauthorization of the Elementary and Secondary 
Education Act?
    Answer 1. The Principles for Reauthorization of the Elementary and 
Secondary Education Act, developed by the Business Coalition for 
Student Achievement and included in my testimony, provide a set of 
recommendations that work together to reform education and improve 
student achievement. This is not a menu where you can select just three 
items. However, there are three basic elements that are absolutely 
essential: continue the focus on disaggregated data with accountability 
for all groups of students; incent States to raise their content and 
performance standards to college and career ready levels instead of 
lowering them to create a false impression of success; and shift from 
``highly qualified'' to ``highly effective'' teachers to attract, 
retain and compensate top-notch teachers.

    Question 2. Of all the ideas and recommendations for education 
reform, where do you believe there is consensus among education 
professionals, policymakers, academics, business leaders, and other 
stakeholders?
    Answer 2. If our goal is consensus on education reform among all 
stakeholders, it is likely that reauthorization would turn back the 
clock rather than make any of the significant reforms needed to improve 
student achievement. Given that caveat, I believe there is consensus on 
the need for more emphasis on high schools, the need to remove the 
unintended consequence of States lowering their definitions of 
proficiency, and the need to measure student growth over time instead 
of the current comparison of the current year's students to the prior 
year's students at that grade level.

    [Whereupon, at 4:55 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
